<html>
<title> - H.R. 1604, MAP IT ONCE, USE IT MANY TIMES ACT AND H.R. 916, FEDERAL LAND ASSET INVENTORY REFORM ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                 H.R. 1604, MAP IT ONCE, USE IT 
                    MANY TIMES ACT AND H.R. 916, 
                 FEDERAL LAND ASSET INVENTORY REFORM 
                           ACT OF 2013

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE
                               
                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, December 5, 2013

                               __________

                           Serial No. 113-53

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                
 ____________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>  
       
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Rauul R. Labrador, ID                Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Steve Daines, MT                     Matt Cartwright, PA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Steven A. Horsford, NV
Rob Bishop, UT                       Matt Cartwright, PA
Robert J. Wittman, VA                Jim Costa, CA
Paul C. Broun, GA                    Niki Tsongas, MA
John Fleming, LA                     Jared Huffman, CA
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Cynthia M. Lummis, WY                Tony Caardenas, CA
Dan Benishek, MI                     Rauul M. Grijalva, AZ
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Joe Garcia, FL
Bill Flores, TX                      Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Vacancy
Vacancy                              Peter A. DeFazio, OR, ex officio
Vacancy
Doc Hastings, WA, ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, December 5, 2013.......................     1

Statement of Members:
    Holt, Hon. Rush, a Representative in Congress from the State 
      of 
      New Jersey.................................................     3
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress for the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Gallagher, Kevin T., Associate Director for Core Science 
      Systems, U.S. Geological Survey [USGS], Department of the 
      Interior...................................................     7
        Prepared statement of....................................    10
        Questions submitted for the record.......................    12
    Lovin, Jeff, CP, PS, Chairman, Coalition of Geospatial 
      Organizations [COGO].......................................    52
        Prepared statement of....................................    54
        Questions submitted for the record.......................    56
    Lower, Jeff President, the Management Association for Private 
      Photogrammetric Surveyors [MAPPS]..........................    41
        Prepared statement of....................................    42
        Questions submitted for the record.......................    46
    Mouritsen, Karen, Deputy Assistant Director for Minerals and 
      Realty Management, Bureau of Land Management [BLM].........     7
    Parrish, Jay B., Ph.D., P.G., Former State Geologist, 
      Pennsylvania Geological Survey, Chair, Mapping Committee, 
      Association of American State Geologists [AASG]............    57
        Prepared statement of....................................    63
        Questions submitted for the record.......................    65
    Powner, David A., Director, Information Technology Management 
      Issues, U.S. Government Accountability Office [GAO]........    15
        Prepared statement of....................................    16
        Questions submitted for the record.......................    27
    Sumner, Curtis W., LS, Executive Director, National Society 
      of Professional Surveyors [NSPS]...........................    47
        Prepared statement of....................................    49
        Questions submitted for the record.......................    52

Additional Material Submitted for the Record:
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Letter submitted for the record..............     4
    National Enhanced Elevation Assessment at a Glance, by 
      Gregory I. Snyder, U.S. Geological Survey, U.S. Department 
      of the Interior............................................    57
    The 3D Elevation Program--Summary of Program Direction, by 
      Gregory I. Snyder, U.S. Department of the Interior, U.S. 
      Geological Survey..........................................    60
    U.S. Department of the Interior, Prepare statement on H.R. 
      916........................................................     8
                                     



LEGISLATIVE HEARING ON H.R. 1604, TO ESTABLISH THE NATIONAL GEOSPATIAL 
TECHNOLOGY ADMINISTRATION WITHIN THE UNITED STATES GEOLOGICAL SURVEY TO 
ENHANCE THE USE OF GEOSPATIAL DATA, PRODUCTS, TECHNOLOGY, AND SERVICES, 
     TO INCREASE THE ECONOMY AND EFFICIENCY OF FEDERAL GEOSPATIAL 
ACTIVITIES, AND FOR OTHER PURPOSES, MAP IT ONCE, USE IT MANY TIMES ACT; 
      AND H.R. 916, TO IMPROVE FEDERAL LAND MANAGEMENT, RESOURCE 
    CONSERVATION, ENVIRONMENTAL PROTECTION, AND USE OF FEDERAL REAL 
   PROPERTY, BY REQUIRING THE SECRETARY OF THE INTERIOR TO DEVELOP A 
    MULTIPURPOSE CADASTRE OF FEDERAL REAL PROPERTY AND IDENTIFYING 
 INACCURATE, DUPLICATE, AND OUT-OF-DATE FEDERAL LAND INVENTORIES, AND 
  FOR OTHER PURPOSES, FEDERAL LAND ASSET INVENTORY REFORM ACT OF 2013

                              ----------                              


                       Thursday, December 5, 2013

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:35 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lamborn, Fleming, Thompson, 
Lummis, Duncan, Holt, Horsford, Lowenthal, and Garcia.
    Mr. Lamborn. The committee will comet to order. The 
Subcommittee on Energy and Mineral Resources is meeting today 
to hear testimony at a legislative hearing on H.R. 1604, 
introduced by myself, the Map It Once, Use It Many Times Act, 
and H.R. 916, introduced by Representative Kind, the Federal 
Land Asset Inventory Reform Act of 2013.
    Under committee rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the subcommittee; 
however, I ask unanimous consent that members be permitted to 
submit opening statements to the hearing record if submitted to 
the clerk by close of business today. Hearing no objection.
    Mr. Holt. No objection.
    Mr. Lamborn. So ordered.
    I now recognize myself for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
               CONGRESS FOR THE STATE OF COLORADO

    Mr. Lamborn. I would like to thank our witnesses for being 
here today. Today we are holding a legislative hearing on two 
bills aimed at reducing Federal bureaucracies and streamlining 
Government inefficiencies in Federal land management. These 
bills will also coordinate what are currently duplicative 
missions of multiple Federal agencies to create a more 
efficient government and save taxpayer dollars by ensuring that 
they are not being spent on duplicative efforts.
    As technology advances, local, State, and Federal 
Governments are increasingly turning to geospatial information 
for a variety of purposes. Multiple Federal agencies, such as 
the Department of Transportation, Department of Agriculture, 
and Department of Defense, all use geospatial mapping for their 
own purposes. The challenge comes when these governments and 
government agencies are using taxpayer dollars for duplicative 
efforts in surveying and mapping. Rather than sharing 
information or coordinating efforts, these agencies often map 
the same areas on multiple occasions, replicating the efforts 
of the other agencies and using taxpayer dollars to repeatedly 
map the same area.
    On other occasions, these agencies acquire equipment, such 
as planes, ships, or computers, rather than contracting with 
private sector companies that specialize in conducting state-
of-the-art geospatial surveys. In fact, my home State of 
Colorado is home to many very capable geospatial and mapping 
companies who are anxious to work with the Federal Government 
to meet our geospatial surveying needs.
    For decades, Government reports have highlighted the 
problems facing the Federal Government's geospatial programs. 
Recognizing these challenges, Government officials have 
attempted to coordinate these efforts by the various Federal 
agencies. However, a November 2012 GAO report concluded that 
while policies and procedures for coordinating investments in 
geospatial data have been established, agencies have not 
effectively implemented them.
    Today we will hear testimony on two bills. The first, my 
legislation, H.R. 1604, the Map It Once, Use It Many Times Act, 
establishes a National Geospatial Technology Administration 
that will oversee and coordinate all geospatial functions that 
are currently undertaken by multiple Federal agencies. The 
administration would also promulgate standards for ensuring the 
geospatial data collected will be used efficiently and 
effectively by all Federal agencies.
    We will also hear testimony on H.R. 916, the Federal Land 
Asset Inventory Reform Act of 2013, or FLAIR Act. This 
bipartisan legislation will improve Federal land management, 
resource conservation, and environmental protection by 
requiring the Secretary of the Interior to develop a 
comprehensive register of Federal property to identify 
inaccurate, duplicative, and out-of-date Federal land 
inventories.
    These two bills will reduce duplicative Federal efforts, 
ensure effective and efficient management of taxpayer dollars, 
and streamline Federal geospatial mapping programs to ensure we 
will have a state-of-the-art inventory of all Federal lands 
that can be used across multiple Federal agencies for their 
varying needs.
    [The prepared statement of Mr. Lamborn follows:]
      Prepared Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources
    I'd like to thank our witnesses for being with us today. Today we 
are holding a legislative hearing on two bills aimed at reducing 
Federal bureaucracies and streamlining Government inefficiencies in 
Federal land management. These bills will also coordinate what are 
currently duplicative missions of multiple Federal agencies to create a 
more efficient Government and save taxpayer dollars by ensuring they 
are not being spent on duplicative efforts.
    As technology advances, local, State and the Federal Government are 
increasingly turning to geospatial information for a variety of 
purposes. Multiple Federal agencies, such as the Department of 
Transportation, Department of Agriculture, and Department of Defense, 
all use geospatial mapping for their own purposes. The challenge comes 
when these governments and Government agencies are using taxpayer 
dollars for duplicative efforts in surveying and mapping. Rather than 
sharing information or coordinating efforts, these agencies often map 
the same areas on several occasions--duplicating the efforts of the 
other agencies and using taxpayer dollars to repeatedly map the same 
area.
    On other occasions, these agencies acquire equipment, such as 
planes, ships or computer equipment, rather than contracting with 
private sector companies that specialize in conducting state-of-the-art 
geospatial surveys.
    In fact, my home State of Colorado is home to many outstanding 
geospatial and mapping companies who are anxious to work with the 
Federal Government to meet our geospatial surveying needs.
    For decades, Government reports have highlighted the problems 
facing the Federal Government's geospatial programs. Recognizing these 
challenges, Government officials have attempted to coordinate these 
efforts by the various Federal agencies. However, a November 2012 GAO 
report concluded that while policies and procedures for coordinating 
investments in geospatial data have been established, agencies have not 
effectively implemented them.
    Today we will hear testimony on two bills. The first, my 
legislation, H.R. 1604, the ``Map it Once, Use it Many Times Act,'' 
establishes a National Geospatial Technology Administration that will 
oversee and coordinate all geospatial functions that are currently 
undertaken by multiple Federal agencies.
    The administration will also promulgate standards for ensuring the 
geospatial data collected will be used efficiently and effectively by 
all Federal agencies.
    We will also hear testimony on H.R. 916, the ``Federal Land Asset 
Inventory Reform Act of 2013.'' This bipartisan legislation will 
improve Federal land management, resource conservation and 
environmental protection by requiring the Secretary of the Interior to 
develop a comprehensive register of Federal property to identify 
inaccurate, duplicative, and out of date Federal land inventories.
    These two bills will reduce duplicative Federal efforts, ensure 
effective and efficient management of taxpayer dollars, and streamline 
Federal geospatial mapping programs to ensure we will have a state-of-
the-art inventory of all Federal lands that can be used across multiple 
Federal agencies for their varying needs.
                                 ______
                                 
    Mr. Lamborn. I now recognize the Ranking Member for his 
opening statement.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. Thanks for holding this 
hearing. I appreciate the witnesses for coming.
    Well, when it comes to knowing what school your kids attend 
or buying or selling land or getting directions on your smart 
phone to the nearest gas station, accurate and easily 
accessible geospatial data really are essential nowadays. And 
the Government Accountability Office has pointed out repeatedly 
and multiple administrations have acknowledged that the Federal 
Government could and should be doing a better job in how it 
collects and handles geospatial data. The lack of effective 
coordination, according to the GAO, among the Federal agencies 
is causing them to spend millions of dollars that could be 
saved if they were better coordinated.
    One of the bills here today, our Chair's Map It Once, Use 
It Many Times Act, is a good attempt to tackle this complex and 
longstanding issue. I commend the Chair for the thoughtful 
attention he has paid to this problem, and I look forward to 
the testimony on this subject.
    I do share some of the administration's concerns with the 
legislation as it is currently written. I am not convinced that 
a new agency within the Department of the Interior is necessary 
to address the Government's lack of coordination of data and 
handling of the data, and I do support the role of the private 
geospatial industry in this country. Yet, I question whether in 
this legislation there is an overdependence on the private 
sector, which might raise some conflict of interest issues. So 
I hope we will explore that.
    The other bill on today's agenda, the Federal Land 
Assessment Inventory Reform Act, the FLAIR Act, introduced by 
Mr. Kind and Mr. Bishop, is a response to the simple fact that 
the Federal Government simply doesn't know how much land it 
owns. I would like to ask unanimous consent to introduce into 
the record a letter from Representative Kind of Wisconsin, one 
of the cosponsors of this legislation.
    Mr. Lamborn. If there is no objection, so ordered.
    [The letter submitted for the record by Mr. Kind follows:]
     Letter Submitted for the Record by the Honorable Ron Kind, a 
         Representative in Congress From the State of Wisconsin
                     U.S. House of Representatives,
                                      Washington, DC 20515,
                                                  December 5, 2013.
The Honorable Doug Lamborn,
U.S. House of Representatives,
Committee on Natural Resources,
Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

The Honorable Rush Holt,
U.S. House of Representatives,
Committee on Natural Resources,
Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Lamborn and Ranking Member Holt,

    I extend my gratitude to you for holding a hearing on H.R. 916, the 
Federal Land Asset Inventory Reform [FLAIR] Act. This bill will not 
only reduce wasteful spending, but it will also allow for greater 
protection of our natural environment and resources.
    Over the past six Congresses, the Government Accountability Office 
[GAO] has repeatedly designated ``Managing Federal Real Property'' as 
one of the high-risk areas within the Federal Government most prone to 
waste, fraud, and abuse. One of the reasons cited by GAO is the fact 
that the Government does not have a current, accurate inventory of the 
land it owns. The General Services Administration [GSA] collects data 
from at least 30 Federal agencies; however, it system has been 
criticized by the GAO for being ``unreliable and of limited 
usefulness'' and ``not current or reliable.'' On the other hand, the 
government inefficiently maintains a plethora of land inventories that 
are inaccurate, out-of-date, single purposed, and non-interoperable. 
The inefficient and wasteful nature of the Government's current 
approach of doing business was demonstrated by then-Interior Secretary 
Gale Norton's 2005 testimony before the House Interior Appropriations 
Subcommittee:

        ``The Department currently uses 26 different financial 
        management systems and over 100 different property systems. 
        Employees must enter procurement transactions multiple times in 
        different systems so that the data are captured in real 
        property inventories, financial systems, and acquisition 
        systems. This fractured approach is both costly and burdensome 
        to manage.''

    This inefficiency should not be the case when a single, uniform, 
reliable, regularly maintained data base is currently available through 
state-of-the-art geographic information systems [GIS] technology.
    On February 28, 2013, I introduced the FLAIR Act with Congressman 
Rob Bishop. This bill creates a single, Federal multipurpose cadastre 
(a uniform Federal computer data base), in accordance with standards 
recommended by the National Academy of Sciences. The bill also calls 
for an ``inventory of inventories,'' so that duplication can be 
identified and eliminated. The FLAIR Act will provide all agencies 
owning Federal real property an improved accounting of their land 
assets. Such an inventory will assist in improved Federal land 
management, resource conservation, environmental protection and 
utilization of real property, as well as identify property the Federal 
Government no longer needs to own.
    I urge you to support this common sense, good governance bill, and 
I thank you for holding this hearing.
            Sincerely,
                                                  Ron Kind,
                                                Member of Congress.
                                 ______
                                 
    Mr. Holt. Thank you.
    It might seem incomprehensible to taxpayers that the 
Federal Government doesn't know how much land it owns, but it 
becomes more understandable when you think about how the West 
was settled with railroad land grants and the Homestead Act and 
the Mining Act of 1872, and lots of bits and pieces of other 
legislation that resulted in enormous transfers of Federal land 
to private ownership.
    However, this is now the 21st century, and despite the 
enormity of the task, we should be able to compile an accurate 
inventory of Federal land. The administration has some concerns 
on this legislation also, mostly having to do with cost, which 
is estimated to be as high as $68 billion.
    Now, this high cost comes, I believe, largely from the 
requirement in the legislation that each parcel of land have 
attached to it a current value. And of course, we want to know 
the value of the land that the Federal Government owns, but 
maybe there will be more cost-effective ways to accomplish what 
we are trying to do here.
    I want to thank the witnesses for being here, particularly 
Dr. Parrish from Penn State, who we have invited to come and 
who is representing the Association of American State 
Geologists. I have asked Dr. Parrish to provide us not only his 
thoughts on this specific legislation, but also to discuss the 
USGS initiative called the 3D Elevation Program, or 3DEP, which 
is an example of a widely supported and we think, I think, 
critically important mapping initiative that is getting under 
way.
    So I thank the Chair for setting up what proposes to be an 
interesting hearing. Thank you.
    Mr. Lamborn. Well, I appreciate the Ranking Member's 
thoughtful and kind remarks.
    [The prepared statement of Mr. Holt follows:]
    Prepared Statement of the Honorable Rush Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you very much, Mr. Chairman, and thank you for holding this 
hearing that will call more attention to the continuing issues the 
Federal Government has with collecting and managing geospatial data, 
and also allow us to discuss some proposed solutions.
    Although most people are probably unfamiliar with the term 
``geospatial data,'' the issue of how Federal, State, and local 
governments manage that data is critically important to the lives of 
every American. When it comes to what school your kids go to, buying or 
selling a plot of land, or getting directions on your smartphone to the 
nearest gas station, accurate and easily accessible geospatial data is 
absolutely essential.
    Unfortunately, as the Government Accountability Office [GAO] has 
pointed out repeatedly over the past decade, and multiple 
administrations have acknowledged, the Federal Government could be 
doing a better job in how it collects and handles geospatial data. In 
particular, GAO is concerned that the lack of effective coordination 
between Federal agencies is causing them to spend millions of dollars 
in potentially duplicative data collection.
    One of the bills we are here today to discuss, the Chairman's ``Map 
It Once, Use It Many Times Act,'' is an attempt to tackle this complex 
and long-standing issue, and I commend him for the thoughtful attention 
he has paid to this problem.
    However, I share some of the administration's concerns with the 
legislation as it is currently written. I'm not convinced that a new 
agency within the Department of the Interior is necessary to address 
the Federal Government's problems with geospatial data, and while I 
strongly support the growth of the private geospatial industry in this 
country, I worry that there is an over-dependence on the private sector 
written into the legislation, raising some potential conflict-of-
interest issues.
    The other bill on today's agenda, the ``Federal Land Asset 
Inventory Reform Act of 2013,'' or the FLAIR Act, introduced by Mr. 
Kind and Mr. Bishop, is a response to the simple fact that the Federal 
Government simply does not know how much land it owns. It seems almost 
incomprehensible, until you look at the history of how the West was 
settled, with the railroad land grants, the Homestead Act, the Mining 
Law of 1872, and other legislation resulting in enormous transfers of 
Federal land to private ownership. But this is the 21st century, and 
despite the difficulty of the task, I believe we should be able to have 
an accurate inventory of Federal land.
    I understand the administration has some concerns about the cost of 
the legislation, which they have estimated to be as high as $68 billion 
largely due to the provisions in the bill that require determining 
value estimates for each parcel of Federal land. I am certainly 
interested in hearing more about those cost estimates, and whether 
there are ways to accomplish the goals of the bill in a more cost-
effective manner.
    Finally, I would like to thank all the witnesses for being here, 
particularly Dr. Jay Parrish from Penn State, who is here at the 
request of the minority, and is representing the Association of 
American State Geologists. I've asked Dr. Parrish to not only provide 
us his thoughts on the legislation, but also on a USGS initiative 
called the 3D Elevation Program, or 3-DEP, which is an example of a 
strongly supported and critically important mapping initiative just 
getting underway.
    Thank you again, Mr. Chairman, and I look forward to hearing 
today's testimony.
                                 ______
                                 
    Mr. Lamborn. We will now launch into the hearing. I will 
point out that later this morning we will have votes that are 
called and we will have to leave here. There is a good chance 
we will be done with both panels and the questions for both 
panels by that time, but we will see how that goes.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I would ask that you 
keep your oral statement to 5 minutes, as outlined in our 
invitation letter to you and under committee rule 4(a). The 
microphone is not automatic, so you need to turn it on when you 
are ready to begin.
    I also want to explain how our timing lights work. You may 
already be familiar, but when you begin to speak, the clerk 
will start the timer and a green light will appear. After 4 
minutes, a yellow light appears, and at that time you should 
begin to conclude your statement. At 5 minutes, the red light 
will come on. You may complete your statement at that time, and 
I would ask that you not go further than that.
    Mr. Gallagher, thank you for being here. And let me 
introduce our two witnesses first. We have Kevin Gallagher, 
Associate Director for Core Science Systems, the United States 
Geological Survey, accompanied by Karen Mouritsen, Deputy 
Assistant Director for Minerals and Realty Management of the 
Bureau of Land Management. And we have David Powner, Director 
of Information Technology Management Issues for the Government 
Accountability Office.
    Thank you for being here. And, Mr. Gallagher, you may 
begin.

 STATEMENT OF KEVIN T. GALLAGHER, ASSOCIATE DIRECTOR FOR CORE 
    SCIENCE SYSTEMS, UNITED STATES GEOLOGICAL SURVEY [USGS]

ACCOMPANIED BY KAREN MOURITSEN, DEPUTY ASSISTANT DIRECTOR FOR MINERALS 
            AND REALTY MANAGEMENT, BUREAU OF LAND MANAGEMENT [BLM]
    Mr. Gallagher. Well, thank you, Chairman Lamborn, for 
inviting the Department of the Interior to provide its views on 
H.R. 1604, the Map It Once, Use It Many Times Act, and H.R. 
916, the Federal Land Asset Inventory Reform Act.
    I will summarize BLM's perspectives on H.R. 916, but first 
I would like to discuss H.R. 1604. The stated objectives of the 
bill are to reduce duplication of geospatial data and to take 
full advantage of the expertise of the private sector. The 
Department of the Interior is actively pursuing these goals. 
The administration opposes, however, H.R. 1604 because it would 
unnecessarily replicate existing government activities that are 
already enabling efficient use of taxpayer dollars.
    For over two decades, the Federal Geographic Data Committee 
has worked to reduce duplication and increase the 
interoperability of geospatial data. The new agency proposed in 
this bill would replace the existing objectives and efforts of 
the FGDC. H.R. 1604 states that its intention is to reduce 
duplication. Yet what is sometimes perceived as duplication can 
in fact be data collected over the same geographic area but for 
different end user needs.
    For example, the Department of Agriculture requires aerial 
imagery that is collected during the growing season. Other 
applications, such as mapping streams, requires data that is 
collected in the winter when the leaves have fallen. This is to 
say that the management of geospatial data should focus on 
users' needs. OMB Circular A-16 provides for such an approach. 
Under this policy, the FGDC develops effective standards and 
infrastructure for sharing geospatial data and fosters 
cooperation among Federal and non-Federal partners.
    There are various examples that demonstrate Federal 
collaboration and cooperation, but I would like to highlight 
three at the Department of the Interior. The geospatial 
products and services contract administered by the USGS uses 
professional geospatial firms to acquire geospatial data. The 
contract is designed for use by multiple agencies and State 
governments to collect data once and use it many times. We are 
using this contract as we speak to collect data and quality 
assure that data over Colorado in response to the devastating 
floods in September, as well as in the State of New Jersey in 
response to Sandy.
    The Alaskan Mapping Initiative, established in 2011, is 
updating topographic maps for the State. The effort includes 
multiple Federal and State agencies and is overseen by a joint 
Federal-State committee. This initiative will provide data and 
finished maps that are expected to spur economic development 
and promote public safety in the State.
    Third, the 3D Elevation Program is an initiative to acquire 
high resolution lidar over the Nation and is funded at $9 
million in the President's 2014 budget. The seeds of 3DEP were 
sown in 2010 when five agencies partnered together to 
commission a study of the needs for and the benefits of a 
nationwide lidar program. It inventoried all publicly available 
funded lidar and found less than 9 percent of it was 
duplicated.
    As you know, there have been impressive advances in lidar 
technology in recent years, and 3DEP has been designed to meet 
a wide variety of these needs, including civil engineering, 
energy and minerals production, agriculture, intelligent 
vehicle navigation, just to name a few. As for the 
recommendations made by GAO to DOI in their 2013 report, three 
of nine have been completed and the remaining six are expected 
to be completed by March 2014.
    Moving on to H.R. 916, the Department has serious concerns 
with the bill, which would provide little new critical 
information about the lands the Federal Government manages and 
would be prohibitively expensive to implement. H.R. 916 
requires the Secretary of the Interior to undertake a 
multipurpose cadastre of all Federal real property, including 
an inventory with information about the use, value, assets, and 
infrastructure of each parcel. This bill further requires the 
Secretary to determine which priorities can be better managed 
through ownership by a non-Federal entity.
    The costs of the comprehensive inventory of Federal lands 
envisioned by H.R. 916 would be prohibitive. The Department of 
the Interior believes that the reduction of funds away from 
accomplishing important projects and jobs that they create in 
the areas of energy development, resource protection, 
recreation, and conservation is not the best use of taxpayers' 
dollars.
    [The Department of the Interior's Statement for the Record 
on H.R. 916 follows:]
        Prepare Statement of the U.S. Department of the Interior
       h.r. 916--federal land asset inventory reform act of 2013
    Thank you for inviting the Department of the Interior to provide 
this statement for the record on H.R. 916, the Federal Land Asset 
Inventory Reform Act of 2013. The Department has serious concerns with 
H.R. 916, which would provide little new critical information about the 
lands the Federal Government manages and would be prohibitively 
expensive to implement.
                               background
    According to the Congressional Research Service, the Federal 
Government manages 635 to 640 million acres of the nearly 2.3 billion 
acres that constitute the United States. The largest land managers for 
the Federal Government are the Departments of the Interior, 
Agriculture, Defense, and Energy. Within the Department of the 
Interior, the Bureau of Land Management administers approximately 245 
million acres; the National Park Service manages approximately 80 
million acres; the Fish and Wildlife Service manages approximately 150 
million acres as part of the Refuge System; and the Bureau of 
Reclamation manages approximately 6.5 million acres associated with 
Bureau of Reclamation projects. The U.S. Forest Service, in the 
Department of Agriculture, manages approximately 193 million acres. 
Approximately 27.9 million acres in the United States are managed by 
the Department of Defense. Additionally, hundreds of thousands of 
buildings and structures are managed by a multitude of Federal 
agencies.
                                h.r. 916
    H.R. 916 requires the Secretary of the Interior to undertake a 
multipurpose cadastre of all Federal real property, defined as real 
estate ``consisting of land, buildings, crops, forests, or other 
resources.'' The bill defines cadastre as an inventory of the real 
property of the Federal Government including information about the 
``use, value, assets and infrastructure of each parcel.'' The bill 
further requires the Secretary to determine which properties ``can be 
better managed through ownership by a non-Federal entity.''
    The cost of this type of a detailed inventory of Federal real 
property called for in H.R. 916 would be prohibitive. A very rough 
estimate suggests that the cost could run in the many billions of 
dollars.
    Some of the requirements in H.R. 916 are duplicative of other work 
and reports done by Federal agencies. One example is a comprehensive 
review of the Federal Government's oil and gas resources which was 
required by the Energy Policy Conservation Act of 2000 (EPCA), Public 
Law 106-469. The final phase of the multi-agency EPCA report was 
completed in 2008.
    H.R. 916 also requires that as part of the cadastre, a review be 
done to determine which lands could be better managed by a non-Federal 
entity. For the BLM, for instance, this would be a costly process that 
would duplicate work already being done by individual BLM field 
offices.
    Many of the decisions about how best to manage the public lands 
entrusted to the BLM's management are made through 157 individual 
Resource Management Plans (RMPs) which are developed with full public 
participation at the local level. These RMPs provide the foundation for 
every on-the-ground action taken or authorized by the BLM, and include 
an inventory and assessment of a broad range of resource values and 
public land uses. Among the many decisions made through the RMP process 
is the identification of lands that are potentially available for 
disposal. Extensive public involvement in this process is critical. 
H.R. 916 appears to substitute the judgment of officials in Washington, 
DC. for decisions made on the ground by local field managers, through 
an open and inclusive public process. The Department has serious 
concerns with H.R. 916 because of the likely costly and duplicative 
process of identifying lands for disposal established by this bill.
    The Department of the Interior is aware of and appreciates the 
concerns expressed by some Members of Congress about the accuracy of 
data on lands owned by the Federal Government and specifically in the 
Department of the Interior. It is worth noting that the Federal 
Government is making important strides in improving the accuracy, 
efficiency and level of data available on the Federal real property 
portfolio. The Federal Real Property Council [FRPC] works across 
agencies to determine opportunities to spread real property best 
practices, achieve short and long-term cost savings, and realign real 
property inventories to agency mission and service delivery.
    Beginning in 2010, the BLM initiated a mineral and land records 
verification and validation program which is focused on delivering 
accurate land inventory data, while improving transparency and 
accountability. This system, once completed, will allow for more 
efficient and effective management of mineral and land records. Until 
it is completed, the public can access an updated national surface 
management data set through the BLM's GeoCommunicator Web site.
                               conclusion
    The cost of the comprehensive inventory of Federal lands envisioned 
by H.R. 916 would be prohibitive. The Department of the Interior 
believes that the redirection of funds away from accomplishing 
important projects and the jobs they create in areas of energy 
development, resource protection, recreation, and conservation is not 
the best use of taxpayer dollars.
                                 ______
                                 
    Mr. Gallagher. Chairman, again, I thank you for this 
opportunity. I will be pleased to respond to any questions that 
you may have about H.R. 1604.
    Mr. Lamborn. Thank you.
    [The prepared statement of Mr. Gallagher follows:]
 Prepared Statement of Kevin T. Gallagher, Associate Director for Core 
  Science Systems, U.S. Geological Survey, Department of the Interior
             h.r. 1604--map it once, use it many times act
    Thank you for inviting the Department of the Interior to provide 
its views on H.R. 1604, the Map It Once, Use It Many Times Act. The 
stated objectives of H.R 1604 are to reduce duplication of federally 
managed geospatial data and to take full advantage of the expertise of 
the private sector. The Department is actively pursuing these goals. 
The administration opposes H.R. 1604 because it is inconsistent with 
and duplicates existing authorized activities and programs, includes 
definitions of geospatial information and activities that are overly 
broad, and is not adequately designed to achieve the stated goals of 
the bill.
    The Department of the Interior [DOI] plays a leading role in the 
Federal collection, maintenance, and management of geospatial data. 
These activities are coordinated by the Federal Geospatial Data 
Committee [FGDC], which has its Secretariat housed at the USGS. The 
FGDC is co-chaired by leadership from DOI and the E-Government Office 
at the White House Office of Management and Budget and includes the 
participation of 31 agencies. The policy framework that guides these 
activities is found in OMB Circular A-16. For over two decades, the 
FGDC has worked to reduce duplication and increase the interoperability 
of federally sourced geospatial data. The FGDC has established common 
geospatial data standards across the Federal Government, so that data 
collected by one agency can be used by another. The FGDC has also 
determined authoritative sources for a set of data themes, ensuring 
that one agency does not produce data already being produced by 
another. The new agency proposed in H.R. 1604, the National Geospatial 
Technology Administration [NGTA], would replace the existing objectives 
and efforts of the FGDC (FGDC's advisory board, the NGAC, would be 
replaced by the newly established National Geospatial Policy Commission 
under title II). This, however, conflicts with the recommendations made 
by the Government Accountability Office [GAO] currently being 
implemented by the FGDC (discussed below).
    H.R. 1604 would substantially alter the activities of the Federal 
Government related to the collection and management of geospatial data, 
which include the location, boundaries, and ownership of land in the 
United States. Title I would establish a new bureau in the Department: 
the NGTA. This provision would transfer to the Administrator of the 
NGTA all geospatial functions vested by law within DOI, the National 
Oceanic and Atmospheric Administration in the Department of Commerce, 
and the Department of Agriculture with respect to National Forest 
System lands. This new bureau would be directed to establish a 
comprehensive data base that would include a large variety of 
geospatial data from both public and commercial sources. Title II would 
establish the National Geospatial Policy Commission [NGPC], a body of 
Federal and non-Federal stakeholders tasked with developing a plan for 
the management of the new geospatial data base and identifying 
activities performed by Federal agencies that should be converted to 
performance by private geospatial firms. It is important to note that 
the National Geospatial Advisory Commission is already in existence and 
is quite active in advising the Federal agencies on geospatial 
activities. Title III and title IV concern the use of private 
contractors for the production of geospatial data and repeat direction 
that already exists in current Federal acquisition law. Title V would 
authorize a Federal geospatial research and development plan.
    The nature of place-based information, or geospatial data, has 
evolved significantly in just the last few years. Information that was 
once available only in printed form is now available on almost every 
mobile communications device on the market, and while the data were 
once produced by a cadre of experts such as cartographers, 
photogrammetrists, and GIS specialists, today, some categories of 
geospatial data, such as building or street locations, are often 
produced by everyday users through crowd sourcing and Web-based 
applications. These changes are a byproduct of revolutionary advances 
in information technology, which are affecting nearly every aspect of 
our lives. In particular, when precise Global Positioning System data 
were made available for civilian use in 2000, the general availability 
of geospatial data and applications increased exponentially.
    Modern mapping applications developed in the private sector often 
rely on geospatial data from Federal sources. For example, much of the 
imagery available on Web-based mapping applications, such as Google 
Maps and Esri's ArcGIS, is procured through the Department of 
Agriculture's National Agriculture Imagery Program. This imagery is 
used for agricultural monitoring by the USDA Farm Service Agency, but 
it is also made available to the public free of charge, allowing 
private firms to design value-added applications using the imagery. The 
same is true for other forms of geospatial data, such as boundaries for 
ZIP codes or National Parks, center lines for streams and rivers, or 
land cover datasets. Finished maps produced by private firms are often 
made using data from Government sources as the base.
    H.R. 1604 states that its intention is to reduce duplication--yet 
what is sometimes perceived as duplication can, in fact, be data 
collected over the same geographic area but having different attributes 
to respond to significantly different end user needs and 
specifications. For example, the Department of Agriculture requires 
aerial imagery that is collected during the growing season, when there 
are leaves on the trees; other applications, such as the detailed 
mapping of hydrography, requires aerial imagery that is collected in 
the winter, when the leaves have fallen and do not obscure the view of 
stream networks.
    We support a user-focused approach to the production and management 
of federally sourced geospatial data. OMB Circular A-16 is aimed at 
promoting the coordinated use, sharing, and dissemination of geospatial 
data nationwide and follows such an approach. Currently, under this 
policy framework, the National Geospatial Advisory Committee [NGAC] 
advises the FGDC on effective standards-setting, the management of 
Federal and national geospatial data, the development of a uniform 
infrastructure for all geospatial data, and cooperation among Federal 
and non-Federal holders of geospatial data and users of geospatial 
data.
    In 2011, the Government Accountability Office [GAO] conducted a 
review of the extent to which the Federal Government has established 
and effectively implemented policies and procedures for coordinating 
its geospatial investments and avoiding duplication. GAO recommended a 
number of improvements to the implementation of Circular A-16. Of the 
nine recommendations made by GAO to the FGDC and DOI, three have been 
completed. The remaining six are expected to be completed by 2014. 
(This is in addition to 11 recommendations made by GAO in 2004, all of 
which have been completed.)
    Another example of the user-focused approach is the Geospatial 
Products and Services Contracts, administered by the USGS. These 
contracts, which are already used by Federal, State, tribal, and local 
agencies, help agencies leverage their resources to collect geospatial 
data that meet multiple needs. There are also existing laws that 
further support collaboration on geospatial information, such as the 
Ocean and Coastal Mapping Integration Act (OCMIA, 33 U.S.C. 3501). 
OCMIA establishes a program for developing a coordinated and 
comprehensive Federal ocean and coastal mapping plan that includes 
cooperative mapping efforts, collaborative technology development, 
standards and protocols, and archiving of the data for public use. 
Last, a very current example of user-focused procedures is the Alaska 
Mapping Initiative. Established in 2011, the initiative is developing 
updated topographic maps for Alaska. It includes multiple Federal and 
State of Alaska agencies and is overseen by a joint Federal-State 
committee. The initiative will provide data and finished maps that are 
expected to spur economic development and promote public safety.
    Under these and other authorities, Federal agencies have 
coordinated many of their geospatial acquisitions. One example is 
elevation data collected by advanced sensor types such as Light 
Detection and Ranging (lidar) sensors. In 2010, five Federal agencies 
concluded a comprehensive study of the needs for and benefits of a 
nationwide lidar program. A component of the study was to complete an 
exhaustive inventory of all lidar data collected for the United States 
to date. The study concluded that less than 9 percent of the data was 
duplicated and virtually all data were justified by operational 
necessity. Recognizing these realities, the President's Fiscal Year 
2014 Budget includes $9 million for a 3D Elevation Program (3DEP), 
which will take advantage of the impressive technological advances of 
lidar to meet communities' needs nationwide. 3DEP has been specifically 
designed to leverage funding from multiple Federal agencies as well as 
State and local governments.
    With respect to the specifics of H.R. 1604, the bill states that 
the Administrator of the NGTA, a Presidential appointee confirmed by 
the Senate, would report directly to the Secretary. The bill, however, 
also states that the NGTA would be created within the USGS, which is a 
non-regulatory science agency. Because the NGTA would include a number 
of regulatory functions, its establishment as a part of the USGS could 
conflict with its existing mission and potentially compromise the 
unbiased nature of USGS science. For this reason, we recommend 
clarifying the language. Further, H.R. 1604 directs the Administrator 
to represent the views and interests of private geospatial firms to the 
Federal Government if the policies or activities of a Federal agency 
affect private geospatial firms (sec. 402(d)(2)), raising issues of 
ethics and conflict of interest.
    Section 103 outlines a variety of data types that would be 
collected in the National Geospatial Data base, which include 
boundaries and ownership information on Federal, tribal trust, and non-
Federal lands. Some of these are problematic. For example, underground 
infrastructure is often privately owned, potentially implicating the 
interests of private property owners, or it may be sensitive for 
security reasons. Also, the terms ``as-built drawings'' and ``service 
connection cards'' are unclear. Furthermore, there are Department of 
Defense and Intelligence agency concerns that go beyond the nature of 
this statement.
    Sec. 108 requires the head of every Federal agency--specifically 
including the Census Bureau--to provide to the Administrator all 
geospatial or address data held by the agency. Potential transfer of 
this data to private geospatial firms under this bill raises 
significant concerns about privacy and confidentiality, and the 
unauthorized disclosure of statistical information made confidential by 
title 13 of the United States Code, among other issues.
    We believe title III is unnecessary. The President's 2010 National 
Space Policy directs the Government to ``pursue potential opportunities 
for transferring routine, operational space functions to the commercial 
space sector.'' We believe the language of this title would restrict 
the Government's ability to select the acquisition approach that best 
meets end users' needs. Title IV could lead to conflicts of interest 
for the NGTA and the NGPC.
    In conclusion, the Administration opposes H.R. 1604 because it 
would unnecessarily duplicate existing Government activities and 
structures that already enable efficient use of taxpayer dollars for 
the collection and maintenance of geospatial data. I will be pleased to 
respond to any questions you may have.
                                 ______
                                 
        Questions Submitted for the Record to Kevin T. Gallagher
    Questions Submitted for the Record by The Honorable Doug Lamborn
h.r. 1604--map it once use it many times act and h.r. 916--federal land 
                   asset inventory reform act of 2013
    Question. Do we know how much the Federal Government spends on 
geospatial activities each year? How much is spent in-house and how 
much by contract? What is the total U.S. geospatial market and what 
percentage does the Federal Government represent?
    Answer. Geospatial data and tools are becoming ubiquitous in the 
consumer marketplace, in academia, in industry and in government. A 
2012 published report from the Boston Consulting Group estimated that 
geospatial services (electronic maps and satellite imagery describing 
our physical and human environment) and the geospatial services 
industry (businesses, consumers, and government and non-government 
organizations) generated about $73 billion in revenues in 2011 and 
involves about 500,000 high-wage jobs (about equal to the airline 
industry). The report estimates that geospatial services deliver 
efficiency gains in the rest of the U.S. economy valued at many times 
the size of the sector itself, creating a lasting source of competitive 
advantage for the U.S. Such services are used on a daily basis by about 
5.3 million U.S. workers (over 4 percent of the U.S. workforce). U.S. 
consumers put a direct value on geospatial services at $37 billion 
annually.
    The Federal Government's use of geospatial data and tools has 
created, and continues to create, extraordinary gains in efficiency and 
in some cases has revolutionized the way that Federal programs are 
delivered, dramatically improving services to citizens. As the use of 
geospatial data and tools continues to permeate the many aspects of 
Federal programs, it is increasingly more difficult to separate 
geospatial investments from investments in programs, tools, data, or 
technology more broadly. Currently, there is no formal definition of 
``geospatial activities'' and no comprehensive report or mechanism that 
totals how much the Federal Government (Defense and non-Defense 
agencies) spends annually on ``geospatial activities.'' Additionally, 
there is no data representing the Federal share of the total U.S. 
geospatial market. Efforts are underway however, to establish reporting 
processes that focuses on Federal investments in national geospatial 
data sets, a critical component of the Nation's infrastructure.
    The Federal Geographic Data Committee [FGDC] member agencies are 
developing the A-16 Portfolio Management Implementation Plan (Plan), 
established by the Office of Management and Budget [OMB] in 1990 and 
re-chartered in the 2002 revision of Circular A-16 ``Coordination of 
Geographic Information and Related Spatial Data Activities''. The FGDC 
is a 32 member interagency committee composed of representatives from 
the Executive Office of the President, and Cabinet level and 
independent Federal agencies. The FGDC promotes coordinated 
development, use, sharing and dissemination of geospatial data on a 
national basis. FGDC activities are administered through the FGDC 
Secretariat, hosted in the U.S. Geological Survey.
    The Plan outlines an approach for instituting a portfolio 
management process that supports efficient and effective sharing of 
geospatial assets across the Federal enterprise, its partners, and 
stakeholders. Focused initially on national geospatial data sets, 
recognized as capital assets, a 3-year phased approached will be 
implemented to identify, document, and evaluate, existing federally 
created or managed geospatial data. This effort will also develop 
processes for reporting existing levels of Federal geospatial data 
investment, gaps in the existing data holdings, and projections of 
additional levels of investment needed to ensure the Nation has the 
data required to address national, regional, and local issues and 
priorities.
    With regard to the question: How much is spent in-house and how 
much by contract?
    The USGS is committed to leveraging the expertise of the private 
sector for the acquisition of geospatial services and data. As 
documented in the National Enhanced Elevation Assessment [NEEA], there 
is a National need for high resolution elevation data [LiDAR and 
IfSAR], estimated at $150 million per year, with an estimated return on 
investment of up to $13 billion annually. The USGS 3D Elevation Program 
[3DEP] has been designed to utilize the private sector to fulfill that 
need. In 2013, the USGS demonstrated success in combining the resources 
of Federal and State agencies to award approximately $25 million in 
contracts to the private sector for the acquisition of high resolution 
elevation data (described in more detail below). We estimate that an 
additional $25 million in high resolution elevation data is acquired 
annually by public institutions without USGS participation, leaving a 
remaining gap of approximately $100 million to fulfill the vision for 
3DEP. We have no data as to what extent of the estimated $25 million 
collected without USGS participation is acquired in-house vs. 
contracted.
    The USGS administers a set of Indefinite Delivery Indefinite 
Quantity [IDIQ] contracts awarded through a competitive, 
qualifications-based selection process, which provides a mechanism to 
obtain geospatial data and services throughout the United States. The 
contracts are flexible and can be used by other Federal, State, and 
local agencies. The Geospatial Product and Service Contracts [GPSC] are 
a suite of contracts, broad in scope, that can accommodate activities 
related to standard, nonstandard, graphic, and digital cartographic 
products. Services provided may include: photogrammetric mapping and 
aerotriangulation, orthophotography, thematic mapping (for example, 
land characterization), digital imagery applications, IfSAR and LiDAR, 
geographic information systems development, surveying and control 
acquisition including ground-based and airborne GPS, and much more.
    Over 2010-2013, the USGS awarded over $20 million per year through 
the GPSC contracts. Much of this funding came from other Federal, 
State, and local agencies to support projects of mutual interest. Other 
Federal agencies engaging in projects which make use of these and other 
contracts include other Department of the Interior [DOI] agencies such 
as the National Park Service and the Office of Surface Mining as well 
as Federal agencies from outside the DOI, including the National 
Geospatial Intelligence Agency [NGA], the U.S. Forest Service, the 
Natural Resources Conservation Service, and the Federal Emergency 
Management Agency. Spending by these other agencies is likely to be 
substantially less than that for the USGS and the NGA since their 
requirements are typically limited in their geographic extent and do 
not require the same level of information to perform their land 
management missions.
    Question. Sec. 201 of the Federal Land Policy and Management Act 
[FLPMA], (43 U.S.C.1711) says, ``The Secretary shall prepare and 
maintain on a continuing basis an inventory of all public lands and 
their resource and other values (including, but not limited to, outdoor 
recreation and scenic values), giving priority to areas of critical 
environmental concern. This inventory shall be kept current so as to 
reflect changes in conditions and to identify new and emerging resource 
and other values.'' Is that inventory on-line or posted somewhere for 
public review?
    Answer. The Bureau of Land Management [BLM] maintains and updates 
the inventory of the public lands managed by the BLM through its land 
use planning process. Maintenance of or updates to inventories do not, 
of themselves, change the management or use of public lands. Such 
information can only change the management and use of public lands 
through the land use planning process to revise or amend land use plans 
pursuant to 43 U.S.C. 1712. Currently, the BLM has 157 individual 
Resource Management Plans [RMPs], i.e., land use plans, which are 
developed with opportunities for full public participation at local, 
State and national levels. These RMPs provide general management goals 
and objectives, land allocations for resource uses and management 
prescriptions to control the resources and resources uses applicable to 
all activities authorized by the BLM. The RMP is based on an inventory 
and assessment of a broad range of resource values and public land 
uses. Approved RMPs are available on-line through the BLM Web site. 
Additionally, those RMPs currently being revised are available on-line 
through the BLM Web site as Draft and Proposed RMPs.
    Question. Does the Interior Department or anyone in the executive 
branch know how many different land inventories are currently 
maintained?
    Answer. In respect to the Federal Land Policy and Management Act 
[FLPMA], (43 U.S.C. 1711) the following text is included: ``(e) The 
term `public land' means any land and interest in land owned by the 
United States within the several States administered by the Secretary 
of the Interior through the Bureau of Land Management, without regard 
to how the United States acquired ownership, except--(1) lands located 
on the Outer Continental Shelf; and (2) lands held for the benefit of 
Indians, Aleuts, and Eskimos.'' The BLM maintains and updates the 
inventory of public lands managed by the BLM per the FLPMA.
    While other Federal agencies have data about the public lands they 
manage, such as the Forest Service or the DOD, and many States have 
data on the public lands over which they have jurisdiction, the DOI is 
not aware of a formal definition of what constitutes a land inventory 
(beyond the FLPMA requirements for BLM lands). As such, the DOI does 
not know how many other land inventories may exist outside the 
Department, nor is it aware of another source of that information.
    Question. According to the National Academy of Sciences study on a 
national parcel system, ``the cost of completing parcel data for the 
Nation is estimated to be about $300 million.'' If the cost for the 
entire nation is $300 million, how does the Interior Department 
estimate H.R. 916 will cost ``many billions of dollars''?
    Answer. The National Academy of Sciences cost estimate is based on 
parcel data substantially narrower in scope than the FLAIR Act 
requirements. Its parcel model costs include a very basic set of 
attributes that support only the discovery and navigation of parcels 
which is substantially different than the details stipulated in the 
FLAIR Act. The FLAIR Act would direct the Federal Government to collect 
extensive data for both the surface and subsurface estate concerning 
the ``use, value, assets and restrictions associated with each 
parcel.'' This would require an inventory of all valid existing rights, 
resources, and restrictions associated with each parcel as well as 
appraisals and inventories. The BLM's initial estimate of costs as 
provided to the Committee in 2012 was based on the information required 
in the FLAIR Act; the estimate is potentially in excess of $50 billion. 
The estimate is summarized as follows:

Total acres owned by Federal Government:                  635-640 
million acres

Total Federal acres divided into 40-acre parcels:            15.8-16 
million parcels

 
        Federal Parcel Task                   Approximate Costs
 
Automate parcel maps                $6/parcel      $95 million
Collect Linkages for critical       $3/parcel      $47 million
 information
Collect resource and use            $1/acre       $635 million
 information
Determine estimate of value         $2,500/parcel   $39 billion
Determine mineral resource          $1/acre       $635 million
 potential
Cultural/archaeological resource    $12-$45/acre   $7-$28 billion
 inventory
 
    TOTAL                           $47 billion-$68 billion
 

                                 ______
                                 
    Mr. Lamborn. Mr. Powner, you may begin.

STATEMENT OF DAVID A. POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
   MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE [GAO]

    Mr. Powner. Chairman Lamborn, Ranking Member Holt, and 
members of the subcommittee, we appreciate the opportunity to 
testify on the need to better coordinate billions of dollars on 
geospatial information. Geospatial data is used to manage real 
property, public lands, climate and weather, and disease 
outbreaks, to name a few, and it supports important national 
functions like national security and disaster response.
    Mr. Chairman, despite Presidential and OMB policies that 
have been in place for nearly 25 years, geospatial investments 
across the Federal Government are poorly coordinated, resulting 
in the acquisition of duplicative geospatial data. GAO issued a 
report last year on this and highlighted this in our annual 
duplication series this past year. This morning I would like to 
highlight the key issues and recommendations to address this 
mismanagement, starting with OMB.
    OMB has budget reporting mechanisms tied to spending that 
do not provide complete and accurate information to identify 
duplicative geospatial investments, and its effort to create a 
geospatial line of business in 2006 to address this situation 
was ineffective. OMB cannot tell us how much our government 
spends on geospatial investments. OMB told us that this is not 
a priority area and that they are tracking duplication in other 
areas of IT.
    That is true, as we reported just last month on OMB's 
efforts to identify over 200 opportunities to reduce IT 
duplication across the Federal Government that could save us up 
to $8 billion. However, our government spends billions of 
dollars on geospatial investments, and this should be an OMB 
priority.
    Turning to the Federal Geographic Data Committee, which was 
created in 1990 within the Department of the Interior to 
promote the coordinated use, sharing, and dissemination of 
geospatial data, it is governed by an interagency steering 
committee, and about 30 agencies are currently members. This 
coordination body's responsibilities have been reinforced and 
strengthened over the years through executive orders and OMB 
policies.
    Despite this, limited leadership, coordination, and 
progress have resulted. This committee has established some 
standards and has created a clearinghouse to identify existing 
and planned geospatial investments; however, this committee's 
clearinghouse does not identify all existing and planned 
investments, and it has not fully set up a portfolio or theme 
approach to manage geospatial information, as directed by OMB 
policy.
    Mr. Chairman, a clearinghouse to know exactly what the 
government has planned and this portfolio approach is exactly 
what is needed to coordinate to avoid additional duplication. 
In fact, there are currently 17 proposed themes that include 
land use, climate and weather, and transportation. However, 
this portfolio approach to managing geospatial data is far from 
being implemented effectively.
    In addition to the lack of leadership from OMB and the 
committee, the agencies we looked at in our review were not 
effectively coordinating or managing activities within their 
respective agencies, nor were they effectively managing data 
themes. For example, one requirement is to adopt procedures to 
search the clearinghouse before expending funds on geospatial 
data. Such procedures did not exist.
    To address this situation, OMB, the committee, and agencies 
need to take a number of steps to better coordinate geospatial 
data. OMB needs to strengthen its oversight by providing an 
accurate picture of what the Federal Government spends on 
geospatial investments and use its budgetary levers to identify 
and stop duplicative investments in this area. The committee 
needs to ensure that the geospatial clearinghouse has all 
existing and planned geospatial investments and that these 
investments are managed in a portfolio or theme-based fashion. 
And the Federal Government agencies need to stop managing in 
stovepipes. This means making data available in the 
clearinghouse, participating in theme-based management of 
geospatial data, and accurately reporting investments and their 
associated costs to OMB.
    Recently, some steps have been taken to address our 
recommendations. For example, in September the committee issued 
guidance directing departments to identify planned investments 
using the clearinghouse.
    In summary, Mr. Chairman, legislation to better manage the 
billions of dollars our Nation spends on geospatial investments 
should consider the major leadership and management gaps our 
work has highlighted and the numerous recommendations we have 
made. This concludes my statement. I will be pleased to respond 
to questions.
    Mr. Lamborn. All right. Thank you for your testimony.
    [The prepared statement of Mr. Powner follows:]
Prepared Statement of David A. Powner, Director, Information Technology 
     Management Issues, U.S. Government Accountability Office [GAO]
  geospatial information--omb and agencies can reduce duplication by 
                     making coordination a priority

                             GAO Highlights

    Highlights of GAO-14-226T, a testimony before the Subcommittee on 
Energy and Mineral Resources, Committee on Natural Resources, House of 
Representatives
Why GAO Did This Study
    The Federal Government collects, maintains, and uses geospatial 
information--information linked to specific geographic locations--to 
support many functions, including national security and disaster 
response. In 2012, the Department of the Interior estimated that the 
Federal Government was investing billions of dollars on geospatial data 
annually, and that duplication was common.
    In November 2012, GAO reported on efforts to reduce duplicative 
investments in geospatial data, focusing on OMB, FGDC, and three 
agencies: the Departments of Commerce, Interior, and Transportation.
    This statement summarizes the results of that November 2012 report 
on progress and challenges in coordinating geospatial information and 
includes updates on the implementation of recommendations made in that 
report.
What GAO Recommends
    GAO is making no new recommendations in this statement. In November 
2012, GAO recommended that to improve coordination and reduce 
duplication, FGDC develop a national strategy for coordinating 
geospatial investments; Federal agencies follow Federal guidance for 
managing geospatial investments; and OMB develop a mechanism to 
identify and report on geospatial investments. Since that time, FGDC 
and several agencies have taken some steps to implement the 
recommendations. However, additional actions are still needed.
What GAO Found
    The President and the Office of Management and Budget [OMB] have 
established policies and procedures for coordinating investments in 
geospatial data, however, in November 2012, GAO reported that 
governmentwide committees and Federal departments and agencies had not 
effectively implemented them. The committee that was established to 
promote the coordination of geospatial data nationwide--the Federal 
Geographic Data Committee [FGDC]--had developed and endorsed key 
standards and had established a clearinghouse of metadata. GAO found 
that the clearinghouse was not being used by agencies to identify 
planned geospatial investments to promote coordination and reduce 
duplication. In addition, the committee had not yet planned or 
implemented an approach to manage geospatial data as related groups of 
investments to allow agencies to more effectively plan geospatial data 
collection efforts and minimize duplicative investments, and its 
strategic plan was missing key elements.
    Other shortfalls have impaired progress in coordinating geospatial 
data. Specifically, none of the three Federal departments in GAO's 
review had fully implemented important activities such as preparing and 
implementing a strategy for advancing geospatial activities within 
their respective departments (see table). Moreover, the agencies in 
GAO's review responsible for governmentwide management of specific 
geospatial data had implemented some but not all key activities for 
coordinating the national coverage of specific geospatial data.

 Status of Federal Departments' Implementation of Geospatial Activities,
                           as of November 2012
------------------------------------------------------------------------
    Activity         Commerce         Interior         Transportation
------------------------------------------------------------------------
Designate a      Partially met.   Fully met.       Partially met.
 senior
 official
Prepare and      Not met.         Not met.         Not met.
 implement a
 strategy
Develop a        Partially met.   Not met.         Not met.
 policy for
 metadata
Make metadata    Fully met.       Fully met.       Fully met.
 available on
 clearinghouse
Adopt            Not met.         Not met.         Not met.
 procedures for
 accessing
 clearinghouse
------------------------------------------------------------------------
Source: GAO analysis of agency documentation.

    While OMB has oversight responsibilities for geospatial data, GAO 
reported in November 2012 that according to OMB staff, the agency did 
not have complete and reliable information to identify potentially 
duplicative geospatial investments. GAO also reported that FGDC, 
Federal departments and agencies, and OMB had not yet fully implemented 
policies and procedures for coordinating geospatial investments because 
these efforts had not been a priority. As a result, efforts to acquire 
data were uncoordinated and the Federal Government acquired duplicative 
geospatial data. For example, a National Geospatial Advisory Committee 
representative stated that a commercial provider leases the same 
proprietary parcel data to six Federal agencies. GAO concluded that 
unless the key entities determined that coordinating geospatial 
investments was a priority, the Federal Government would continue to 
acquire duplicative geospatial information and waste taxpayer dollars.
                               __________
    Chairman Lamborn, Ranking Member Holt, and members of the 
subcommittee:

    I am pleased to be here today to discuss the importance of 
coordinating Federal investments in geospatial information--information 
linked to specific geographic locations--in order to avoid duplication. 
The Federal Government collects, maintains, and uses geospatial 
information to support many functions, including national security and 
disaster response. In 2012, the Department of the Interior estimated 
that the Federal Government was investing billions of dollars on 
geospatial data annually, and that duplication was common.
    In November 2012, we reported that while the President and the 
Office of Management and Budget [OMB] had established policies and 
procedures for coordinating investments in geospatial data, 
governmentwide committees and selected Federal departments and agencies 
had not effectively implemented them.\1\ In that report, we made 
multiple recommendations to OMB and Federal agencies to improve 
coordination and reduce duplication among geospatial data investments. 
My testimony today will summarize the results of that report. 
Specifically, I will cover (1) progress and challenges in coordinating 
geospatial data, and (2) the current status of agencies implementation 
of GAO's recommendations.
---------------------------------------------------------------------------
    \1\ GAO, Geospatial Information: OMB and Agencies Need to Make 
Coordination a Priority to Reduce Duplication, GAO-13-94 (Washington, 
DC: November 26, 2012).
---------------------------------------------------------------------------
    The work on which my statement is based was conducted from November 
2011 to November 2012 and was focused on governmentwide activities to 
implement the National Spatial Data Infrastructure [NSDI]--an 
infrastructure to facilitate the efficient collection, sharing, and 
dissemination of geospatial data among all levels of government, and 
public and private sectors--as well as efforts of the Federal 
Geographic Data Committee [FGDC]--the Federal committee established to 
promote the coordinated use, sharing, and dissemination of geospatial 
data nationwide. Additionally, the report focused on activities within 
three selected departments: Department of Commerce (Commerce), 
Department of the Interior (Interior), and Department of Transportation 
(Transportation); and within three selected agencies responsible for 
managing data themes:\2\ the National Oceanic and Atmospheric 
Administration, the U.S. Geological Survey, and the Bureau of 
Transportation Statistics. Further details on the scope and methodology 
for the previously issued report are available within that published 
product. In addition, we analyzed documentation from the agencies on 
the status of their efforts to address our recommendations. All work on 
which this testimony is based was performed in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \2\ Data themes are comprised of one or more sets of geospatial 
data that have national significance, as established by Federal 
guidance, such as hydrography (i.e., surface water features, such as 
lakes, ponds, streams, and rivers).
---------------------------------------------------------------------------
                               background
    For many years, the Federal Government has taken steps to 
coordinate geospatial activities both within and outside the Federal 
Government. In 1953, the Bureau of the Budget \3\ first issued Circular 
A-16, encouraging expeditious surveying and mapping activities across 
all levels of government and avoidance of duplicative efforts. In 1990, 
OMB revised Circular A-16 to, among other things, establish the Federal 
Geospatial Data Committee [FGDC] within Interior to promote the 
coordinated use, sharing, and dissemination of geospatial data 
nationwide. Building on that guidance, in 1994 the President issued 
Executive Order 12906 for the purpose of addressing wasteful 
duplication and incompatibility of geospatial information, and assigned 
FGDC the responsibility to coordinate the development of NSDI.\4\ In 
2002, OMB again revised Circular A-16 to further describe the 
components of NSDI; clearly define agency responsibilities for 
acquiring, maintaining, distributing, using, and preserving geospatial 
data; and to reaffirm FGDC's role as the interagency coordinating body 
for NSDI-related activities.\5\ The circular established the following 
five components of NSDI and described how these components were to be 
implemented.
---------------------------------------------------------------------------
    \3\ The Bureau of the Budget became OMB in 1970.
    \4\ Executive Order No. 12906, Coordinating Geographic Data 
Acquisition and Access: The National Spatial Data Infrastructure, 59 
Fed. Reg. 17,671 (Washington, DC: Apr. 11, 1994).
    \5\ OMB, Circular No. A-16, Coordination of Geographic Information 
and Related Spatial Data Activities, (Washington, DC: Aug. 19, 2002).

  <bullet> Data Themes. Data themes are topics of national 
        significance, such as cadastre, which includes rights and 
        interests in real property and surveys and land use/land cover, 
        which includes land surface features and use. OMB Circular 
        A-16 currently identifies 34 data themes and identifies the 
        ``lead'' agency or agencies for each theme. Each data theme is 
        to be comprised of one or more electronic data records, known 
        as a dataset. Of the 34 themes, 9 are identified as a 
        ``framework'' theme \6\--that is, a theme identified in 
        Circular A-16 as being critical for any geospatial application.
---------------------------------------------------------------------------
    \6\ According to FGDC officials, there are seven framework themes, 
with two of the themes having two parts.
---------------------------------------------------------------------------
  <bullet> Standards. Geospatial standards provide common and 
        repeatable rules or guidelines for the development, 
        documentation, and exchange of geospatial datasets.
  <bullet> Metadata. Metadata are information about datasets, such as 
        content, source, accuracy, method of collection, and point-of-
        contact. Metadata are used to facilitate the search of and 
        access to datasets within a data library or clearinghouse, and 
        enable potential users to determine the data's applicability 
        for their use.
  <bullet> National Spatial Data Clearinghouse. The clearinghouse is 
        intended to be a centralized geospatial metadata repository 
        that contains geospatial metadata records from Federal 
        agencies, State and local governments, and academic and private 
        sector organizations that can be searched to determine whether 
        needed geospatial data exist and can be shared. Federal 
        agencies are required to identify their existing and planned 
        geospatial investments in the clearinghouse, and search the 
        clearinghouse for cost-saving opportunities before acquiring 
        geospatial data. In 2003, FGDC created the Geospatial One-Stop 
        to provide ``one-stop'' access to geospatial metadata from a 
        centralized data base and search function. In October 2011, the 
        Geospatial One-Stop was retired, and FGDC initiated a pilot 
        project, known as the Geospatial Platform, which was envisioned 
        to provide shared and trusted geospatial data, services, and 
        applications for use by government agencies, their partners, 
        and the public.\7\ According to Interior officials, Interior is 
        the managing partner of the Geospatial Platform. As of August 
        2012, there were approximately 835,000 geospatial metadata 
        records in the central repository, of which about 373,000 were 
        from Federal sources.
---------------------------------------------------------------------------
    \7\ http://www.geoplatform.gov.
---------------------------------------------------------------------------
  <bullet> Partnerships. Partnerships are efforts aimed at involving 
        all stakeholders (e.g., Federal, tribal, State, local 
        government, and academic institutions) in the development of 
        NSDI.

    In November 2010, OMB issued supplemental guidance specifically 
regarding how agencies are to manage data themes.\8\ This supplemental 
guidance expands upon and clarifies some of the language and 
responsibilities contained in OMB Circular A-16 in order to facilitate 
the adoption and implementation of a geospatial asset management 
capability.
---------------------------------------------------------------------------
    \8\ OMB, M-1-03, Issuance of OMB Circular A-16 Supplemental 
Guidance, Nov. 10, 2010.
---------------------------------------------------------------------------
    To fulfill its responsibilities, FGDC is governed by a steering 
committee--an interagency decisionmaking body that provides leadership 
and policy direction in support of the development of NSDI. The 
Secretary of the Interior chairs the committee; the Vice-Chair is the 
Chief Architect of the Office of E-Government and Information 
Technology of OMB.\9\ All departments or agencies responsible for 
geospatial data themes, or that have activities in geographic 
information or geospatial data collection or use, are required to be 
members of FGDC. Thirty-two agencies \10\ are members of the Steering 
Committee and are to be represented by their senior agency officials 
for geospatial information.\11\ These senior agency officials are 
responsible for overseeing, coordinating, and facilitating their 
respective agency's implementation of geospatial requirements, 
policies, and activities. FGDC is supported by the Office of the 
Secretariat, which consists of about 10 people located in U.S. 
Geological Survey [USGS] who do the day-to-day work of supporting, 
managing, and coordinating the activities of FGDC.
---------------------------------------------------------------------------
    \9\ The chair and vice-chair may select designees to serve on their 
behalf. The Secretary of the Interior has delegated the committee chair 
responsibility to the Assistant Secretary for Water and Science.
    \10\ The 32 agency members of the Steering Committee are: Interior, 
OMB, U.S. Department of Agriculture, Commerce, Department of Defense, 
U.S. Army Corps of Engineers (non-voting member), Department of 
Education, Department of Energy, Department of Health and Human 
Services, Department of Homeland Security, Department of Housing and 
Urban Development, Department of Justice, Department of Labor, 
Department of State, Transportation, Department of the Treasury, 
Department of Veterans Affairs, Environmental Protection Agency, 
Federal Communications Commission (non-voting member), General Services 
Administration, Library of Congress, National Aeronautics and Space 
Administration, National Archives and Records Administration, National 
Capital Planning Commission (non-voting member), National Science 
Foundation, U.S. Nuclear Regulatory Commission, Office of Personnel 
Management, Small Business Administration, Smithsonian Institution, 
Social Security Administration, Tennessee Valley Authority, and U.S. 
Agency for International Development.
    \11\ OMB, M-06-07, Designation of a Senior Agency Official for 
Geospatial Information, Mar. 3, 2006, calls for select agencies to 
appoint to the Steering Committee policy-level officials--a chief 
information officer or a senior official at the assistant secretary 
level.
---------------------------------------------------------------------------
    In addition, in December 2007, the Secretary of the Interior 
created the National Geospatial Advisory Committee \12\ to provide the 
department and FGDC with advice and recommendations related to the 
management of Federal and national geospatial programs, development of 
NSDI, and the implementation of related Federal guidance. Members of 
the committee include approximately 30 officials from Federal, State, 
local, and tribal governments, the private sector, and academia.
---------------------------------------------------------------------------
    \12\ The Secretary created the committee as a Federal advisory 
committee under the Federal Advisory Committee Act.
---------------------------------------------------------------------------
OMB's Roles and Responsibilities for Overseeing IT Investments
    OMB has specific oversight responsibilities for Federal information 
technology [IT] systems and acquisition activities--including 
geographic information systems--to help ensure their efficient and 
effective use. Two key laws that outline these responsibilities are the 
Clinger-Cohen Act of 1996 \13\ and the E-Government Act of 2002.\14\
---------------------------------------------------------------------------
    \13\ 40 U.S.C. Sec. 11101 et seq.
    \14\ Pub. L. No. 107-347 (Dec. 17, 2002).

  <bullet> The Clinger-Cohen Act of 1996 requires, among other things, 
        OMB to establish processes to analyze, track, and evaluate the 
        risks and results of major capital investments in information 
        systems made by Federal agencies and report to Congress on the 
        net program performance benefits achieved as a result of these 
        investments.
  <bullet> The E-Government Act of 2002 establishes an e-government 
        initiative that encourages the use of web-based Internet 
        applications to enhance the access to and delivery of 
        government information and services to citizens, to business 
        partners, to employees, and among all levels of government. The 
        act also requires OMB to report annually to Congress on the 
        status of e-government initiatives. In these reports, OMB is to 
        describe the administration's use of e-government principles to 
        improve government performance and the delivery of information 
        and services to the public.

    OMB subsequently began initiatives to fulfill the requirements 
established by these laws:

  <bullet> In February 2002, OMB established the Federal Enterprise 
        Architecture, which is intended to facilitate governmentwide 
        improvement through cross-agency analysis and identification of 
        duplicative investments, gaps, and opportunities for 
        collaboration, interoperability, and integration within and 
        across agency programs. The Federal Enterprise Architecture is 
        composed of five ``reference models'' describing the Federal 
        Government's (1) business (or mission) processes and functions, 
        independent of the agencies that perform them; (2) performance 
        goals and outcome measures; (3) means of service delivery; (4) 
        information and data definitions; and (5) technology standards.
  <bullet> In March 2004, OMB established multiple ``lines of 
        business'' to consolidate redundant IT investments and business 
        processes across the Federal Government. Later, in March 2006, 
        OMB established the Geospatial Line of Business. Each line of 
        business is led by an individual agency and supported by other 
        relevant agencies. Interior is the managing partner for the 
        Geospatial Line of Business and the FGDC Secretariat provides 
        project management support. OMB reports to Congress each year 
        on the costs and benefits of these initiatives.
Geospatial Investments Were Included in GAO's Duplication Series
    Over the past few years, we have issued a series of reports that 
have identified Federal programs and functional areas where unnecessary 
duplication, overlap, or fragmentation exists;\15\ the actions needed 
to address such conditions; and the potential financial and other 
benefits of doing so.\16\ In particular, we identified opportunities to 
reduce duplication and the cost of government operations in several 
critical IT areas. In our most recent duplication report, we reported 
that better coordination among Federal agencies that collect, maintain, 
and use geospatial information could help reduce duplication of 
geospatial investments and provide the opportunity for potential 
savings of millions of dollars. The duplication report reiterated the 
need for action among several Federal agencies, FGDC, and OMB.
---------------------------------------------------------------------------
    \15\ Fragmentation refers to those circumstances in which more than 
one Federal agency (or more than one organization within an agency) is 
involved in the same broad area of national need and opportunities 
exist to improve service delivery. Overlap occurs when multiple 
agencies or program have similar goals, engage in similar activities or 
strategies to achieve them, or target similar beneficiaries. 
Duplication occurs when two or more agencies or program are engaged in 
the same activities or provide the same services to the same 
beneficiaries.
    \16\ GAO, 2013 Annual Report: Actions Needed to Reduce 
Fragmentation, Overlap and Duplication, and Achieve Other Financial 
Benefits, GAO-13-279SP (Washington, DC: Apr. 9, 2013); 2012 Annual 
Report: Opportunities to Reduce Duplication, Overlap and Fragmentation, 
Achieve Savings, and Enhance Revenue, GAO-12-342SP (Washington, DC: 
Feb. 28, 2012); and Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011).
---------------------------------------------------------------------------
        progress and challenges in coordinating geospatial data
FGDC Had Not Made Fully Implementing Key Activities for Coordinating 
        Geospatial Data a Priority
    While the FGDC had made progress in some areas to improve 
coordination in geospatial activities, our November 2012 report 
identified a number of areas in which little progress had been made. 
For example, FGDC had developed a metadata standard that included 
descriptive information about a dataset--such as the framework theme to 
which it relates, the timeframe of when the data was collected, and who 
to contact for more information that facilitates the sharing of 
geospatial data.\17\ FGDC had also established a clearinghouse that 
allowed users to determine whether the geospatial data (including 
planned data) they are seeking exist. As noted previously, the 
clearinghouse consists of a centralized repository that contains 
geospatial metadata \18\ records from Federal agencies, State and local 
governments, academic and private-sector organizations; and multiple 
web-based portals from which the metadata can be searched.
---------------------------------------------------------------------------
    \17\ FGDC, FGDC-STD-001-1998: Content Standard for Digital 
Geospatial Metadata (Washington, DC: 1998).
    \18\ As previously noted, metadata are information about datasets, 
such as content, source, accuracy, method of collection, and point of 
contact.
---------------------------------------------------------------------------
    However, despite this progress, we found that FGDC had not fully 
implemented key aspects of activities needed for coordinating 
investments in geospatial data. First, although the clearinghouse was 
reported to have been modified in May 2012 to allow agencies to 
identify their planned investments, as of September 2012, there were no 
Federal agencies using this function because FGDC had not yet completed 
and shared guidance with agencies on how to do so.
    Second, FGDC had not fully planned for or implemented a portfolio 
management approach per OMB guidance.\19\ Specifically, we found that 
FGDC had evaluated the 34 data themes identified in OMB Circular A-16 
to determine whether any changes were needed; in August 2011, the 
Steering Committee proposed consolidating the 34 data themes into 17 
themes; FGDC Secretariat officials subsequently stated that FGDC 
agencies were proposing to eliminate one more theme for a total of 
16.\20\ We reported that officials further stated that, as of August 
2012, lead agencies had been identified for each of the 16 themes. 
However, at the time, the data themes, lead agencies, and datasets had 
neither been finalized nor approved, and FGDC had yet to provide 
guidance to agencies about how to implement the portfolio management 
approach. While Secretariat officials stated that they had developed a 
draft implementation plan in November 2011, when we issued our November 
2012 report, the plan had not been finalized or approved, and FGDC 
Secretariat officials were unable, on behalf of FGDC agencies, to 
provide a timeframe for doing so.
---------------------------------------------------------------------------
    \19\ OMB, M-11-03, Issuance of OMB Circular A-16 Supplemental 
Guidance, (Washington, DC: Nov. 10, 2010).
    \20\ One of the 16 themes is Land Use/Land Cover, which refers to 
natural and man-made surface features and how the land is used. 
Examples of Land Cover are grass, asphalt, trees, bare ground, and 
water. Examples of Land Use are urban, agricultural, and forest areas. 
A complete list of the 16 data themes are found in appendix I.
---------------------------------------------------------------------------
    Third, FGDC's strategic plan was missing key components and had not 
been kept up-to-date. Specifically, we found that FGDC's current plan 
had been issued in 2004 and included OMB-required components such as 
(1) a vision statement, (2) three outcome-oriented goals and 13 
objectives to be accomplished between 2005 and 2008, and (3) a high-
level description of how all but 1 of the 13 objectives were to be 
achieved. However, the plan did not include components such as needed 
resources, performance measures for 9 of the 13 objectives, or external 
factors that could affect the achievement of the plan's goals and 
objectives. Further, the plan did not reflect significant initiatives 
that the FGDC Steering Committee had engaged in--such as the Geospatial 
Platform--and the timeframes for the goals were outdated.
    As we reported in November 2012, according to FGDC officials, they 
had not yet fully implemented policies and procedures for coordinating 
geospatial investments because these efforts had not been made a 
priority. Instead, FGDC officials had been primarily focused on the 
development of the Geospatial Platform. As a result, we determined in 
2012 that efforts to acquire data were uncoordinated and the Federal 
Government acquired duplicative geospatial data. For example, a 
National Geospatial Advisory Committee representative told us that, at 
that time, a commercial provider was leasing the same proprietary 
parcel data to six Federal agencies; the Department of Housing and 
Urban Development, the Department of Homeland Security, the Federal 
Bureau of Investigation, the Small Business Administration, the Federal 
Deposit Insurance Corporation, and the Federal Reserve. We concluded 
that unless FGDC decides that coordinating geospatial investments was a 
priority, this situation would likely continue.
Departments Had Not Fully Implemented Important Activities for 
        Coordinating and Managing Geospatial Data
    Our November 2012 report also showed that none of the three Federal 
departments in our review--the Departments of Commerce, the Interior, 
and Transportation--had fully implemented activities needed for 
effectively coordinating and managing geospatial activities within 
their respective departments. According to OMB guidance and the 
executive order,\21\ Federal departments and agencies that handle 
geospatial data are to:
---------------------------------------------------------------------------
    \21\ OMB, M-06-07, Designation of a Senior Agency Official for 
Geospatial Information, (Washington, DC: Mar. 3, 2006); OMB, Circular 
No. A-16, Coordination of Geographic Information and Related Spatial 
Data Activities, (Washington, DC: Aug. 19, 2002); and Executive Order 
No. 12906, Coordinating Geographic Data Acquisition and Access: The 
National Spatial Data Infrastructure, 59 Fed. Reg. 17,671 (Washington, 
DC: Apr. 11, 1994).

  <bullet> Designate a senior agency official for geospatial 
        information that has departmentwide responsibility, 
        accountability, and authority for geospatial information 
        issues;
  <bullet> Prepare, maintain, publish, and implement a strategy for 
        advancing geographic information and related geospatial data 
        activities appropriate to their mission, and in support of NSDI 
        strategy;
  <bullet> Develop a policy that requires them to make their geospatial 
        metadata available on the clearinghouse;
  <bullet> Make all metadata associated with geospatial data available 
        on the clearinghouse, and use the metadata standard; and
  <bullet> Adopt internal procedures to ensure that they access the 
        NSDI clearinghouse before they expend funds to collect or 
        produce new geospatial data to determine (1) whether the 
        information has already been collected by others, or (2) 
        whether cooperative efforts to obtain the data are possible.

    However, while all three of the departments had made their metadata 
available on the clearinghouse, none of the three Federal departments 
in our review had fully implemented all of the other important 
activities (see table 1).

  Table 1--Status of Federal Departments' Implementation of Geospatial
                     Activities, as of November 2012
------------------------------------------------------------------------
    Activity         Commerce         Interior         Transportation
------------------------------------------------------------------------
Designate a      Partially met.   Fully met.       Partially met.
 senior
 official with
 departmentwide
 responsibility
Prepare and      Not met.         Not met.         Not met.
 implement a
 strategy
Develop a        Partially met.   Not met.         Not met.
 policy for
 metadata
Make metadata    Fully met.       Fully met.       Fully met.
 available on
 clearinghouse
Adopt            Not met.         Not met.         Not met.
 procedures for
 accessing the
 clearinghouse
------------------------------------------------------------------------
Source: GAO analysis of department documentation.
Key
 
Fully met--the department provided evidence that addressed the criteria.
Partially met--the department provided evidence that addressed about
  half or a large portion of the criteria.
Not met--the department did not provide evidence that addressed the
  criteria or provided evidence that minimally addressed the criteria.

    Department officials stated that the lack of progress in these 
activities was due, in part, to a lack in designating priorities. This 
lack of priority had contributed to the acquisition of duplicative 
geospatial data. For example, three separate Federal agencies were 
independently acquiring road centerline data.\22\ We concluded in 
November 2012 that unless the Federal departments decided that 
completing activities to better coordinate geospatial investments was a 
priority, this situation would likely continue.
---------------------------------------------------------------------------
    \22\  Road centerlines are vector line data that represent the 
geographic center of road rights-of-way on transportation networks.
---------------------------------------------------------------------------
theme-lead agencies had not fully implemented important activities for 
               coordinating and managing geospatial data
    The three theme-lead agencies in our review--the National Oceanic 
and Atmospheric Administration [NOAA], USGS, and the Bureau of 
Transportation Statistics [BTS] had implemented some but not all of the 
geospatial activities necessary to ensure the national coverage and 
stewardship of specific geospatial data themes in our review.\23\ 
According to OMB,\24\ theme-lead agencies are to:
---------------------------------------------------------------------------
    \23\ The three data themes in our review were (1) geodetic control 
[NOAA], which is data used to establish the precise location of other 
types of geospatial data; (2) hydrography [USGS], which includes data 
on surface water features such as lakes, ponds, streams, rivers, 
canals, oceans, and coastlines, and (3) transportation [BTS], which 
includes both physical and nonphysical components representing all 
modes of travel that allow the movement of goods and people between 
locations.
    \24\ OMB, Circular No. A-16, Coordination of Geographic Information 
and Related Spatial Data Activities, (Washington, DC: Aug. 19, 2002).

  <bullet> Designate a point of contact who is responsible for the 
        development, maintenance, coordination, and dissemination of 
        data using the clearinghouse;
  <bullet> Prepare goals relating to the theme that support the NSDI 
        strategy, and as needed, collect and analyze information from 
        user needs and include those needs in the theme-related goals;
    Develop and implement a plan for the nationwide population of the 
        data theme that includes (1) the development of partnership 
        programs with states, tribes, academia, the private sector, 
        other Federal agencies, and localities that meet the needs of 
        users; (2) human and financial resource needs; (3) standards, 
        metadata, and the clearinghouse needs; and (4) a timetable for 
        the development for the theme; and
  <bullet> Create a plan to develop and implement theme standards.

    However, we found that while all three of the theme-lead agencies 
had made some progress, none of them had implemented all of these 
important activities (see table 2).

  Table 2--Status of Theme-lead Agencies' Implementation of Geospatial
                     Activities, as of November 2012
------------------------------------------------------------------------
      Activity              NOAA              USGS              BTS
------------------------------------------------------------------------
Designate a theme     Fully met.        Fully met.        Fully met.
 point of contact
Prepare goals and     Fully met         Partially met.    Partially met.
 analyze user needs
Develop a plan for    Fully met.        Partially met.    Partially met.
 theme population
Develop a standards   Not met.          Not met.          Not met.
 plan
------------------------------------------------------------------------
Source: GAO analysis of agency documentation.
Key
 
Fully met--the agency provided evidence that addressed the criteria.
Partially me--the agency provided evidence that addressed about half or
  a large portion of the criteria.
Not met--the agency did not provide evidence that addressed the criteria
  or provided evidence that minimally addressed the criteria.

    Theme-lead agency officials attributed the lack of progress in 
implementing these activities to competing priorities, among other 
things. As a result, efforts to acquire data were uncoordinated and the 
Federal Government acquired duplicative geospatial data. For example, 
according to a National Geospatial Advisory Committee official, several 
Federal agencies collected, purchased, or leased address information in 
a noncoordinated fashion. We concluded in November 2012 that unless the 
Federal agencies were to decide that completing activities to 
coordinate geospatial investments was a priority, the potential for 
duplication would continue to exist.
OMB Did Not Have Complete and Reliable Information to Identify 
        Duplicative Geospatial Investments
    OMB has oversight responsibilities for Federal IT systems and 
acquisition activities--including geographic information systems--to 
help ensure their efficient and effective use. According to OMB Office 
of E-Government staff members, OMB relies primarily on the annual 
budget process to identify potentially duplicative geospatial 
investments. Specifically, OMB requires Federal departments and 
agencies to provide information related to their IT investments (called 
exhibit 53s \25\) and capital asset plans and business cases (called 
exhibit 300s \26\).
---------------------------------------------------------------------------
    \25\ The purpose of the exhibit 53 is to identify all IT 
investments--both major and nonmajor--and their associated costs within 
a Federal organization. Information included in agency exhibit 53s is 
designed, in part, to help OMB better understand agencies' spending on 
IT investments. OMB guidance for the fiscal years 2013 and 2014 budget 
formulation instructs agencies to identify their geospatial investments 
in the exhibit 53 using Federal Enterprise Architecture codes for 
specific functions (e.g., geospatial services, financial management, 
and acquisition management).
    \26\ The purpose of the exhibit 300 is to provide a business case 
for each major IT investment and to allow OMB to monitor IT investments 
once they are funded. Agencies are required to provide information on 
each major investment's cost, schedule, and performance.
---------------------------------------------------------------------------
    However, as we reported in November 2012, OMB's Office of E-
Government staff members acknowledged that these two sources may not in 
all cases provide the necessary information to allow OMB to identify 
potentially duplicative investments or accurately quantify the amount 
of Federal dollars spent on geospatial datasets for three primary 
reasons.
    First, according to these staff members some Federal agencies may 
not classify investments in geospatial data as ``information 
technology'' (such as satellites), meaning that they would not be 
captured in exhibit 53s. OMB staff members stated that agencies are to 
determine what qualifies as an IT investment and stated that there are 
variations in the way that agencies interpret the definition of IT.
    Second, agencies do not always appropriately classify geospatial 
investments as ``geospatial services'' using the Federal Enterprise 
Architecture codes. Our analysis of the fiscal year 2013 exhibit 53s 
for the three departments that we reviewed showed that only 5 of their 
24 key datasets--1 of NOAA's 6 geodetic control datasets and 4 of 
USGS's 7 hydrography datasets--were included in the departments' 
exhibit 53s. Further, only one of these investments was identified with 
the geospatial services code, as required by OMB's fiscal year 2013 
budget formulation guidance.
    Third, given that the geospatial data may be only one component of 
an IT investment or capital asset, even if it were included in the 
agencies' exhibit 53s or 300s, we determined that OMB would have 
difficulties in identifying the geospatial component, and the 
associated dollars, without having a detailed discussion with 
individuals responsible for each investment.
    OMB staff members stated that, as a result, they did not have a 
complete picture of how much money is being spent on geospatial 
investments across the Federal Government because, as noted, what was 
being reported may not have captured all geospatial spending, and the 
data had not been reliable. We also reported in November 2012 that 
according to OMB, although eliminating duplication in geospatial 
investments was important, OMB's recent efforts had focused on other 
commodity IT areas with higher spending and cyber security 
ramifications. As a result, OMB had not yet established a way to 
collect complete and reliable information about geospatial investments 
because this had not been a priority. We concluded that, unless OMB 
decides that coordinating geospatial investments is designated as a 
priority, duplicative investments would likely continue.
  implementing gao recommendations can reduce duplication and provide 
                              cost savings
    Our November 2012 report made numerous recommendations aimed at 
improving coordination and reducing duplication of geospatial data. 
Interior and Commerce generally agreed with our recommendations; 
Transportation neither agreed nor disagreed.
    First, we recommended that the Secretary of the Interior, as FGDC 
Chair, direct the FGDC Steering Committee to:

  <bullet> Establish a timeframe for completing a plan to facilitate 
        the implementation of OMB's November 2010 management guidance, 
        and develop and implement the plan within the established 
        timeframe;
  <bullet> Develop and implement guidance for identifying planned 
        geospatial investments in the Geospatial Platform, and 
        establish a timeframe for doing so; and
  <bullet> Establish a timeframe for creating and updating a strategic 
        plan to improve coordination and reduce duplication, and create 
        and implement the plan within the established timeframe. The 
        plan, at a minimum, should include (1) a vision statement for 
        the NSDI; (2) outcome-oriented goals and objectives that 
        address all aspects of the NSDI; (3) a description of how the 
        goals and objectives are to be achieved, including a 
        description of the resources needed to achieve the goals and 
        objectives and how FGDC is to work with other agencies to 
        achieve them; (4) performance measures for achieving the stated 
        goals; and (5) external factors that could affect the 
        achievement of the goals and objectives.

    In addition, we recommended that the Secretaries of Commerce, the 
Interior, and Transportation implement the relevant executive order 
requirements and OMB guidance that apply to their departments and 
agencies:
  <bullet> Designate a senior agency official with departmentwide 
        accountability, authority, and responsibility for geospatial 
        information issues;
  <bullet> Prepare, maintain, publish, and implement a strategy for 
        advancing geographic information and related geospatial data 
        activities appropriate to its mission;
  <bullet> Develop a policy that requires the department to make its 
        geospatial metadata available on the clearinghouse;
  <bullet> Develop and implement internal procedures to ensure that the 
        department accesses the NSDI clearinghouse before it expends 
        funds to collect or produce new geospatial data to determine 
        (1) whether the information has already been collected by 
        others and (2) whether cooperative efforts to obtain the data 
        are possible;
  <bullet> Prepare goals relating to all datasets within the relevant 
        theme that support the NSDI;
  <bullet> Develop and implement a plan for the nationwide population 
        of the relevant theme that addresses all datasets within the 
        theme and that includes (1) the development of partnership 
        programs with States, tribes, academia, the private sector, 
        other Federal agencies, and localities that meet the needs of 
        users; (2) human and financial resource needs; (3) standards, 
        metadata, and the clearinghouse needs; and (4) a timetable for 
        the development for the theme; and
  <bullet> Create and implement a plan to develop and implement 
        relevant theme standards.

    Further, we recommended that the Director of OMB develop a 
mechanism, or modify existing mechanisms, to identify and report 
annually on all geospatial-related investments, including dollars 
invested and the nature of the investment.
    In the year since our report was issued, FGDC, OMB, and selected 
agencies have made some progress in addressing recommendations. For 
example, in September 2013, FGDC issued guidance directing all FGDC 
departments to identify planned geospatial investments using the 
Geospatial Platform. In May 2013, OMB issued guidance to agencies on 
how to document information on the nature of investments, such as using 
common standards, specifications, and formats developed by the 
geospatial community, which would allow others to determine the fitness 
of the data for their needs. However, because the implementation of 
this new guidance is still dependent on the use of exhibit 53s and 300s 
for reporting past, present, and future costs, it is unclear the extent 
to which Federal agencies, OMB, or others will effectively be able to 
identify how much Federal funding is being spent on geospatial systems 
and data.
    In addition, the Federal departments we reviewed have taken some 
steps to implement our recommendations. For example, the Departments of 
Commerce, the Interior, and Transportation have all begun preparing, 
maintaining, publishing, and implementing strategies for advancing 
geographic information and related geospatial data activities 
appropriate to their missions.
    In addition, the three agencies with theme-lead responsibilities 
that we reviewed have begun implementing our recommendations. For 
example, NOAA, USGS, and BTS have all taken some steps to create a plan 
to develop and implement relevant theme standards. However, until a 
comprehensive national strategy is put in place and Federal departments 
and agencies establish and implement the policies, procedures, and 
plans to coordinate their geospatial activities as we recommended, the 
vision of the NSDI to improve the coordination and use of geospatial 
information will likely not be fully realized and duplicative 
investments will likely continue. Further, until OMB establishes a way 
to obtain reliable information about Federal geospatial investments as 
we recommended, OMB will not be able to readily identify potentially 
duplicative geospatial investments.
    In summary, it was slightly over a year ago that we reported that 
the key players in ensuring coordination on geospatial data 
investments--FGDC, Federal departments and agencies, and OMB--had not 
fully implemented policies and procedures for coordinating geospatial 
investments because these efforts were not made a priority. As a 
result, efforts to acquire data were uncoordinated and the Federal 
Government was acquiring duplicative geospatial data. At that time, we 
noted that unless OMB, FGDC, and Federal departments and agencies 
decide that coordinating geospatial investments is a priority, this 
situation would likely continue.
    Now, a year later, there has been some progress in improving 
policies and procedures for coordinating the geospatial investments. 
However, much remains to be done to implement and enforce the policies 
and to achieve cost savings to the Federal Government. Until FGDC, 
Federal departments and agencies, and OMB decide that investments in 
geospatial information are a priority, these investments will remain 
uncoordinated, and the Federal Government will continue to acquire 
duplicative geospatial information and waste taxpayer dollars.
    Chairman Lamborn, Ranking Member Holt, and members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.
                 gao contact and staff acknowledgments
    If you or your staffs have any questions about this testimony, 
please contact me at (202) 512-9286 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7606190118130412361117195811190058">[email&#160;protected]</a> Individuals 
who made key contributions to this testimony are Colleen Phillips 
(assistant director), Kaelin Kuhn, Nancy Glover, Jamelyn Payan, and 
Jessica Waselkow.

          Appendix I--Proposed Data Themes, as of November 2012
------------------------------------------------------------------------
             Proposed Theme                        Description
------------------------------------------------------------------------
Biota..................................  Pertain to, or describe, the
                                          dynamic processes,
                                          interactions, distributions,
                                          and relationships between and
                                          among organisms and their
                                          environments.
------------------------------------------------------------------------
Cadastre...............................  Past, current, and future
                                          rights and interests in real
                                          property including the spatial
                                          information necessary to
                                          describe geographic extents.
                                          Rights and interests are
                                          benefits or enjoyment in real
                                          property that can be conveyed,
                                          transferred, or otherwise
                                          allocated to another for
                                          economic remuneration. Rights
                                          and interests are recorded in
                                          land record documents.
                                         The spatial information
                                          necessary to describe
                                          geographic extents includes
                                          surveys and legal description
                                          frameworks such as the Public
                                          Land Survey System, as well as
                                          parcel-by-parcel surveys and
                                          descriptions. Does not include
                                          Federal government or military
                                          facilities.
------------------------------------------------------------------------
Climate and Weather....................  Meteorological conditions,
                                          including temperature,
                                          precipitation, and wind, that
                                          characteristically prevail in
                                          a particular region over a
                                          long period of time. Weather
                                          is the state of the atmosphere
                                          at a given time and place,
                                          with respect to variables such
                                          as temperature, moisture, wind
                                          velocity, and barometric
                                          pressure.
------------------------------------------------------------------------
Cultural Resources.....................  Features and characteristics of
                                          a collection of places of
                                          significance in history,
                                          architecture, engineering, or
                                          society. Includes national
                                          monuments and icons.
------------------------------------------------------------------------
Elevation..............................  The measured vertical position
                                          of the earth surface and other
                                          landscape or bathymetric
                                          features relative to a
                                          reference datum typically
                                          related to sea level. These
                                          points normally describe bare
                                          earth positions but may also
                                          describe the top surface of
                                          buildings and other objects,
                                          vegetation structure, or
                                          submerged objects.
                                         Elevation data can be stored as
                                          a three-dimensional array or
                                          as a continuous surface such
                                          as a raster, triangulated
                                          irregular network, or
                                          contours. Elevation data may
                                          also be represented in other
                                          derivative forms such as
                                          slope, aspect, ridge and
                                          drainage lines, and shaded
                                          relief.
------------------------------------------------------------------------
Geodetic Control.......................  Collection of control points
                                          that provide a common
                                          reference system for
                                          establishing coordinates for
                                          geographic data.
------------------------------------------------------------------------
Geology................................  Geographically referenced data
                                          pertaining to the origin,
                                          history, composition,
                                          structure, features, and
                                          processes of the solid Earth,
                                          both onshore and offshore.
                                         Includes geologic, geophysical,
                                          and geochemical maps,
                                          stratigraphy, paleontology,
                                          geochronology, mineral and
                                          energy resources, and natural
                                          hazards such as earthquakes,
                                          volcanic eruptions, coastal
                                          erosion, and landslides. Does
                                          not include soils.
------------------------------------------------------------------------
Governmental Units.....................  Political, governmental, and
                                          administrative (management)
                                          type boundaries that are used
                                          to manage people and
                                          resources. Includes
                                          geopolitical boundaries
                                          (county, parish, state, city,
                                          etc), tribal boundaries,
                                          Federal land boundaries and
                                          Federal regions, international
                                          boundaries, governmental
                                          administrative units such as
                                          congressional districts,
                                          international lines of
                                          separation, limits, zones,
                                          enclaves/exclaves and special
                                          areas between States and
                                          dependencies as well as all
                                          jurisdictional offshore limits
                                          within U.S. sovereignty.
                                          Boundaries associated with
                                          natural resources, demography,
                                          and cultural entities are
                                          excluded and can be found in
                                          the appropriate subject
                                          themes.
------------------------------------------------------------------------
Imagery................................  Georeferenced images of the
                                          Earth's surface, which have
                                          been collected via aerial
                                          photography or satellite data.
                                          Orthoimagery is prepared
                                          through a geometric correction
                                          process known as
                                          orthorectification to remove
                                          image displacements due to
                                          relief and sensor
                                          characteristics, allowing
                                          their use as base maps for
                                          digital mapping and analyses
                                          in a geographic information
                                          system. Specific imagery data
                                          sets created through image
                                          interpretation and
                                          classification, such as a land
                                          cover image, can be found
                                          under themes specific to the
                                          subject matter.
------------------------------------------------------------------------
Land Use/Land Cover....................  Refers collectively to natural
                                          and man-made surface features
                                          that cover the land (Land
                                          Cover) and to the primary ways
                                          in which land cover is used by
                                          humans (Land Use). Examples of
                                          Land Cover may be grass,
                                          asphalt, trees, bare ground,
                                          water, etc. Examples of Land
                                          Use may be urban,
                                          agricultural, ranges, and
                                          forest areas.
------------------------------------------------------------------------
Real Property..........................  The spatial representation
                                          (location) of real property
                                          entities, typically consisting
                                          of one or more of the
                                          following: unimproved land, a
                                          building, a structure, site
                                          improvements and the
                                          underlying land. Complex real
                                          property entities (aka
                                          ``facilities'') are used for a
                                          broad spectrum of functions or
                                          missions. This theme focuses
                                          on spatial representation of
                                          real property assets only and
                                          does not seek to describe
                                          special purpose functions of
                                          real property such as those
                                          found in the Cultural
                                          Resources, Transportation, or
                                          Utilities themes.
------------------------------------------------------------------------
Soils..................................  Depicts the geography and
                                          attributes of the many kinds
                                          of soils found in the
                                          landscape at both large and
                                          small map scales. A living
                                          dynamic resource providing a
                                          natural medium for plant
                                          growth and habitat for living
                                          organisms, soil recycles
                                          nutrients and wastes, stores
                                          carbon, and purifies water
                                          supplies. Soil has distinct
                                          layers (called ``horizons'')
                                          that, in contrast to
                                          underlying geologic material,
                                          are altered by the
                                          interactions of climate,
                                          landscape features, and living
                                          organisms over time.
------------------------------------------------------------------------
Transportation.........................  Means and aids for conveying
                                          persons and/or goods. The
                                          transportation system includes
                                          both physical and non-physical
                                          components related to all
                                          modes of travel that allow the
                                          movement of goods and people
                                          between locations.
------------------------------------------------------------------------
Utilities..............................  Means, aids, and usage of
                                          facilities for producing,
                                          conveying, distributing,
                                          processing or disposing of
                                          public and private commodities
                                          including power, energy,
                                          communications, natural gas,
                                          and water. Includes subthemes
                                          for Energy and Communications.
------------------------------------------------------------------------
Water--Inland..........................  Interior hydrologic features
                                          and characteristics, including
                                          classification, measurements,
                                          location, and extent. Includes
                                          aquifers, watersheds,
                                          wetlands, navigation, water
                                          quality, water quantity, and
                                          groundwater information.
------------------------------------------------------------------------
Water--Oceans and Coasts...............  Features and characteristics of
                                          salt water bodies (i.e. tides,
                                          tidal waves, coastal
                                          information, reefs) and
                                          features and characteristics
                                          that represent the
                                          intersection of the land with
                                          the water surface (i.e.
                                          shorelines), the lines from
                                          which the territorial sea and
                                          other maritime zones are
                                          measured (i.e. baseline
                                          maritime) and lands covered by
                                          water at any stage of the tide
                                          (i.e. outer continental shelf
                                          ), as distinguished from
                                          tidelands, which are attached
                                          to the mainland or an island
                                          and cover and uncover with the
                                          tide.
------------------------------------------------------------------------
Source: GAO analysis of OMB and FGDC documentation

                                 ______
                                 
         Questions Submitted for the Record to David A. Powner
    Questions Submitted for the Record by The Honorable Doug Lamborn
  h.r. 1604--map it once, use it many times act and h.r. 916--federal 
                land asset inventory reform act of 2013
    Question. Is there an opportunity for agencies to consolidate, or 
jointly use, contracts with the private sector for geospatial services? 
If so, by more strategically using contracts, can duplication among 
agencies be avoided?
    Answer. There is an opportunity for agencies to consolidate 
contracts with the private sector for geospatial services. By doing so, 
potentially duplicative investments by agencies could be avoided. We 
have previously reported that the private sector plays an important 
role in support of government geographic information system activities 
because it captures and maintains a wealth of geospatial data and 
develops geographic information system software.\1\ Private companies 
provide services such as aerial photography, digital topographic 
mapping, digital orthophotography, and digital elevation modeling to 
produce geospatial data sets that are designed to meet the needs of 
government organizations.
---------------------------------------------------------------------------
    \1\ GAO, Geospatial Information: Better Coordination needed to 
Identify and Reduce Duplicative Investments, GAO-04-703 (Washington, 
DC: June 23, 2004).
---------------------------------------------------------------------------
    In addition, in November 2012, we reported about key issues related 
to geospatial information systems and data.\2\ Specifically, we 
reported on the need to coordinate geospatial information among Federal 
agencies and private sector organizations in order to reduce 
unnecessary duplication. Although the President and the Office of 
Management and Budget [OMB] had established policies and procedures for 
coordinating investments in geospatial data, govermentwide committees 
and Federal agencies had not effectively implemented them. For example, 
although the Federal Geographic Data Committee [FGDC] had developed a 
clearinghouse for geospatial metadata (a centralized geospatial 
repository that contains information on geospatial data that can be 
searched to determine whether needed geospatial data exist and can be 
shared), Federal agencies were not effectively using it to identify 
planned investments. We concluded that without the ability to identify 
planned geospatial data acquisitions, agencies were likely missing 
opportunities to reuse or cooperatively acquire geospatial data, thus 
resulting in the acquisition of potentially duplicative geospatial data 
and needless expenditure of limited resources.
---------------------------------------------------------------------------
    \2\ GAO, Geospatial Information: OMB and Agencies Need to Make 
Coordination a Priority to Reduce Duplication, GAO-13-94 (Washington, 
DC: Nov. 26, 2012).
---------------------------------------------------------------------------
    We also reported on examples of duplication, including three 
agencies that were independently acquiring road data. This situation 
was reported to have contributed to millions of wasted taxpayers' 
dollars. The three programs include:

  <bullet> Census Bureau's Topologically Integrated Geographic Encoding 
        and Referencing (TIGER) system, which uses data procured from 
        local sources for census enumeration and demographic 
        applications;
  <bullet> The U.S. Geological Survey's National Map Web site, which 
        uses licensed data from a commercial provider to create 
        viewable maps on the National Map; and
  <bullet> The Department of Defense's Homeland Security Infrastructure 
        Program, which uses licensed commercial data procured by the 
        National Geospatial-Intelligence Agency for emergency 
        management.

    We made recommendations aimed at improving coordination and 
reducing duplication, to include FGDC developing a national strategy 
and implementing guidance for identifying planned geospatial 
investments in the clearinghouse. As we testified to this subcommittee 
in December 2013, the agencies have taken steps to implement our 
recommendations, but more work remains to reduce duplicative geospatial 
investments.\3\
---------------------------------------------------------------------------
    \3\ GAO, Geospatial Information: OMB and Agencies Can Reduce 
Duplication by Making Coordination a Priority, GAO-14-226T (Washington, 
DC: Dec. 5, 2013).
---------------------------------------------------------------------------
    Question. Does GAO have any information on how many different land 
inventories the Federal Government currently maintains, how much it 
costs, and whether having one current, accurate interoperable inventory 
would cost less than how business is done today?
    Answer. We do not have information to answer this question because, 
as we reported in November 2012, OMB has not established a reliable 
mechanism for obtaining information about Federal investments in 
geospatial data, and thus it does not have the information needed to 
identify potentially duplicative investments or accurately quantify the 
amount of Federal dollars spent on geospatial data.\4\ Moreover, in 
recent reports, the Congressional Research Service found that a 
coordinated approach to federally managed parcel data did not exist and 
that the best method for obtaining an accurate tally of Federal lands 
was to contact each land management agency directly.
---------------------------------------------------------------------------
    \4\ GAO-13-94.
---------------------------------------------------------------------------
    Our November 2012 report also describes the early stages of a 
governmentwide effort that, if properly implemented, could ultimately 
produce information that would answer this question. Specifically, we 
reported on the FGDC's efforts to implement a portfolio management 
approach for managing geospatial data--that is, a framework that would 
allow agencies to manage related geospatial data themes,\5\ such as 
cadastral data, and their associated key data sets \6\ as related 
groups of investments to allow agencies to more effectively plan 
geospatial data collection efforts and minimize duplicative 
investments. Specifically, the FGDC proposed consolidating the 34 data 
themes identified in OMB Circular A-16 into 16 themes--including 
consolidating 4 land management themes into 1 theme called Cadastre. 
However, the data themes, and associated key datasets and lead agencies 
had not been finalized, and the FGDC had not provided guidance to 
agencies about how to implement the portfolio management approach. We 
concluded that until FGDC had provided implementation guidance, and the 
themes, lead agencies, and associated datasets are identified and 
approved, the agencies cannot effectively begin to implement a 
coordinated geospatial asset management capability. Such capability 
was, according to OMB guidance, expected to provide a mechanism for 
agencies to plan more effectively in advance of data collection efforts 
to identify partnership opportunities, and to minimize duplicative 
investments. We recommended that the FGDC develop and implement a plan 
to facilitate the implementation of the portfolio management approach 
for managing geospatial data. According to FGDC officials in October 
2013, the plan is to be finalized and released for implementation by 
Federal agencies no later than the second quarter of fiscal year 2014. 
We believe that implementation of this recommendation should allow 
Federal agencies to identify key land inventories and their associated 
costs, and evaluate opportunities to consolidate their investments.
---------------------------------------------------------------------------
    \5\ Data themes are topics of national significance, such as 
cadastral (i.e., describe the geographic extent of past, current, and 
future right, title, and interest in real property, and the framework 
to support the description of that geographic extent ) and Federal Land 
Ownership Status (i.e., includes the establishment and maintenance of a 
system for the storage and dissemination of information describing all 
title, estate, or interest of the Federal Government in a parcel of 
real and mineral property). OMB Circular A-16 currently identifies 34 
data themes and identifies the ``lead'' agency or agencies for each 
theme. Each data theme is to be comprised of one or more electronic 
data records, known as datasets. Of the 34 themes, 9 are identified as 
``framework'' themes--that is, themes identified in Circular A-16 as 
critical for many geospatial applications.
    \6\ According to OMB, a key geospatial dataset is (1) used by 
multiple agencies or with agency partners such as State, tribal, and 
local governments; (2) applied to achieve Presidential priorities as 
expressed by OMB; (3) needed to meet shared mission goals of multiple 
Federal agencies; or (4) expressly required by statutory mandate.
---------------------------------------------------------------------------
                                 ______
                                 
    Mr. Lamborn. Thank you both for being here. We will now 
begin with questions, and I will now recognize myself for 5 
minutes.
    Mr. Gallagher, I want to thank you for being here to 
testify. In your testimony, you highlight that we don't need to 
pass the Map It Once Act because, according to you, the 
Department has everything they need and everything is covered. 
Now, this perplexes me because we have GAO testifying, as you 
just heard, once more before this committee, as it has done 
many times, about the waste and duplication that we have when 
it comes to geospatial services.
    So my question to you is, since the administration says 
everything is covered and there is no need for change, who at 
the Department is responsible for what appears to be waste 
taking place so that the next time GAO has a report saying we 
have duplication and waste we can have that person come before 
us? And I am going to ask you to name who is responsible here 
so that we can bring that person before the committee. How 
would you answer that?
    Mr. Gallagher. Let me start by saying the Department shares 
your goal, Mr. Chairman, of reducing duplication and fulfilling 
the vision of a national spatial data infrastructure with 
investments for these critically important national data sets.
    In answer to your question on first blush it looks like a 
consolidation of activities would create efficiency and reduce 
cost. When you look more closely at the way agencies acquire 
and use geospatial data, what you find is that they are 
acquiring data to support their mission, and that is different 
than what you would find in an organization that was designed 
to be a mapping agency, such as the USGS. And so I want to talk 
a little bit about those differences.
    In an agency like that you are likely to find that there is 
not completeness of coverage across the Nation for the data. In 
fact, that it is acquired around the areas that they need. In 
addition, it may be acquired unique to their mission needs and 
not necessarily to the needs of other agencies.
    Mr. Lamborn. OK.
    Mr. Gallagher. And so it would actually require a 
significant investment to achieve the goal of that national 
data infrastructure.
    Mr. Lamborn. So you are saying that there are some 
differences in the missions, but isn't there a lot of overlap 
in the missions?
    Mr. Gallagher. There are themes that have been identified 
in OMB Circular A-16 that have been recommended by the leaders 
in the geospatial community. In fact, the National Geospatial 
Advisory Committee is a committee made up of industry, 
academia, State and local governments who have advised----
    Mr. Lamborn. OK. And thank you for that, but let me get 
back to my opening question.
    Mr. Gallagher. Sure.
    Mr. Lamborn. Who should we bring forward next time? And I 
am going to give you some names: Mr. Castle, the Assistant 
Secretary for Science; Ms. Schneider, the Assistant Secretary 
for Lands and Management; Mr. Beaudreau, the Assistant 
Secretary for Policy and Budget; or Mr. Connor, the Deputy 
Secretary for the Department. Who should come forward to be 
more specific and maybe take some accountability for waste and 
duplication?
    Mr. Gallagher. So Ms. Anne Castle, who you named as our 
Assistant Secretary for Water and Science, and she is the Chair 
of the Federal Geographic Data Committee, she cochairs that 
with OMB, it is important to understand the structure of the 
FGDC. There is a lot of leadership in the Department of the 
Interior, but the members of the FGDC represent each agency, 
and so, therefore, there is not a single point of 
accountability for every single data theme that you find. So if 
you are looking for duplication in a particular data theme, you 
would most likely want to call the data theme owner that 
represented that agency.
    Mr. Lamborn. OK. I am a little concerned when you say that 
there is not accountability. Would it be Ms. Castle that we 
should talk to about the waste issues that Mr. Powner has 
highlighted? I just want a name of who is the best person to 
bring here the next time so we can really dig into the 
particular waste and duplication.
    Mr. Gallagher. As I commented, I don't think there is a 
single individual. There is a lot of accountability. If I led 
you to believe that there is not accountability, there is. If 
you look at the USGS, we have excellent examples of very strong 
theme management and the development of national geospatial 
data sets in partnership with other agencies that don't have 
duplication.
    Mr. Lamborn. OK. I think we have gone far enough on this. 
Thank you.
    One last question, Mr. Powner, and then we will go to the 
Ranking Member.
    You said in 2012 the Department of the Interior estimated 
that the Federal Government was investing billions of dollars 
on geospatial data annually and that duplication was common. Do 
you know that specific number of dollars? I mean, you quoted 
them as saying billions of dollars.
    Mr. Powner. No, that is why we were vague, because if you 
go to OMB and you ask OMB how much we spend on geospatial data, 
the way they collect that data, they can't give you a solid 
number. We know it is in the billions, Mr. Chairman, and we 
think it is important, though, that OMB use their mechanisms to 
help in the management of this because it helps with the 
coordination because they have the budget authority. But we 
have actually seen in other areas where OMB can actually 
leverage their expertise and root out duplication if it gets 
identified appropriately and you flag those things that are 
duplicative and not fund them going forward. That is very 
important.
    Mr. Lamborn. OK. Thank you very much. When it is billions 
of dollars and we can't be more specific than that, that really 
concerns me.
    OK. I would like to recognize the Ranking Member.
    Mr. Holt. Thank you, Mr. Chairman.
    I have a number of questions, so if I could ask the 
witnesses to be very succinct in their responses, I would 
appreciate it.
    Mr. Powner, the GAO has put the Federal real property on a 
high risk list. Real property could be buildings, could be 
lands. How do you mean it? How does GAO look at that?
    Mr. Powner. Well, I think when we put that on our list, and 
starting in 2003 it included lands and buildings. There is a 
heavy focus, though, on buildings. In fact, I think there was 
some recent press even today about a $3.8 billion figure where 
you could save that. That is primarily associated with the 
buildings, though, reducing excess buildings and those types of 
things.
    Mr. Holt. Mr. Gallagher, could you describe the interaction 
between the USGS and the private sector? Is it a positive 
relationship with the geospatial contractors, with the end 
users?
    Mr. Gallagher. I would describe it as a very positive 
relationship. It is a good government story. We have a lean 
Federal workforce with expertise in cartography and mapping, 
but we leverage the private industry, the capacity and 
expertise that they have to acquire geospatial data and to put 
that data into the public domain. That is a very important 
aspect of it because then it is there for the use by private 
industry, by universities, by the public to underpin the 
economy and to improve public safety.
    Mr. Holt. Thanks. Mr. Powner, in the bill, section 402(d) 
makes the administrator of this new geospatial administration 
responsible for representing the views and interests of private 
firms to government agencies. Is there any precedent for this? 
Can you think of examples where a government agency is supposed 
to represent the interests of private firms to other government 
agencies?
    Mr. Powner. I am not real familiar with that section of the 
bill, but based on what you are describing I am not aware of 
many. One thing that does come to mind, I did a lot of work at 
one time associated with FAA in the air traffic control system. 
I think there was a similar arrangement at one time, and that 
ends up becoming very controversial if FAA is supporting the 
airline industry and that type of thing. So that potentially 
can be controversial in terms of is that an appropriate role 
for government.
    Mr. Holt. In my earlier remarks, I talked about potential 
conflicts of interest, and I had that and such things as that 
in mind.
    Mr. Powner, your GAO reports and your testimony focus on 
the implementation of the Federal geospatial structure. What 
about the structure itself? Do you think the existing structure 
could be made to work? Do we need a new structure or what would 
be gained with a new structure?
    Mr. Powner. The existing structure could work. Obviously, 
the coordinating body would have to really step up from a 
leadership point of view. And again, I would highlight the need 
for OMB to be part of that process to help with cross-agency 
coordination. I think that is very important.
    I think one of the positives with the current structure is 
the theme-based approach when you manage in portfolios, because 
geospatial data can be quite different depending on what the 
users are using it for. Climate and weather over at NOAA is 
much different than some other geospatial data. So the theme-
based approached with the 17 themes does seem to make sense.
    Mr. Holt. And in your testimony you said the OMB is not 
doing any coordinating, or very little coordinating, at this 
point.
    Mr. Powner. No. OMB told us this is not a priority for 
them. At one time it was. In 2006, there was a geospatial line 
of business. And those lines of business, not that OMB has been 
successful in eliminating duplication, there have been some 
areas where they have been. H.R. systems across the Federal 
Government is one example where a line of business helped 
reduce duplication. So at one time it was a priority for them, 
in 2006, but it is clear that it no longer is.
    Mr. Holt. In the Intelligence Community there is an entire 
agency that has the name ``geospatial'' in it. Now, I realize 
there is a different mission, there is, I think, some overlap 
of technology and application. Has GAO looked at that? Has that 
been part of the review as GAO has looked for ways to organize 
and implement geospatial data?
    Mr. Powner. Ranking Member Holt, we have not looked in any 
detail at NGA activities in any detail.
    Mr. Holt. OK. Thank you.
    Mr. Lamborn. OK. I would now like to recognize my colleague 
from the great State of Wyoming, Representative Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    I am going to default to my own frame of reference on this. 
I was a Director of State Lands and Investments in my State of 
Wyoming. We were doing an inventory of State land. We only had 
3.6 million acres of surface estate and about 4.2 million acres 
of subsurface estate or mineral estate. And doing those 
inventories was expensive and time-consuming, and so I get it. 
I get it that we are not talking about something that is 
inexpensive.
    But we were advantaged by the fact that if we leveraged the 
resources of the State and the University of Wyoming, that has 
a great geospatial mapping effort, and various private sector 
groups that were willing, in some cases, to share data with us, 
it did assist us in expediting both the inventory and the 
digitization at a reasonable cost.
    So first question for Mr. Gallagher. How can we address 
something that Mr. Powner said that really resonated with me, 
and that is the silo effect, where people get very proprietary, 
even government employees get very proprietary and myopic about 
the information that they gather? And how can we better share 
that information and go to States, go to universities, go to 
other databases to assist with leveraging the already gathered 
resources?
    Mr. Gallagher. So it is a great question. Thank you. The 
good news on this front is that the evolution of data 
standards, many of them led by the FGDC, have created an 
opportunity for the sharing of data. Today, you can get access 
to another person's or another agency's data and see it in an 
application, you can view it on a mobile platform, you can use 
it in a GIS system.
    The elimination of the silos, I think, comes through the 
clear identification of themes, of layers for geospatial data 
information, authoritative owners of that, and I wholeheartedly 
agree with you that leveraging the private sector to acquire 
the data, working in partnership with universities and others 
who are professionals, creates a relationship in which all the 
resources can be pulled together to do that.
    Mrs. Lummis. What if we did this State by State? Let's 
look, just for example, at H.R. 916. The prime cosponsors are 
Mr. Kind, who is from Wisconsin, and Mr. Bishop from Utah. What 
if we just started with their two States, Wisconsin and Utah, 
and said let's do these first, then we can have appropriators 
appropriate just to do those two States, and then we pick 
another two and another two until it is done? Would that be 
easier to absorb and swallow, both financially and in terms of 
the scope of the mission?
    Mr. Gallagher. Yes, I think it would. Actually, the USGS 
has a long history of working at the State level to do just 
that, both in geologic mapping where we have gone State by 
State in partnership with the Association of State Geologists 
and in our topographic mapping program where now we produce 
additional topographic series on a 3-year cycle going across 
the Nation. And so I think there is a great opportunity to 
leverage our resources with States.
    Mrs. Lummis. Thanks, and I am going to cut you off just 
because----
    Mr. Gallagher. Great.
    Mrs. Lummis [continuing]. I have other questions and only 5 
minutes.
    Mr. Gallagher. Fine. Thank you.
    Mrs. Lummis. But I do appreciate your input on that.
    Mr. Powner, what do you think? What is going through your 
mind as I ask these questions and have this dialog with Mr. 
Gallagher?
    Mr. Powner. Well, I like your idea of going small and 
building it. Another way to do it, you could do it by State. 
You could also take a couple of those themes and really look at 
those themes in great detail and have a couple good wins. We 
have 17 themes. You take a couple of those themes and really 
show it can work, not only coordinating across the Federal 
Government, but with States and localities.
    Mrs. Lummis. Yes.
    Mr. Powner. And then you can get some wins and then focus 
and say, wow, look what we are doing here, we are leveraging 
State data, States are leveraging Federal data, that type of 
thing. So I think that small growing it approach is the way to 
go, and you can do it with States or themes.
    Mrs. Lummis. Off the top of your head, which do you think 
would work better, thematic or State by State?
    Mr. Powner. I am not certain. I like the idea of doing 
both. There is no reason why you can't do them both 
simultaneously.
    Mrs. Lummis. I see.
    Mr. Powner. Try an experiment with both and grow it.
    Mrs. Lummis. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lamborn. OK.
    Representative Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. I find the hearing 
fascinating, but I am going to pass. I am just here to learn.
    Mr. Lamborn. OK. Thank you.
    Representative Fleming.
    Mr. Fleming. Thank you, Mr. Chairman.
    And thank you, panel, for being here. I commend Chairman 
Lamborn for introducing this legislation to consolidate Federal 
mapping programs and streamline their administration. I think 
there is a lot of work to be done in Federal Government in 
consolidating.
    If you think about it, we are like a very large company 
that the revenue and the expenses are not synching up and 
companies across America are consolidating and lowering their 
cost structure in order to be more efficient. We need to be 
doing this more in every area, and that is part of the reason 
why I am preparing to reintroduce the REDUCE Act, which will 
create a BRAC-style commission to consolidate all Federal 
programs. But absent the REDUCE Act being signed into law, H.R. 
1604 is exactly the kind of solution I think we should be 
pursuing in every committee to reform our runaway Federal 
bureaucracy.
    And my first question is to Mr. Powner. Given the size of 
our debt and the need to put limits on the growth of 
government, would you support not just transferring mapping 
authority to the new National Geospatial Technology 
Administration, but deauthorizing specific funding within other 
agencies mentioned in the bill?
    Mr. Powner. I would need to know what the effect would be 
on those agencies' mission, ability to deliver their mission 
specifically. I think that is important. I think you want to 
cut. Believe me, there is a lot to cut. And I am an IT guy, and 
when you look at the $80 billion we spend annually on IT, the 
administration just came up that $8 billion of that is 
duplicative and wasteful. That is 10 percent. And they are 
admitting to that, so you know it is probably higher. But I 
think I would be cautious just to understand what the effects 
would be on mission performance at those agencies.
    Mr. Fleming. Could you give us a list of these programs and 
how much was spent on them last year? Obviously you can't do 
that at this moment, but is that something that you can supply 
to this committee?
    Mr. Powner. On the IT duplication?
    Mr. Fleming. Yes.
    Mr. Powner. Absolutely. There are 204, and the range is 
between $5.9 and $7.8 billion. We issued a report last month, 
and we can go agency by agency and list all 204 for you.
    Mr. Fleming. Right.
    Mr. Powner. Do that for the record.
    Mr. Fleming. OK. Great. We would appreciate that.
    And this is a question to both of our witnesses. Given that 
different agencies and users have different needs, how will the 
National Geospatial Technology Administration determine what 
needs are primary in the creation and maintenance of maps and 
data?
    Mr. Gallagher. I think that is a significant challenge of 
the proposed bill. As I mentioned, most agencies acquire data 
for their own needs, and they are not set up at the moment to 
acquire it for the broad needs of the Nation, either in 
completeness of coverage or requirements. And so as I stated, I 
think it would require an investment to do that. I think it 
would be a challenge to have it occur.
    Mr. Fleming. OK. Another question that just kind of occurs 
to me now. We are learning through our current experience with 
the President's healthcare law that the private sector can do 
things so much more efficiently and lower cost than can 
government and with much better results. How much of this sort 
of work are we asking professionals in the private sector to 
really do and how much are we doing in-house?
    Mr. Gallagher. At USGS, I can speak for USGS, we have a 
very lean Federal workforce with a competency in cartography 
and mapping, and we are using the private sector exclusively to 
acquire all this data. They have the capacity and they have the 
instrumentation and they have, quite frankly, the expertise to 
do that. So, I think it is an effective partnership, and I 
think it is a model of how it can work in all agencies.
    Mr. Fleming. OK. Is there any mechanism for a State or 
local government to cost share or prioritize the data for 
needs?
    Mr. Gallagher. Absolutely. The answer is, yes, we have a 
geospatial products and services contract that has been 
designed so that States can share in the cost, and in fact, we 
are using that vehicle across the Nation now. It is a major 
part of our mapping of Alaska, which is the State-by-State 
concept, where we have a joint Federal-State committee mapping 
Alaska using that vehicle. And so that is a great point, and 
yes, it is very capable.
    Mr. Fleming. Right.
    Mr. Powner, in the few moments I have left, do you have 
anything to add?
    Mr. Powner. Nothing more. Thank you.
    Mr. Fleming. OK. Great.
    With that, I yield back.
    Mr. Lamborn. Thank you.
    Representative Thompson.
    Mr. Thompson. Thank you, Chairman. Thanks for hosting this 
hearing. I very much appreciate what the subcommittee is doing 
here.
    Gentlemen, thank you for your expertise, your leadership, 
bringing your input here.
    Mr. Gallagher. I just want to kind of dovetail a bit with 
my good friend from Louisiana. And thank you for what USGS 
does. I appreciate it, I benefit from that information. Your 
representatives have been in my office. We need good data to 
make good decisions. We sometimes wing it around here and shoot 
from the hip. We don't always do good, sound policy based on 
good, sound data.
    You kind of reflected on the current state of USGS that 
today, about how much you work with different entities, whether 
they be academic universities and States, those types of 
things. I am interested in seeing what the trajectory is for 
that. I mean, how far have you come in the past 10 years with 
that partnership and what do you see in the future? Because it 
seems like as technology has developed, industry interest has 
developed it seems like today there is a lesser role for the 
Federal Government based on the development of these other 
entities, and what do you see for the future? Is that the 
trajectory we are going to stay on?
    Mr. Gallagher. Great. Thank you.
    Well, first of all, the last decade has been a revolution 
for USGS where we have gone from cartography where everything 
was manual and surveying in the field to a digital environment, 
and we have done that with a partnership with, as I mentioned, 
the private sector and agencies.
    Now, your question of where this is going, a lot of times I 
will get the question, well, look at all the data that is 
available from Google, why do we need a separate mapping 
organization. And maybe I will just touch on three points. The 
breadth of the geospatial data is very broad, and the data that 
is available today on the Internet is rather narrow. It might 
be imagery or it might be data to support navigation.
    And so I think there is a very important role going forward 
for the Federal Government to acquire this geospatial data, to 
do it efficiently in partnership with the private sector, and 
to put that into the public domain. That is a very important 
aspect because data that you will find out on the Internet that 
has been collected nonpublicly is, therefore, proprietary and a 
license is usually associated with it to use it.
    The role of the Federal Government in acquiring important 
data should be looked at as infrastructure for the Nation, put 
into the public domain to underpin and support economic 
development and public safety.
    Mr. Thompson. Thank you. You had mentioned that three of 
the nine GAO recommendations to the FGDC have been completed. 
What are the other recommendations and what is the holdup?
    Mr. Gallagher. So there is no holdup. We are actively 
engaged in those. The recommendations are rather complex, so 
what I would like to do is provide a statement for the record 
on the status of those----
    Mr. Thompson. That would be wonderful
    Mr. Gallagher [continuing]. If that is all right with you.
    Mr. Thompson. Yes. A written response would be very 
helpful.
    Mr. Gallagher. OK.
    Mr. Thompson. Mr. Powner, it is my understanding that we 
don't even know which agencies are involved with geospatial 
activities and what kinds of data they are collecting for them. 
I am kind of surmising from some of the testimony submitted 
with the second panel. What are your thoughts on this?
    Mr. Powner. Well, we have approximately 30 agencies that 
participate in the FGDC, so we know who the players are, we 
know who the themes are. The problem is, is we don't really 
have a good handle on exactly what we have within those 
agencies and departments, and then exactly what is in the 
acquisition process to acquire. And that is not a good thing. 
That is why the clearinghouse is so important. We need a 
comprehensive picture of what we have and then we also need a 
comprehensive picture of what we are planning to acquire so 
that we don't duplicate further going forward.
    Mr. Thompson. I would concur. And the gentlelady from 
Wyoming was whispering to me. We agree. The clearinghouse 
concept is always, no matter what we are talking about, it is 
good to know what we have. We have to have that good place to 
launch from.
    And then just finally, some have told us, including 
testimony in the second panel, that effective coordination has 
not occurred on geospatial mapping, which is why legislation 
such as H.R. 1604 is needed. What is USGS doing to help improve 
such coordination?
    Director.
    Mr. Gallagher. So, there are ample examples within the 
USGS. Our national hydrography data set is a data set of 
surface water for the Nation. We are working with the States in 
partnership to steward that. In fact, the States maintain the 
data and we bring it together through a consistent framework to 
serve it out to the Nation. That is one example.
    Our 3D Elevation Program is another one where we have stood 
up an interagency executive forum. We are the OMB A-16 themed 
lead for terrestrial elevation, so we are taking that 
leadership role and we are developing the standards and working 
with the other agencies to share in investment of that program. 
I think you will hear more about that from other witnesses 
today. Those are two examples.
    Mr. Thompson. Thank you both very much.
    Mr. Chairman, I am out of time.
    Mr. Lamborn. Representative Garcia.
    Mr. Garcia. Just had a quick question. Either one of you, 
Kevin or David, can answer. It is my understanding that the 
U.S. Government is intending to spend about $146 million in 
funding stream for 3DEP per year. How much of that do you 
already have? And given that level, when do you anticipate 
south Florida gets mapped?
    Mr. Gallagher. Thank you very much for that question.
    The 3D Elevation Program is proposed for funding in the 
fiscal year 2014 budget of $9 million from the President's 
budget. So certainly that will help, if we get it, to make our 
way down to Florida.
    Currently in the USGS there is about $6 million that is 
dedicated annually to the acquisition of lidar. Having said 
that, we are very effective at working with our agency partners 
to have them match our investment. And so in 2013 we acquired a 
total of about $25 million of high resolution elevation data 
across the Nation.
    One last comment. We are very sensitive to your State being 
one of the lower elevation States. It is actually more 
important there to understand your elevation data for flood 
inundation and for a host of other reasons. And so our----
    Mr. Garcia. Elevation is inches, not feet there.
    Mr. Gallagher. Right. And so our plan is to originally 
focus along the coastlines so that, particularly on the east 
coast where there is hurricane alley, to procure the data 
there.
    One last thought is we did conduct a very comprehensive 
inventory of publicly available lidar with the NEEA study that 
was conducted. I would be happy to provide for you information 
about the available lidar in your State. We are also producing 
fact sheets of that State by State, and I would be happy to 
share that with you or get input from you on how that should 
look.
    Mr. Garcia. Great. Thank you.
    Mr. Gallagher. Yes.
    Mr. Lamborn. Do you yield back?
    Mr. Garcia. Yes, I yield back the balance of my time.
    Mr. Lamborn. OK. Thank you.
    To take advantage of your expertise and knowledge, I want 
to have a second but abbreviated round because time is ticking. 
So we are going to have a 2-minute round for whoever has a 
question, and I will start out. So we are going to keep the 
clerk on her toes.
    Mr. Powner, duplication, as you have highlighted in your 
report, is when two or more agencies do the same thing. But 
there can also be duplication when government does the same 
thing as the private sector. In your study, did you interview 
any entities in the private sector? Is there any concern on the 
part of GAO that government might be duplicating the private 
sector in geospatial activities? And do you have any comments 
or recommendations regarding the use of the private sector?
    Mr. Powner. We didn't look at that in detail in terms of 
duplication with the private sector. Although, Mr. Chairman, I 
will say it is important to leverage the private sector to the 
extent possible. And in many of these cases the private sector 
is under contract. There is a key question, I think, with some 
of these, who owns the data and who owns the infrastructure? 
When you start looking at government putting satellites up, 
should we be doing that, should we be relying on the commercial 
sector? Right now it is a mix. And it is important to leverage 
the private sector in many of these areas.
    Mr. Lamborn. OK. Thank you.
    And last, Mr. Gallagher, I want to ask you a question. I am 
curious about the statement for the record that the Department 
submitted. In order to explain to the committee how much land 
the Federal Government owns, it cites the Congressional 
Research Service. Does the executive branch of the Government 
not have its own data base on how much land is owned?
    Mr. Gallagher. If I may, I would like to ask Karen 
Mouritsen to answer that question.
    Mr. Lamborn. Yes, please come forward. Just state your name 
for the record, and I would be happy to have you answer the 
question to the best of your ability.
    Ms. Mouritsen. I am Karen Mouritsen from the Bureau of Land 
Management.
    Mr. Lamborn. Thank you.
    Ms. Mouritsen. At the Bureau of Land Management we track 
the land we manage and own, but we do not track the lands of 
the other agencies, like the Park Service or the Forest 
Service.
    Mr. Lamborn. But the Department, as an entire Department, 
apparently, at least for the purposes of this statement, relied 
on the Congressional Research Service. I am just curious, 
aren't there Department-held databases?
    Ms. Mouritsen. Not that I am aware of as one Department 
data base. I can ask the Park Service or the other agencies for 
that data. The GSA may have that data in a data base.
    Mr. Lamborn. OK.
    Ms. Mouritsen. But the BLM itself does not have that data.
    Mr. Lamborn. OK. All right. Thank you very much.
    Representative Holt.
    Mr. Holt. Because we have votes approaching on the Floor 
and I am eager to hear from the next panel, I will pass. Thank 
you.
    Mr. Lamborn. Representative Lummis.
    Mrs. Lummis. Thanks, Mr. Chairman.
    Mr. Powner, could you expound a little bit on this 
clearinghouse concept? That sparked my attention when you 
mentioned it before. Is this something that you saw a need for 
as you did your evaluation of the silo effect of data 
collection and redundancy in the Federal Government?
    Mr. Powner. Well, if you look at the current structure that 
has been set up, there is a clearinghouse that has been 
established, and now they refer to it as the geospatial 
platform. So the idea is right. The problem to date is we don't 
have all agencies populating that appropriately. There is even 
some State information in there.
    Mrs. Lummis. I think you mentioned 30 agencies that are 
involved in that?
    Mr. Powner. There are 30 agencies associated with the FGDC. 
If you look right now, it is real heavy, Interior populates a 
lot of information. I would say Ag and the Department of 
Transportation are light in populating that. And then the other 
thing is you need to look at it does not identify the planned 
investments. So was one of our recommendations. And since then 
there has been attention placed on that, that we really need to 
identify the planned investments.
    But again, it is a simple concept, but it is difficult to 
get folks to play in that clearinghouse sandbox. And that is 
where sometimes, you could have the FGDC doing it, but 
sometimes OMB with the little things they can do through their 
budgetary mechanisms, sometimes that really helps getting 
agencies to comply with that.
    Mrs. Lummis. In the grand scheme of things at OMB, where 
they are trying to find waste and duplication, and hopefully 
economize, where does this fit? Where does an $8 billion 
estimate about waste and duplication fall in the waterfall of 
waste and duplication in the Federal Government?
    Mr. Powner. As you well know, we have issued three reports 
now at GAO over the last 3 years on waste and duplication. IT 
is one of many areas. Clearly, the $8 billion within OMB's 
office that houses the Federal CIO, that is a top priority. 
Now, that is commodity IT, so that is like infrastructure and 
administrative systems. It is not these geospatial investments. 
So that is what we need to do. We need to expand that concept 
into some of the more mission critical areas where we know 
there is duplication.
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back.
    Mr. Lamborn. Representative Garcia.
    Mr. Garcia. I am good, Mr. Chairman.
    Mr. Lamborn. OK.
    Representative Fleming.
    Representative Thompson.
    Excuse me. Representative Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    Thank you to the panel for being here. I understand today 
we are looking at just two bills, and our subcommittee 
Chairman, Mr. Lamborn, has the ``Map It Once, Use It Many Times 
Act,'' and my subcommittee Chairman from the Public Lands 
subcommittee, Mr. Bishop, has a bipartisan bill with 
Representative Kind, the ``Federal Land Asset Inventory Reform 
Act.'' I want to ask the panel first about Chairman Lamborn's 
bill.
    The Department of the Interior submitted a statement for 
the record in opposition to the bill. The administration's 
position on the bill is that it would compromise the USGS' 
reputation as an unbiased source of scientific information. Is 
that correct?
    Mr. Gallagher. That is correct. That is the statement for 
the record.
    Mr. Horsford. Can you explain at little more of it to me, 
sir?
    Mr. Gallagher. Yes, I certainly can. The USGS, as the 
Nation's premier science agency, must maintain independence and 
an unbiased view of our research. The integrity of this is so 
important to our work and our reputation that we have developed 
fundamental science practices within the USGS to ensure an 
unbiased nature of our research. We are concerned that if we 
are put into a role of advocacy in any regard, whether it is 
regulation or in this case advocating for the private industry, 
it could put us in a potential conflict of interest or an 
ethical dilemma with regard to our independence.
    Mr. Horsford. OK. I also want to ask a quick question about 
Mr. Bishop's bipartisan FLAIR Act, H.R. 916. As I understand, 
it seems like it is based on a pretty simple concept: The 
Federal Government should have a more accurate understanding of 
all the property that we own. One of the concerns I do have, 
however, is the estimated cost, which could be as high as $68 
billion. Are there ways that we could meet Mr. Bishop's goal 
without the high price tag of the proposal?
    Ms. Mouritsen. Thank you. We do collect information, as we 
do our land use planning process, on many of the items listed 
in this bill. And we do that every 10 to 20 years as we look at 
amending or developing new land use plans. And as necessary we 
collect information during that time for actions on the ground. 
And so we think that doing this through our locally driven 
planning process is the way to go to collect this information.
    Mr. Horsford. Can I just clarify, Madam Chair?
    Mrs. Lummis [presiding]. Yes.
    Mr. Horsford. So what is missing, then, from what Mr. 
Bishop is trying to achieve from what you say you do now every 
10 years?
    Ms. Mouritsen. This bill is mandating that we collect all 
of this information, including some information we don't 
collect now through our planning process, and we do it all at 
once, and do it not during the individual land use planning 
processes, but focus all our resources on collecting it all at 
once.
    Mr. Horsford. Can you provide the committee with what you 
would need to collect that you don't currently collect?
    Ms. Mouritsen. Yes. We have got a breakdown of the 
different tasks that we would need to do to implement the bill, 
which we can get to you.
    Mr. Horsford. Thank you.
    Thank you, Madam Chair.
    Mrs. Lummis. I thank the committee, and I thank the panel. 
Members of the committee may have additional questions for the 
record, and I will ask you to respond to those in writing.
    And with our gratitude to this panel, you are excused.
    I would now like to invite forward our second panel. We 
have Mr. Jeff Lower, President, the Management Association for 
Private Photogrammetric Surveyors. We have Mr. Curtis W. 
Sumner, Executive Director of the National Society of 
Professional Surveyors. Mr. Jeff Lovin, Chairman of the 
Coalition of Geospatial Organizations. And Mr. Jay Parrish, 
former State Geologist, Pennsylvania Geological Survey, and 
Chair of the Mapping Committee of the Association of American 
State Geologists.
    Thank you, gentlemen, for your testimony today.
    Mr. Lower, you may begin. As you know, we have 5 minutes. 
At 4 minutes and 30 seconds, you will see a yellow light. So we 
will ask you to wrap it up. Thank you.

STATEMENT OF JEFF LOWER, PRESIDENT, THE MANAGEMENT ASSOCIATION 
         FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS [MAPPS]

    Mr. Lower. Thank you, Chairman, members of the 
subcommittee. Thank you for the opportunity to express our 
views.
    MAPPS is a national association of private sector 
geospatial firms. I would like to commend the Chairman for 
holding this hearing and introducing H.R. 1604. There is a 
critical need to reorganize Federal geospatial activities, 
including governance, strategic investment and data, structure, 
and understanding the proper roles and responsibilities of 
various stakeholders, including the government and the private 
sector. Let me cite a few examples of why H.R. 1604 is 
necessary.
    Mr. Fleming had commented on the healthcare law. In 
reference to that, there are 814 provisions in the healthcare 
law that require references to location, geographic or place-
based information. However, there is no geospatial management 
office, GMO, or Geospatial Information Officer, GIO, within the 
Department of Health and Human Services. One can only wonder if 
the lack of strategic approach to geospatial data is one of the 
contributing factors with the problems in the implementation of 
the healthcare law.
    Our Nation's failure to develop a national parcel system 
cost us hundreds of billions of dollars in the mortgage crisis. 
Such an early warning system would have provided the ability to 
track anomalies in the housing market, such as an increase in 
defaults and foreclosures. Chairman and Mr. Holt, Mr. Fleming, 
Mr. Garcia, you and your constituents have personally 
experienced the need for better, more coordinated response to 
natural disasters, wildfires and floods in Colorado, Hurricane 
Sandy in New Jersey, multiple hurricanes in Florida, as well as 
Louisiana. H.R. 1604 will provide a new, more up-to-date 
authorization for the USGS rather than relying on a law that 
was passed by Congress in 1879. It will consolidate civil 
Federal mapping activities into a new National Geospatial 
Technology Administration that will focus on leadership, 
coordination, and providing the basic geospatial data the 
government needs under a new inclusive governance structure.
    The bill also provides for an accounting of all Federal 
geospatial activities. This provision is particularly necessary 
as the Federal Government still cannot accurately track its 
geospatial expenditures.
    H.R. 1604 includes elements of H.R. 916, the FLAIR Act. 
Both proposals call for current accurate inventory of land 
owned by the Federal Government. Not only does the Federal 
Government lack a current, accurate, and reliable inventory of 
its land assets, but tax dollars are wasted through duplication 
and inefficiency through a proliferation of stovepiped 
noninteroperable inventories. An accurate inventory is an 
important feature of good land management. Proper conservation, 
recreation, multiple use activities are dependent on accurate 
information about the government's land ownership.
    I would like to close with a bright note. MAPPS does work 
closely with Mr. Gallagher of the USGS on the first panel. He 
is a dedicated public servant and a good, trusted partner. 
MAPPS strongly encourages and supports the 3DEP program. This 
is a model for how there should be cooperation among Federal 
agencies. It is an excellent example of Federal leadership, and 
it recognizes the respective roles and responsibilities at all 
levels between the government and the private sector.
    And then, finally, in support of H.R. 1604, and in 
reference to Mr. Holt's question earlier about the NGA, the 
National Geospatial-Intelligence Agency, NIMA before that, and 
the DMA before that, NGA was created as a consolidation of 
defense intelligence agencies and programs, just as H.R. 1604 
proposes for civil government agencies.
    Thank you. That is my statement.
    Mrs. Lummis. Thank you, Mr. Lower, for your expeditious 
summary of your testimony. We appreciate that.
    [The prepared statement of Mr. Lower follows:]
Prepared Statement of Jeff Lower, President, the Management Association 
             for Private Photogrammetric Surveyors [MAPPS]
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present our views on H.R. 916 and H.R. 1604. MAPPS 
(www.mapps.org) is a national association of private sector geospatial 
firms. Our 160+ member firms span the entire spectrum of the geospatial 
community, including satellite and airborne remote sensing, surveying, 
photogrammetry, aerial photography, LIDAR, hydrography, bathymetry, 
charting, aerial and satellite image processing, GPS, and GIS data 
collection and conversion services and companies that provide hardware, 
software, products and services to the geospatial profession in the 
United States and other firms from around the world. A significant 
number of our member firms are prime contractors or subcontractors to 
USGS and other Federal agencies, and to the State and local governments 
that receive Federal grant monies.
    I'd like to commend you, Mr. Chairman, for holding this hearing and 
for introducing H.R. 1604. There is a critical need to reorganize 
Federal geospatial activities, including governance, strategic 
investment in data, structure, and in understanding the proper roles 
and responsibilities of various stakeholders, including government and 
the private sector.
    H.R. 1604, the Map It Once, Use It Many Times Act, is an effort to 
re-establish the USGS to its position as the pre-eminent civil Federal 
mapping agency. It focuses a new USGS, through its National Geospatial 
Technology Administration on leadership, coordination, and providing 
the basic geospatial data needed for smaller more efficient government 
and lower costs. The bill also updates USGS authorizations for data 
activities, such as the framework layers of the National Spatial Data 
Infrastructure [NSDI]. It would accomplish this through greater 
utilization of the private sector, and strengthening Federal agency 
performance of inherently governmental activities.
    Why are a new focus and a new governance structure necessary? Let 
me cite just a few examples.
    There are 814 references to location or geographic data that 
require place-based information in the health care reform law. 
Notwithstanding all of these disparate needs for geospatial data, 
Congress failed to create a Geospatial Management Office [GMO] or 
Geospatial Information Officer [GIO] within he Department of Health and 
Human Services [HHS] to coordinate the collection, management, 
utilization, and sharing of the required geospatial data activities. 
Moreover, the legislation lacked a provision establishing a Health Care 
GIS at the Department level. Congress established such a position in 
the Department of Homeland Security after it was created and a GMO-GIO 
has been administratively implemented in the Department of the 
Interior, Agriculture, EPA, FCC and other agencies. The National 
Geospatial Advisory Committee [NGAC] recommended a Geographic 
Information Officer [GIO] in each Cabinet department. MAPPS wrote 
Secretary Sebelius about the need for such an office after Congress 
failed to do so in the legislation in 2010. One can only wonder if the 
lack of a strategic approach to place-based, location and geospatial 
data is one of the factors in the problems with implementation of the 
health care law and the lack of functionality of the e-commerce Web 
site.
    Regardless of which side of the climate change debate one is on, 
all parties should be able to agree on one fundamental point: that 
government decisions should be based on the best data available. But 
what data is the government currently relying on? There is a need for 
geospatial data to measure, monitor, verify and validate the phenomena 
that may be caused by global climate change. There is fundamental data 
the U.S. Government and the American people need in order to determine 
if climate change is indeed having the effect some claim, and the 
catastrophe some are predicting. A national elevation data set 
utilizing LIDAR technology to quantify change in vegetative canopy 
structure and coincident field measurements of aboveground biomass, a 
network of geodetic bench marks, coastal tide and sea level gauging and 
shoreline delineation maps for measurement and observation of long- and 
short-term sea level change, and a series of historic and current land 
use and land cover classification data are all needed to accurately 
determine and quantify the effects of climate change, but do not exist.
    Hundreds of billions of dollars in taxpayer money was expended due 
to the mortgage crisis that is still having lingering adverse affects 
on our economy. If the Federal Government had a national parcel system, 
we would have had an early warning system that could have prevented the 
subprime mortgage crisis. Such a system would have given our nation the 
ability to track changes in the housing market, such as a slight 
increase in defaults and foreclosures, early on. We could then have 
taken small steps to curb the crisis instead of having to take big 
steps that have now cost taxpayers billions of dollars.
    Mr. Chairman and Mr. Holt, you, and your constituents, have 
personally experienced the need for a better, more coordinated response 
to natural disasters--wildfires and floods in Colorado and Hurricane 
Sandy in New Jersey. While processes are improving, the Federal 
Government, in coordination with State and local government and the 
private sector, still lacks an adequate response to both natural and 
anthropogenic disasters. There is still lack of coordination, a lack of 
clearly delineated roles and responsibilities, gaps in coverage, and 
the absence of a process for timely funding of the collection of 
critically needed geospatial data. Many of the recommendations in the 
National Academy report, ``Successful Response Starts with a Map: 
Improving Geospatial Support for Disaster Management'', (2007) still 
have not been implemented.
    The Census Bureau spent nearly $1 billion developing an in-house 
mapping and addressing system for the 2010 census. The Topologically 
Integrated Geographic Encoding and Referencing [TIGER] system is a less 
accurate, less current version of mapping available from the private 
sector. Consumers have become accustomed to utilizing high quality maps 
every day on their mobile phones, GPS devices, laptops/desktops/tablets 
and in auto navigation systems. A study conducted by the Census Bureau 
itself found private sector maps to be of higher quality than Census 
maps (``Census Bureau Market Research Project with Nokia''). The 
private sector, having already made the hundreds of millions of dollars 
in investment in the creation, updating and maintenance of their maps 
for their existing customer base, could provide the Census Bureau with 
the highest quality maps at a fraction of the in-house cost. However, 
duplication of and competition with the private sector appears to be 
the norm, as there is little indication that Census will be increasing 
it contracting with the private sector for the 2020 effort.
    The USGS operates primarily under authorization provided by the act 
of March 3, 1879 (codified in 43 U.S.C. 31 et seq.). It has been 
decades since Congress last enacted major legislation affecting one of 
the original and core missions of the USGS--the surveying and mapping 
of the United States. As a result, surveying and mapping has 
proliferated among more than 40 Federal agencies, resulting in 
duplication, a lack of coordination, gaps in coverage and the absence 
of a strategic approach to providing the basic geographic information 
needed in the 21st century for scientific research, as well as 
practical applications that contribute to the economic health, quality 
of life and safety and security of our Nation. The need for better 
coordination of Federal surveying and mapping activities has been well 
documented by previous Congressional hearings, including by this 
subcommittee, GAO reports, National Academy of Sciences studies, and 
investigations by the National Academy of Public Administration, OMB 
and other entities.
    USGS should be focused on leadership and coordination among Federal 
agencies, and non-Federal stakeholders. Its functions should be 
assisting with applying geospatial data to our Nation's challenges; 
encouraging economic development, private sector job creation and 
export promotion; driving a research agenda that is responsive to the 
private sector's needs; working to assure a geospatial workforce that 
will meet the demands of the Nation; and contracting with the private 
sector and partnering with other government entities to build and then 
maintain the NSDI. We believe this is where USGS's priorities should be 
and we support building a stronger USGS that once again leads the 
Federal Government's geographic information activities.
    H.R. 1604 would provide a new, more up-to-date authorization for 
USGS. It would consolidate responsibilities for NSDI leadership in a 
National Geospatial Technology Administration within USGS; merge 
duplicate Federal geospatial programs of the Interior Department, 
Forest Service, and NOAA into the new Administration; encourage the 
uses of commercial data and private sector service providers; establish 
a National Geospatial Policy Commission to replace the FGDC in order to 
provide a priority-setting mechanism that not only includes Federal 
agencies, but Congress and non-Federal stakeholders as well; provide 
for acquisition of professional geospatial services on the basis of 
quality, qualifications and experience of competing firms; establish an 
advocacy function for the dynamic U.S. private sector geospatial 
community; and coordinate the tens of millions of dollars the U.S. 
Government spends each year on geospatial-related research and 
development along strategic goals that meet the needs of government and 
the private sector.
    H.R. 1604 has other features we think are necessary and forward-
looking. The bill calls for an examination of a user fee system to fund 
geospatial activities. MAPPS is exploring this concept and we believe 
such a process may reduce the burden on taxpayers generally and provide 
a more reliable flow of funding to produce geospatial data for those 
who need and use these data. It also provides long overdue legislative 
authorization for national imagery and elevation data collection. It 
also calls for activities to define roles and responsibilities, 
particularly those of the private sector, and activities to implement 
these functions, to reduce government competition with and duplication 
of the private sector. Moreover, it will coordinate the significant 
research and development investments the Federal Government makes each 
year in geospatial activities, so that such investments are strategic 
and used to meet identified goals and requirements. It prevents inmates 
working in prison industries from having access to certain sensitive 
infrastructure or individual citizen data.
    Additionally, the bill adds to the NSDI ``information on 
underground infrastructure, including the location, type, size, 
composition, and use of underground structures including tunnels and 
pipelines''. The need for this data is extraordinary. During my 5 
minute testimony, an underground utility line will have been hit five 
times--once every 60 seconds. The annual cost due to utility damage is 
in the billions of dollars. And one of the leading causes of these 
accidents and disruptions is inaccurate records and locating.
    The bill also provides for an inventory and accounting of all 
Federal geospatial activities, identifying unnecessary activities and 
converting to the private sector those activities that are commercial 
in nature, while quantifying the cost savings. This provision is 
particularly necessary as the Federal Government still cannot 
accurately track its geospatial expenditures.
    H.R. 1604 also includes elements of H.R. 916, the Federal Land 
Asset Inventory Reform [FLAIR] Act. These provisions call for a 
current, accurate inventory of the land owned by the Federal 
Government. Not only does the Federal Government lack a current, 
accurate and reliable inventory of its land assets, but tax dollars are 
wasted through duplication and inefficiency through a proliferation of 
stove-piped, non-interoperable inventories. I am convinced that if the 
Federal Government were to have one, GIS-based land inventory, it could 
save tens of millions of dollars, or more.
    Mr. Chairman, the fact is the Federal Government does not know what 
it owns, where it owns it, what condition it is in, what its appraised 
or market value is, what its characteristics are, whether it is still 
in the public interest for the Government to own it, whether it should 
be surplused and disposed, or what its designated use should be.
    For more than 15 years, the Government Accountability Office [GAO] 
has found that dozens of Federal agencies control hundreds of thousands 
of real property assets worldwide, including facilities and land, worth 
hundreds of billions of dollars. However, the portfolio is not well 
managed, many assets are no longer consistent with agency mission or 
needs and are therefore no longer needed, and many assets are in an 
alarming state of disrepair. In 1995, GAO told Congress ``The General 
Services Administration publishes statistics on the amount of land 
managed by each Federal agency. However, we found this information was 
not current or reliable''. (GAO-T-RCED-95-117).
    As far back as 1980, the National Research Council/National Academy 
of Sciences said, ``There is a critical need for a better land-
information system in the United States to improve land-conveyance 
procedures, furnish a basis for equitable taxation, and provide much-
needed information for resource management and environmental 
planning.'' (Need for a Multipurpose Cadastre).
    Why is a Federal land inventory, as envisioned in the FLAIR Act, 
necessary?
    As I noted earlier, GAO has found that the government lacks a 
current, accurate, reliable land inventory. That led GAO to put the 
government's real property asset management activities on its High Risk 
list. (High Risk Series--An Update, GAO-05-207), a position still held 
today.
    Since the National Academy issued its recommendation in 1980, the 
technology and capability of land or geographic information systems 
[GIS] has exploded. The Academy endorsed the FLAIR Act (National Land 
Parcel Data: A Vision for the Future) and the National Geospatial 
Advisory Committee has endorsed the recommendations in the Academy's 
parcels report.
    An accurate inventory is an important feature of good land 
management. Proper conservation, recreation and multiple use activities 
are dependent on accurate information about the government's land 
ownership.
    The American taxpayer can also be the biggest beneficiary of a 
``cadastre'', also known as a land information system or geographic 
information system [GIS]. Many units of local government--cities, 
counties--have used such land information systems, or even single 
purpose digital parcel or tax mapping programs, to more accurately and 
efficiently inventory real estate within the jurisdiction. There are 
numerous examples where local government has used GIS to identify tens 
of millions of dollars in annual property taxes that were unpaid or 
under paid. These systems have paid for themselves many times over, 
many in the first year alone.
    It is time the U.S. Government invested in a similar methodology 
and technology to identify and inventory its land holdings. Such a 
system can help enhance the management of Federal lands, identify lands 
that could be put to higher priority use, as well as those that are no 
longer needed by the government and can be made surplus and sold, thus 
bringing revenue and savings to the Federal budget.
    Once the multipurpose inventory is complete, the government can 
become a better real property asset manager, and a responsible steward 
of its land holdings. This will result in more efficient land 
management, again providing savings. Additionally, areas for multiple-
use can be better identified, thus enhancing the American citizens' use 
of public lands and generate more revenue from leasing, mineral rights, 
recreation and fees from other activities. Moreover, legislation to 
facilitate a process by which the Federal Government can more 
efficiently sell its surplus lands can be enacted. This will not only 
help State and local government by providing them land they can manage 
as open space, or these lands can be sold to the private sector for 
economic development, thus expanding the local tax base and creating 
jobs. The proceeds of these sales can be used to balance the budget and 
pay down the debt, be invested in higher priority activities such as 
roads, schools, parks, environmental protection, resource management 
and maintenance in our National Parks.
    Moreover, as mentioned earlier, when integrated with land records 
on private property, a national parcel system can be an ``early warning 
system'' to monitor and prevent disruptions in the real estate market, 
like the one we recently experienced with the foreclosure crisis.
    Mr. Chairman, geospatial data, products, technology and services 
enhance and contribute to national priorities in economic development, 
resource management, environmental protection, infrastructure, 
construction and maintenance, homeland security and a variety of other 
national needs and applications. The USGS was once the envy of the word 
for its leadership in this field. We are heartened by the leadership 
recently exhibited by USGS with the development of the national 
elevation or 3DEP program. This program will satisfy the growing demand 
for consistent, high-quality topographic data and a wide range of other 
three-dimensional representations of the Nation's natural and 
constructed features. Among the applications that will benefit from 
3DEP data are flood risk management, agriculture, water supply, 
homeland security, renewable energy, aviation safety, and other areas.
    MAPPS believes 3DEP will promote economic growth, facilitate 
responsible environmental protection and resource development and 
management, assist with infrastructure improvement, and generally 
enhance the quality of life of all Americans. The USGS, with 
involvement from the private sector and other stakeholders, conducted a 
National Enhanced Elevation Assessment [NEEA], to determine and 
document the need for national elevation data within government and 
private markets. The results indicated that enhanced elevation data 
have the potential to generate $13 billion in annual benefits, at a 
benefit:cost ratio of 4.7 to 1.
    A capable, qualified private sector capacity exists to fulfill the 
data acquisition requirements of 3DEP. Utilizing the Geospatial 
Products and Services Contract [GPSC], a suite of multiple-award USGS 
contracts with the private sector competitively procured via the 
qualifications based selection process pursuant to 40 U.S.C. 1101 and 
FAR part 36.6, provides a public-private partnership between USGS and 
the private sector to accomplish 3DEP via task orders for Light 
Detection And Ranging [LIDAR] acquisition.
    MAPPS strongly supports the USGS intent to utilize these contracts 
for 3DEP data collection and processing. The equipment infrastructure 
and service capacity and capability of the private sector, as well as 
the contract vehicles in USGS, are in place to efficiently implement 
the 3DEP program. Moreover, Congress provided an innovative mechanism 
for cooperative activities in elevation data when it enacted section 
100220 of Public Law 112-141, which can be utilized to pool funding 
from Federal, State and local government entities, with participation 
by USGS.
    In conclusion, Mr. Chairman, H.R. 916 and H.R. 1604, are steps to 
eliminate waste and duplication; use geospatial information to grow the 
economy; and better coordinate Federal geospatial activities. We 
respectfully recommend their enactment.
                                 ______
                                 
            Questions Submitted for the Record to Jeff Lower
     Questions Submitted for the Record by The Honorable Rush Holt
    Question. Mr. Lower, you heard testimony earlier from the USGS that 
one of their concerns with the FLAIR Act is the excessive cost, the 
vast majority of which comes from the requirement to determine the 
value of each parcel of Federal land, and catalogue it for potential 
disposal. If those provisions were removed from the bill, and it was 
purely an effort to get an accurate inventory of Federal lands, without 
regard to value or disposal, would your organizations still support the 
legislation?
    Answer. The FLAIR Act, H.R. 916, has two primary features. First, 
it calls for an inventory of inventories to determine how many Federal 
land inventories the U.S. Government currently operates and maintains, 
what the cost is, and which are candidates for consolidation, 
termination or integration into a single, current, accurate inventory. 
Not only do we not know how much land the Government owns, or where it 
is, but we don't know how much of it is already valued or appraised. 
Therefore, we don't know what the cost would be to value and catalogue 
the current land holdings. Second, the bill calls for a multi-purpose 
(map it once, use it many times), current, accurate inventory. While a 
value for each parcel is needed, and virtually every entity in our 
Nation except the U.S. Government knows the extent and value of its 
land holdings, if H.R. 916 were enacted without the value of each 
parcel it would still be supportable and worthwhile legislation as it 
would accomplish the two goals I just stated, be a benefit to the 
United States, improve the operations of government, and ultimately 
save money.
    Question. Mr. Lower, do your organizations have a preference for 
whether the NGTA would be within the USGS, or a separate organization 
outside the USGS?
    Answer. The USGS has long been the primary civil Federal mapping 
agency. It has in-house expertise and a new business model that engages 
and utilizes the private sector. MAPPS believes these assets would be 
beneficial to a new NGTA. Therefore, it would be the preference of 
MAPPS that the NGTA be within USGS. However, we are open to other 
structural and organizational frameworks that accomplish the goals of 
H.R. 1604.
    Question. Mr. Lower, could you describe what it is about the 
existing structure--with the FGDC, the NGAC, and Circular A-16--that 
you think is not working?
    Answer. First, FGDC is made up solely of Federal agencies. No other 
stakeholders, particularly the private sector, are members. 
Additionally, the FGDC has a very small staff that is responsible for 
coordination efforts in more than 40 agencies, thousands of Federal 
employees, and, by some estimates, billions of dollars in annual 
Federal expenditures. Aside from that small staff, its activities are 
largely voluntary and secondary to each agency's mission. It lacks the 
clout, stature, budget, or authority to effectively manage Federal 
geospatial activities. The same is true with regard to OMB Circular A-
16, in addition to the circular having no enforcement mechanism. 
Finally, the NGAC is an advisory committee, not a policymaking 
committee. Very few of the recommendations made by NGAC have been 
adopted by the Federal Government. The ineffectiveness of FGDC, NGAC 
and A-16 is what has driven the findings of the GAO reports, as well as 
the 1998 National Academy of Public Administration [NAPA] report, 
``Geographic Information for the 21st Century: Building a Strategy for 
the Nation,'' (which pre-dated the establishment of the NGAC). H.R. 
1604 seeks to bring FGDC, NGAC, and policies such as A-16 and Executive 
Order 12906, into one effective body that includes all stakeholders and 
has real decisionmaking authority.
    I would be happy to answer any more questions or provide more 
detail to the answers provided above. MAPPS supports the enactment of 
H.R. 1604 and H.R. 916 and we appreciate the committee's due diligence 
in determining the best way forward.
                                 ______
                                 
    Mrs. Lummis. Mr. Sumner, you are recognized.

STATEMENT OF CURTIS W. SUMNER, LS, EXECUTIVE DIRECTOR, NATIONAL 
            SOCIETY OF PROFESSIONAL SURVEYORS [NSPS]

    Mr. Sumner. Thank you for the opportunity to testify today 
on behalf of the 10,000 members of the National Society of 
Professional Surveyors. Our surveyors are in public service, in 
academia, and in private practice.
    To put into perspective the need for H.R. 1604 and H.R. 
916, I would like to cite a couple of studies. The first cite 
is, the last major study of Federal surveying and mapping, 
nearly 40 years ago, found a disturbing proliferation and 
duplication of activity among many different agencies. Thirty-
nine Federal agencies engage in surveying and mapping 
activities in an uncoordinated, single-purpose manner that has 
an inability to deal efficiently and responsively with growing 
and changing requirements. Agency funding is piecemeal and 
lacks central management, and such surveying and mapping 
activities are generally marked by agency competition, some 
overlap, and shortfall in meeting important national needs.
    The second cite is, there is a critical need for a better 
land information system in the United States to improve land 
conveyance procedures, furnish a basis for equitable taxation, 
and provide much needed information for resource management and 
environmental planning. Current technology is adequate in most 
cases for the surveying, mapping, data collecting, filing, and 
dissemination of information. The major obstacles in the 
development of a multipurpose cadastre are the organizational 
and institutional requirements.
    These are not current statements. As a matter of fact, they 
are quite old. The former is a 1973 OMB report on Federal 
mapping, charting, geodesy, and surveying, and the latter is 
from a 1980 report by the National Academy of Sciences. 
Numerous studies have highlighted the need to reform and 
redesign how Federal surveying, mapping, and geographic 
information activities are funded and managed. Geospatial data, 
products, technology, and services contribute to a variety of 
national needs and applications, but we are not effectively 
using these assets.
    H.R. 1604 provides for consolidation and stronger 
organizational partnerships for geospatial coordination. It 
consolidates geospatial activities, eliminates obsolete 
programs, and establishes today's priorities. We are pleased 
that H.R. 1604 adds infrastructure location data to national 
priorities. There is a critical need for current and accurate 
location data for pipelines, surface and underground 
infrastructure, utilities, and railroads. Every minute of every 
day an underground utility is hit, resulting in costly service 
disruption, environmental damage, and, worst of all, personal 
injury or loss of life.
    Federal officials, transportation designers, telecom, and 
utilities and pipeline contractors, as well as local government 
need accurate location information to manage surface and 
underground infrastructure. The tragic accident in New York 
last weekend demonstrates the need for positive train control 
systems which use highly accurate geospatial data, such as GPS 
data, lidar, high resolution digital imagery, survey data, and 
mobile mapping to delineate the location of rails and 
clearances and to provide a detailed asset inventory to assure 
safety, train separation or collision avoidance, speed 
enforcement, and for asset management, including the accurate 
delineation of rights of way and property boundaries.
    H.R. 916 addresses the need for a current accurate 
inventory of land owned by the Federal Government. The 
Department of the Interior Inspector General found that the 
BLM's cadastral program was missing the opportunity to identify 
and perform surveys on high risk lands where significant 
potential revenues could be collected from fees or royalties. 
In another report the IG said the Department can gain revenue 
of $100 million or more annually by better using location and 
valuation data to assess rent for rights of way on Federal 
land.
    The Federal Government is losing valuable revenue due to 
inefficiency in the current system. As the inspector general 
found in the right-of-way report, most of the recommendations 
will not require additional funding. Fully implementing the 
recommendations, however, should result in increased revenues, 
thereby offsetting any cost. We believe this also applies to 
H.R. 1604. We found 40 years and 80 years ago a disturbing 
proliferation and duplication of surveying and mapping activity 
among different agencies and lack of utilization of geospatial 
activities and services to solve pressing national problems.
    Today there is an even more critical need for a better land 
information system. The technology that geospatial 
professionals bring to the table still provide all the adequate 
activities for making this happen. H.R. 1604 and H.R. 916 are 
steps in the right direction. We urge their prompt and 
favorable consideration by the Congress. Thank you for this 
opportunity.
    Mrs. Lummis. Thank you as well, Mr. Sumner, for falling 
within our 5-minute rule.
    [The prepared statement of Mr. Sumner follows:]
    Prepared Statement of Curtis W. Sumner, LS, Executive Director, 
           National Society of Professional Surveyors [NSPS]
                         h.r. 916 and h.r. 1604
    The National Society of Professional Surveyors (NSPS) is a national 
professional society with more than 10,000 members through affiliate 
organizations in all 50 States. NSPS seeks to advance the sciences and 
disciplines within the profession, enhance the image of the surveying 
profession in the eyes of the public, advance the protection of public 
welfare relative to surveying and mapping issues, and encourage high 
standards of ethical and professional behavior.
    Mr. Chairman, permit me to cite two quotes to put the need for H.R. 
1604 and H.R. 916 into perspective.

First--

        ``The last major study of Federal surveying and mapping nearly 
        40 years ago found a disturbing proliferation and duplication 
        of activity among many different agencies. Today, these 
        activities are found among an even greater number, suggesting 
        that over the years the conventional budgetary process alone 
        could not constrain the growth of surveying and mapping outside 
        the core agencies, which apparently were not getting the job 
        done . . .'' 39 Federal agencies engage in surveying and 
        mapping activities in an ``uncoordinated, noncumulative, 
        single-purpose'' manner that has an ``inability . . . to deal 
        efficiently and responsively with . . . growing and changing 
        requirements''. Agency funding is ``piecemeal'' and ``lacks 
        central management' and such surveying and mapping activities 
        ``are generally marked by insularity, agency competition, some 
        overlap, and shortfall in meeting important national needs''. 
        The effort to coordinate agencies' activities has been ``only 
        partially successful''. Agencies have not been ``given clear 
        mandates to search for and identify duplication''.

And--

        ``There is a critical need for a better land information system 
        in the United States to improve land conveyance procedures, 
        furnish a basis for equitable taxation, and provide much-needed 
        information for resource management and environmental planning 
        . . . Problems inherent in our present system may be 
        categorized as accessibility, duplication, aggregation, 
        confidentiality, and institutional structure . . . Current 
        technology is adequate in most cases for the surveying, 
        mapping, data collecting, filing, and dissemination of 
        information . . . The major obstacles in the development of a 
        multipurpose cadastre are the organizational and institutional 
        requirements.``

    These are not current or recent quotes. The former is from a 1973 
OMB Report of the Federal Mapping Task Force on Mapping, Charting, 
Geodesy and Surveying and the latter is from a 1980 report, Need for a 
Multipurpose Cadastre, by the National Academy of Sciences.
    NSPS, and its predecessor, the American Congress on Surveying and 
Mapping [ACSM], have been deeply involved in both these studies. In 
fact, ACSM was instrumental in a more recent look at Federal geospatial 
structure, organization, governance, and management, ``Geographic 
Information for the 21st Century--Building a Strategy for the Nation'' 
by the National Academy of Public Administration [NAPA] in 1998, that 
called for a reorganization of executive branch agencies in order to 
improve coordination within the Federal Government and with State and 
local government, the private sector, and the academic community.
    Let me first say that H.R. 1604 includes several important changes 
from its predecessor in the 112th Congress, H.R. 4233. The composition 
of the proposed National Geospatial Policy Commission has been revised 
to provide a broader cross-section of the geospatial stakeholder 
community. The section on development of standard clauses, contracts 
and form licenses has been revised to distinguish licensed geospatial 
data from State-issued licenses to practice.
    Mr. Chairman, GAO reports, congressional hearings, and other 
studies have highlighted the need to reform and redesign how surveying, 
mapping and geographic information activities are funded and managed at 
the Federal level to eliminate wasteful duplication, improve governance 
and coordination, and maximize the use of state-of-the art mapping and 
geospatial technologies. Geospatial data, products, technology and 
services benefit national priorities in economic development, resource 
management, environmental protection, infrastructure, construction and 
maintenance, homeland security and a variety of other national needs 
and applications. Executive Order 12906, issued by President Clinton in 
1994 and reaffirmed by President Bush in 2003, established seven 
framework layers of geospatial data for Federal investment--geodetic 
control, parcels (cadastral), orthoimagery, elevation, hydrography, 
administrative units, and transportation--all constituting the National 
Spatial Data Infrastructure [NSDI]. Eighteen years later, numerous new 
initiatives have been launched to complete some of the framework. These 
include National Land Parcel Data, Imagery for the Nation, 
Transportation for the Nation, and others. While these are all worthy 
programs, their proliferation indicates the failure of the NSDI. A 
strategy must be developed to both fund and complete the NSDI as a 
comprehensive approach, or to fully implement these individual 
initiatives.
    There are dozens of Federal agencies engaged in geospatial 
activities. Neither the agencies, nor OMB, have a comprehensive 
understanding of which agencies are involved in geospatial activities. 
No one in the Federal Government has a current, accurate accounting of 
annual geospatial expenditures. It is virtually impossible to determine 
how many Federal employees are involved in these activities. There is 
no balance sheet, prepared to accepted cost accounting standards, of 
the capital investment made in equipment and plant (office space, 
etc.). There is no accurate data base on the amount of geospatial work 
performed in-house and by contract. The relationship of each agency 
with other Federal agencies and with State, local and foreign 
government agencies needs improvement. There is considerable 
duplication and redundancy, little sharing of data, and development of 
standards for ``interoperability'' of data has been far too slow. The 
obstacles are not technical; they are political and organizational.
    H.R. 1604, the ``Map It Once, Use It Many Times [MIO-UIMT] Act'' 
provides for consolidation and stronger organizational partnerships for 
geospatial coordination. This legislation establishes the National 
Geospatial Technology Administration within the U.S. Geological Survey 
to enhance the use of geospatial data, products, technology, and 
services, to increase the economy and efficiency of Federal geospatial 
activities. MIO-UIMT also creates a National Geospatial Policy 
Commission to develop and periodically amend a comprehensive plan to be 
known as the ``National Geospatial Data Plan''. H.R. 1604 consolidates 
geospatial activities, eliminates obsolete programs and establishes 
today's priorities.
    If there is a criticism within NSPS about H.R. 1604, it is that it 
does not go far enough. While we understand the Labyrinth of committee 
jurisdictions and the parliamentary process of referrals of 
legislation, we believe there are programs, such as FEMA flood mapping, 
that would benefit from consolidation and better coordination.
    There is a critical need in the United States for current, accurate 
location data on pipelines, surface and underground infrastructure, 
utilities and railroads. The location of these assets, portrayed on 
surveys and maps, are essential to public health, welfare, and safety, 
as well as to protect property rights. We are pleased that H.R. 1604 
adds such infrastructure location data to the NSDI.
    At a hearing on pipeline safety earlier this year, Senate Commerce 
Committee Chairman Jay Rockefeller (D-WV) said:

        ``They crisscross underneath our cities and country sides, yet 
        most of the time we are not even aware they are there. They 
        deliver critical fuel that powers our homes, factories, and 
        offices, and also transport the oil and gas that keep our cars, 
        trucks, and planes operating . . . Compared to other forms of 
        transportation, pipelines are a relatively safe, clean and 
        efficient way of transporting the goods they carry. 
        Unfortunately, this is not always the case . . . Lack of 
        records about older pipelines is a real problem and contributed 
        to a catastrophic pipeline explosion in California that killed 
        several people.''

    More than 183,000 miles of railroad tracks run throughout the 
United States, adjoining tens of thousands of landowners. Railroad 
tracks and the monumentation that lie within the railroad right-of-way 
are paramount in defining the legal location of adjoining property 
boundaries. When abandoned railroad tracks adjoining landowners are 
removed, and there is no monumentation showing where the tracks once 
existed, defining the location of boundary lines for adjacent property 
owners can be a costly endeavor.
    Federal officials, transportation designers, telecom, and utilities 
and pipeline operators, as well as local government, need accurate 
location information to manage existing underground infrastructure and 
plan for future growth and development. Surveys and maps of underground 
utilities are often inaccurate. In many cases, they don't even exist. 
The National Transportation Safety Board [NTSB] and other authorities 
often cite the lack of location data as a factor in pipeline accidents. 
The inaccuracy of location data, unmarked utilities, and crowding 
within rights of way are major factors contributing to disruption to 
underground infrastructure. Digging, drilling or excavating in the 
vicinity of unknown, unmarked, unmapped, or incorrectly located 
utilities can be costly in terms of wasted excavation time, service 
disruption and utility downtime, environmental damage, and--worst of 
all--personal injury or loss of life.
    Moreover, the tragic accident in New York last week demonstrates 
the need for Positive Train Control [PTC] systems, which utilize highly 
accurate geospatial data, such as GPS data, LIDAR data, high resolution 
digital imagery, survey data, and mobile mapping to delineate the 
location of rails, clearances and a detailed asset inventory, to assure 
safety, train separation or collision avoidance, speed enforcement, and 
for asset management.
    As recently as January 2013, the Government Accountability Office 
released a study (GAO-13-168) on pipeline safety urging ``better data'' 
with an emphasis on ``location'', ``proximity'' and ``topography.''
    Congress should investigate the problem of railroad abandonment, 
underground infrastructure location, and the need for improved location 
data to enhance public safety, protect the environment, and grow the 
economy by strengthening Federal law on accurate location (surveying 
and mapping) of such pipelines, railroads, and other forms of utility 
infrastructure. H.R. 1604 is a first step in that process.
    As I noted earlier, NSPS and its predecessor have been leading 
proponents for a national parcel system. H.R. 916 helps address this 
need by authorizing a current, accurate inventory of land owned by the 
Federal Government.
    The Department of the Interior [DOI] Office of Inspector General 
[OIG] Final Audit Report, ``Department of the Interior's Management of 
Land Boundaries'' (Audit No. C-IN-MOA-0001--2009), July 16, 2009, found 
``that the BLM's Cadastral Survey program was missing the opportunity 
to identify and perform surveys on high risk lands where significant 
potential revenues could be collected by the Department or Indian 
tribes. . . . This revenue could result from the collection of fees or 
royalties from identifying (a) unauthorized uses including rights-of-
way violations and (b) the improper removal of oil, gas, timber, or 
other resources from Federal or Indian lands.''
    In September 2012, the Department of the Interior [DOI] Office of 
Inspector General [OIG] found in ``Management of Rights-of-Way in the 
U.S. Department of the Interior,'' (Report No. C-IN-MOA-0013-2010) that 
``the Department's bureaus have an opportunity to collect as much as 
$100 million or more annually if they assess market value for rents'' 
for rights-of-way [ROW] on Federal land. This potential revenue is not 
collected because rents are set below market value, rent discounts are 
not justified, and unauthorized uses of ROW are not identified and 
corrected. Although most ROW are valued based upon rent schedules, 
obtaining true market value requires individual valuations of proposed 
ROW. Data needed for valuing and prioritizing ROW could include the 
value and volume of a proposed service or product in addition to its 
location and land requirements. The latter are surveying and geospatial 
information data requirements.
    In testimony before the House Subcommittee on Energy and Mineral 
Resources on May 2, 2012, in Colorado Springs, CO, the Government 
Accountability Office [GAO] ``raised concerns about the accuracy and 
completeness of the data used to manage Federal land and resources and 
revenues collected from activities on Federal land. As these prior 
reports have concluded, without accurate and complete data, managers 
cannot make fully informed decisions and effectively manage and 
evaluate agency activities.'' (GAO-12-691).
    All of these reports demonstrate the need for a better land 
information system in the Department of the Interior. That is what H.R. 
1604 will provide. The Federal Government is losing valuable revenue 
due to the inefficiency of the current system. As the inspector general 
found in the right-of-way report, ``most of the recommendations will 
not require additional funding. Fully implementing the recommendations, 
however, should result in increased revenues, thereby offsetting any 
costs.'' We believe the same applies to H.R. 1604.
    Mr. Chairman, just as we found 40 years ago and 80 years ago, there 
is a disturbing proliferation and duplication of surveying and mapping 
activity among many different agencies, and a lack of utilization of 
geospatial services, data and technology to solve pressing national 
problems. There is an even more critical need for a better land 
information system in the United States today. The technology that the 
geospatial profession brings to the table is more than adequate for the 
surveying, mapping, data collecting, filing, and dissemination of 
information that is needed. And the major obstacles we face are 
organizational and institutional.
    H.R. 1604 and H.R. 916 are steps in the right direction. We urge 
their prompt and favorable consideration by the Congress.
                                 ______
                                 
         Questions Submitted for the Record to Curtis W. Sumner
     Questions Submitted for the Record by The Honorable Rush Holt
  h.r. 1604--map it once, use it many times act and h.r. 916--federal 
                land asset inventory reform act of 2013
    Question. Mr. Sumner, you heard testimony earlier from the USGS 
that one of their concerns with the FLAIR Act is the excessive cost, 
the vast majority of which comes from the requirement to determine the 
value of each parcel of Federal land, and catalogue it for potential 
disposal. If those provisions were removed from the bill, and it was 
purely an effort to get an accurate inventory of Federal lands, without 
regard to value or disposal, would your organizations still support the 
legislation?
    Answer. The premise that a value or appraisal of every parcel the 
Government owns is needed based on the belief that every such parcel is 
eligible for surplus and disposal, is a false premise. Additionally, 
when one considers the cost to the Government and our economy (such as 
the cost of the 2008 mortgage crisis) of not having a national parcel 
system, a national parcel system including an appraised value of every 
parcel would still be a fraction of the cost of the way the 
Government's business is done today. Nevertheless, NSPS would still 
support the FLAIR Act if it provided a current, accurate inventory 
(even without such valuation data) as a step in the right direction, 
and a contribution toward more efficient and effective government 
management.
    Question. Mr. Sumner, do your organizations have a preference for 
whether the NGTA would be within the USGS, or a separate organization 
outside the USGS?
    Answer. NSPS does not have a preference as to whether NGTA is 
housed within or outside USGS. As I mentioned in my oral testimony, 
consolidation and improved coordination are needed. There are Federal 
activities, such as the FEMA flood mapping program (as one example) 
that are not covered by H.R. 1604, but would also benefit from better 
integration and coordination with other Federal agency mapping, 
surveying, and geospatial activities.
                                 ______
                                 
    Mrs. Lummis. Mr. Lovin, you are recognized.

    STATEMENT OF JEFF LOVIN, CP, PS, CHAIRMAN, COALITION OF 
                GEOSPATIAL ORGANIZATIONS [COGO]

    Mr. Lovin. Thank you for opportunity to speak on behalf of 
the Coalition of Geospatial Organizations, or COGO. COGO is an 
umbrella coalition of the leading national nonprofit societies 
and associations in the geospatial field. COGO is deeply 
concerned about the governance and land information issues H.R. 
1604 and H.R. 916 seek to address.
    In recent years, there has been explosive growth, as we 
have already heard this morning, in the use of geospatial data 
in the U.S. economy. The Federal Geographic Data Committee 
estimates that as much as 90 percent of government information 
has a geospatial information component.
    Unfortunately, neither the executive branch nor Congress 
has a consolidated or effective structure for oversight and 
coordination of geospatial activities. It is our estimation 
that more than 40 Federal agencies are engaged in geospatial 
activities, and responsibility for oversight and authorization 
of Federal geospatial activities is spread among more than 30 
House and Senate committees and subcommittees.
    Oversight, coordination, efficiency, and utilization of 
geospatial data can enhance the quality of life of the American 
people. A better management and government structure in the 
executive branch, and the establishment of a subcommittee in 
the House and Senate, respectively, with primary jurisdiction 
over geospatial activities are needed.
    COGO has been deeply involved in efforts to create a 
national parcel system, as envisioned in the landmark 1980 
National Academy of Sciences report, ``Need for a Multipurpose 
Cadastre,'' and its 2007 follow-up report, ``National Land 
Parcel Data: A Vision for the Future.'' The 2007 report 
actually endorsed the FLAIR Act. The committee of COGO 
overseeing this issue has been deeply concerned by the slow 
pace at which the Federal Government has been implementing the 
Academy's reports and recommendations and believes the Nation 
would be well served by more prompt action.
    One bright spot, as we have heard, is the progress made on 
the 3 Dimensional Elevation Program, or 3DEP, led by the U.S. 
Geological Survey. This is an example of a strategic and 
coordinated approach to a national geospatial requirement. 
Using existing authorization and the language in the FEMA flood 
map reform provisions enacted in the MAP-21 Act, USGS is 
helping to establish an innovative coordinated funding pool for 
the collection of elevation data for flood mapping and other 
purposes. USGS is using its geospatial products and services 
contract as the vehicle for the collection of lidar and IFSAR 
data for 3DEP.
    The Survey is working with States and other Federal 
agencies to increase the area in which the data is collected 
and to reduce duplication. COGO supported the President's 
fiscal year 2014 budget request for 3DEP, which has been 
approved by the House Interior Appropriations Subcommittee.
    Together, H.R. 1604 and H.R. 916 would provide specific and 
updated authorization for 3DEP, implement some recommendations 
of the parcel report, and better coordinate Federal geospatial 
activities. These are consistent with COGO priorities. And as 
these bills move through the legislative process, COGO would 
like to offer specific recommendations for improvement, and we 
look forward to working with the subcommittee and the bill 
sponsors in that effort. And with that, I thank you for the 
opportunity to present our views.
    Mrs. Lummis. I also thank Mr. Lovin for his expeditious 
review of his testimony.
    [The prepared statement of Mr. Lovin follows:]
   Prepared Statement of Jeff Lovin, CP, PS, Chairman, Coalition of 
                    Geospatial Organizations [COGO]
                         h.r. 916 and h.r. 1604
    Mr. Chairman, members of the subcommittee, I am Jeff Lovin, a 
professional surveyor and certified photogrammetrist with Woolpert, a 
geospatial firm headquartered in Cincinnati, Ohio. It is my honor to 
serve this year as Chairman of the Coalition of Geospatial 
Organizations [COGO], an umbrella coalition of the leading national 
non-profit societies and associations in the geospatial field. COGO is 
comprised of the American Society for Photogrammetry and Remote Sensing 
[ASPRS], Association of American Geographers [AAG], American Society of 
Civil Engineers [ASCE], Cartography and Geographic Information Society 
[CAGIS], GIS Certification Institute [GISCI], International Association 
of Assessing Officers [IAAO], Management Association for Private 
Photogrammetric Surveyors [MAPPS], National Society for Professional 
Surveyors [NSPS], National States Geographic Information Council 
[NSGIC], University Consortium for Geographic Information Science 
[UCGIS], United States Geospatial Intelligence Foundation [USGIF], and 
Urban and Regional Information Systems Association [URISA].
    COGO is deeply concerned about the governance and land information 
issues H.R. 1604 and H.R. 916 seek to address. H.R. 1604, the ``Map It 
Once, Use It Many Times Act'', introduced by Representative Lamborn, 
would establish the National Geospatial Technology Administration 
within the U.S. Geological Survey to enhance the use of geospatial 
data, products, technology, and services, to increase the economy and 
efficiency of Federal geospatial activities. H.R. 916, the ``Federal 
Land Asset Inventory Reform Act of 2013'', introduced by Representative 
Kind and Representative Bishop of Utah, would improve Federal land 
management, resource conservation, environmental protection, and use of 
Federal real property, by requiring the Secretary of the Interior to 
develop a multipurpose cadastre of Federal real property and 
identifying inaccurate, duplicate, and out-of-date Federal land 
inventories.
    In recent years, there has been explosive growth in the use of 
geospatial data in the U.S. economy. The Federal Geographic Data 
Committee [FGDC]'s 2006 Annual Report noted that as much as 90 percent 
of government information has a geospatial information component. The 
Geospatial Information and Technology Association reported that up to 
80 percent of the information managed by business is connected to a 
specific location. While a 1993 survey by the Office of Management and 
Budget [OMB] found total annual geospatial expenditures in Federal 
agencies alone was close to $4 billion, there is no current, accurate 
accounting of the government's annual investment. A recent study by the 
Center for Strategic and International Studies estimated that at least 
$30 billion is generated by geospatial-related companies annually. The 
geospatial sector has steadily increased by 35 percent a year, with the 
commercial side growing at an incredible rate of 100 percent annually. 
The U.S. Department of Labor predicts that the geospatial sector is one 
of the three technology areas that will create the most jobs in the 
coming decade.
    Despite this extraordinary growth and the near-ubiquitous presence 
of geospatial data in government and the private sector, the Federal 
Government, including Congress, does not have a consolidated or 
effective structure for oversight and coordination of geospatial 
activities. More than 40 Federal agencies are engaged in geospatial 
activities and responsibility for oversight and authorization of 
Federal geospatial activities is spread among more than 30 House and 
Senate committees and subcommittees.
    Geospatial activities have benefited from oversight by Congress and 
the executive branch on a bipartisan basis. The following are a few 
highlights:

    <bullet> Executive Order 12906, ``Coordinating Geographic Data 
            Acquisition and Access: The National Spatial Data 
            Infrastructure'', was issued by President Clinton on April 
            11, 1994. This created the National Spatial Data 
            Infrastructure [NSDI] as a strategic investment of the 
            Federal Government and established the Department of the 
            Interior [DOI] as the lead agency in the FGDC.
    <bullet> A National Academy of Public Administration [NAPA] report, 
            requested by Congress, was released in January 1998. 
            ``Geographic Information for the 21st Century Building--A 
            Strategy for the Nation'' called for a reorganization of 
            the executive branch agencies in order to improve 
            coordination within the Federal Government and with State 
            and local government, the private sector, and the academic 
            community.
    <bullet> Two hearings were held in 2003 and 2004 by the 
            Subcommittee on Technology, Information Policy, 
            Intergovernmental Relations and the Census of the House 
            Committee on Government Reform. These hearings identified 
            the challenges and shortcomings of current Federal 
            geospatial coordination. This subcommittee was later 
            disbanded.
    <bullet> At the request of the House Subcommittee, the Government 
            Accountability Office investigated Federal geospatial 
            activities and reported ``efforts have not been fully 
            successful in reducing redundancies in geospatial 
            investments'' and ``Federal agencies are still 
            independently acquiring and maintaining potentially 
            duplicative and costly data sets and systems. Until these 
            problems are resolved, duplicative geospatial investments 
            are likely to persist.''
    <bullet> In response to these hearings and the GAO report, the Bush 
            administration established a ``Geospatial Line of 
            Business'' initiative. However, it has not been able to 
            accurately account for annual Federal geospatial 
            expenditures.
    <bullet> In 2008, DOI Secretary Dirk Kempthorne established the 
            National Geospatial Advisory Committee [NGAC] to ``provide 
            advice and recommendations related to management of Federal 
            and national geospatial programs, the development of the 
            National Spatial Data Infrastructure, and the 
            implementation of Office of Management and Budget Circular 
            A-16 and Executive Order 12906''.
    <bullet> In July of 2009, the House Subcommittee on Energy and 
            Mineral Resources held an oversight hearing entitled 
            ``Federal Geospatial Data Management.'' This subcommittee 
            identified that the Federal Government spends billions of 
            dollars each year to acquire and manage geospatial data, 
            which go into making maps for consumers, State and local 
            officials, and emergency responders, among others. The 
            subcommittee also found that DOI has estimated that up to 
            half of the Federal investment in geospatial data is 
            redundant. The subcommittee examined how the Federal 
            Government manages the geospatial activities of its various 
            agencies, and how information sharing between Federal, 
            State, and local governments, and between the public and 
            private sectors, can be improved.
    <bullet> Also in July 2009, the Congressional Research Service 
            published a report, ``Issues Regarding a National Land 
            Parcel Data base'', highlighting the ``organizational 
            challenges'' and reporting ``a coordinated approach to 
            federally managed parcel data did not exist.''
    <bullet> In August 2009 and June 2010, OMB published memos on 
            ``place-based'' policies, more appropriately referred to as 
            ``geospatial''. Within these memos, these policies sought 
            to leverage investments by focusing resources in targeted 
            places and drawing on the compounding effect of well-
            coordinated action. Effective geospatial policies can 
            influence how rural and metropolitan areas develop, how 
            well they function as places to live, work, operate a 
            business, preserve heritage, and more. Such policies can 
            also streamline otherwise redundant and disconnected 
            programs. Between now and 2050, the expected population 
            growth--of nearly 140 million people--will require, among 
            other things, the construction of more than 200 billion 
            square feet of new housing, business space, and retail 
            development and major new investments in all forms of 
            physical infrastructure. The new construction will 
            constitute an estimated two thirds of all development on 
            the ground in 2050.
    <bullet> In May 2012, the House Subcommittee on Energy and Mineral 
            Resources held an oversight hearing entitled ``Federal 
            Geospatial Spending, Duplication and Land Inventory 
            Management''. This hearing covered the importance of 
            updating Federal land mapping practices for job creation, 
            additional use of public lands and scientific advancements. 
            The hearing also focused on the Federal Government's 
            mapping and geospatial management programs including 
            Federal data reliability and management. Advances in 
            mapping technology and demands for mapping products have 
            created greater demand in the Federal Government for 
            geospatial services. However, the coordination between 
            agencies often fails to produce the best information or 
            value for various constituencies and stakeholders. 
            Frequently, multiple Federal agencies will request mapping 
            of the same area at the same time, wasting Federal 
            resources, and taxpayer dollars.
    <bullet> GAO issued a report, ``Geospatial Information: OMB and 
            Agencies Need to Make Coordination a Priority to Reduce 
            Duplication'', GAO-13-94, on November 26, 2012 and it has 
            further addressed geospatial duplication and lack of 
            coordination in its 2013 Annual Report, ``Actions Needed to 
            Reduce Fragmentation, Overlap, and Duplication and Achieve 
            Other Financial Benefits'', GAO-13-279SP, April 9, 2013.

    This chronology demonstrates how the oversight, coordination, 
efficiency and utilization of geospatial data can enhance the quality 
of life of the American people. A better management and governance 
structure in the executive branch, and the establishment of a 
subcommittee in the House and Senate, respectively, with primary 
jurisdiction over geospatial activities, are needed.
    COGO has been deeply involved in efforts to create a national 
parcel system, as envisioned in the landmark 1980 National Academy of 
Sciences report ``Need for a Multipurpose Cadastre'' and its 2007 
report, ``National Land Parcel Data: A Vision for the Future''. The 
2007 report endorsed the FLAIR Act. A committee of COGO, overseeing 
this issue, has been deeply concerned by the slow pace at which the 
Federal Government has been implementing the Academy's reports and 
recommendations and believes the Nation would be well served by more 
prompt action.
    One bright spot is the progress made on the three dimensional 
elevation program, or ``3DEP'', lead by the U.S. Geological Survey 
[USGS]. This is an example of a strategic and coordinated approach to a 
national geospatial requirement. Operating under authority of the USGS 
Organic Act of March 3, 1879 (20 Stat. 394; 43 U.S.C. 31), the act of 
October 2, 1888 (25 Stat. 505, 526), and the language in the FEMA flood 
map reform provisions enacted in the MAP-21 Act, section 100220 of Pub. 
L. 112-141, that calls for USGS to participate in an innovative, 
coordinated funding pool for the collection of elevation data for flood 
mapping and other purposes, USGS has launched the 3DEP program. The 
USGS is using its Geospatial Products and Services Contract [GPSC] as 
the acquisition vehicle for the collection of LIDAR and IFSAR data for 
the 3DEP program. USGS is working with States and other Federal 
agencies to increase the area in which data is collected and to reduce 
duplication. COGO supported the President's fiscal year 2014 budget 
request for 3DEP, which has been approved by the House Interior 
Appropriations Subcommittee. I would point out that GPSC is a 
contracting program that follows the COGO-endorsed geospatial data 
acquisition principles, which are also consistent with provisions in 
H.R. 1604 and H.R. 916.
    Enhanced elevation data for the Nation will stimulate economic 
growth, while improving health and security. Federal leadership will 
increase the efficiency and effectiveness of the activity as a whole.
    In 2012, a study funded by the USGS and its partners identified 
that important benefits from enhanced elevation data totaling up to an 
estimated $13 billion annually would accrue to 602 mission-critical 
activities of 34 Federal agencies; the 50 States; and selected local 
and tribal government, private, and other organizations.
    3DEP will satisfy the extensive demand for consistent, high-quality 
topographic data and other three-dimensional representations of the 
Nation's natural and constructed features. COGO is confident that 
appropriate and desirable Federal leadership through the 3DEP will 
result in significantly improved protection and management of water 
resources; better identification, delineation, risk characterization, 
mitigation and post-event recovery of natural hazard areas; improved 
management and discovery of energy and mineral resources; more 
efficient efforts in agriculture, landscape restoration, 
transportation, and construction; as well as improving insights into 
our natural heritage.
    H.R. 1604 and H.R. 916 would provide specific authorization for 
3DEP, implement some recommendations of the parcel report, and better 
coordinate Federal geospatial activities. These are consistent with 
COGO priorities. As these bills move through the legislative process, 
COGO would like to offer specific recommendations for improvement. We 
look forward to working with the subcommittee and the bill's sponsors 
in that effort.
    Thank you for the opportunity to present our views.
                                 ______
                                 
            Questions Submitted for the Record to Jeff Lovin
     Questions Submitted for the Record by The Honorable Rush Holt
  h.r. 1604--map it once, use it many times act and h.r. 916--federal 
                land asset inventory reform act of 2013
    Question. Mr. Lovin, you heard testimony earlier from the USGS that 
one of their concerns with the FLAIR Act is the excessive cost, the 
vast majority of which comes from the requirement to determine the 
value of each parcel of Federal land, and catalogue it for potential 
disposal. If those provisions were removed from the bill, and it was 
purely an effort to get an accurate inventory of Federal lands, without 
regard to value or disposal, would your organizations still support the 
legislation?
    Answer. The Coalition of Geospatial Organizations has not had ample 
time to develop consensus positions on either H.R. 916 or H.R. 1604. We 
will forward any position statements we adopt on the bills in the near 
future to the committee.
    Question. Mr. Lovin, do your organizations have a preference for 
whether the NGTA would be within the USGS, or a separate organization 
outside the USGS?
    Answer. The Coalition of Geospatial Organizations has not had ample 
time to develop consensus positions on either H.R. 916 or H.R. 1604. We 
will forward any position statements we adopt on the bills in the near 
future to the committee.
                                 ______
                                 
    Mrs. Lummis. And now I recognize Mr. Parrish.

    STATEMENT OF JAY B. PARRISH, PH.D., P.G., FORMER STATE 
   GEOLOGIST, PENNSYLVANIA GEOLOGICAL SURVEY, CHAIR, MAPPING 
   COMMITTEE, ASSOCIATION OF AMERICAN STATE GEOLOGISTS [AASG]

    Dr. Parrish. Thank you very much. I appreciate this 
opportunity to testify on behalf of the Association of American 
State Geologists. I would like to thank Chairman Lamborn and 
Ranking Member Holt for the invitation to be with you today. I 
will focus my testimony on the essential role that the U.S. 
Geological Survey plays in the operation of the Federal 
Government and industry, in particular with 3DEP.
    When John Wesley Powell was Director of the USGS over 125 
years ago, he told Congress, and I will rephrase, ``Government 
can do no scientific work of greater value than creating 
topographic maps of the country.'' He implemented a plan to map 
the entire country, producing topographic maps that every one 
of you, your constituents, and American businesses have used at 
some time. The traditional topo sheet that we have all used 
became the basis for economic development in the country.
    Everyone has used the original topo sheet. They are iconic. 
You all are familiar with the look of them. Geologists use 
them, hydrologists, hunters, developers, land use planners, boy 
scouts, girl scouts, families on vacation, everybody uses topo 
sheets.
    We endorse 3DEP--3D Elevation Program--as a means of 
continuing this Powell plan to provide something of value to 
the people, consistent, current, and openly available 
geospatial data that is authoritative. The U.S. Geological 
Survey 3DEP initiative is a plan to systematically acquire 
high-quality lidar and IFSAR data nationwide over the next 8 
years, lidar over the lower 48, Hawaii, and the U.S. 
territories, and IFSAR over Alaska. It is a well-coordinated 
plan based on well documented requirements and benefits.
    I have here the study, the NEEA study that was referred to 
earlier, which goes over the requirements. I will leave it to 
you if you want to read it.
    [The National Enhanced Elevation Assessment study 
referenced by Dr. Parrish follows:]
        U.S. Department of the Interior, U.S. Geological Survey

           National Enhanced Elevation Assessment at a Glance

                         (By Gregory I. Snyder)
                              introduction
    Elevation data are essential for hazards mitigation, conservation, 
infrastructure development, national security, and many other 
applications. Under the leadership of the U.S. Geological Survey and 
the National Digital Elevation Program [NDEP], Federal agencies, State 
agencies, and others work together to acquire high-quality elevation 
data for the United States and its territories. New elevation data are 
acquired using modern technology to replace elevation data that are, on 
average, more than 30 years old. Through the efforts of the NDEP, a 
project-by-project data acquisition approach resulted in improved, 
publicly available data for 28 percent of the conterminous United 
States and 15 percent of Alaska over the past 15 years. Although the 
program operates efficiently, the rate of data collection and the 
typical project specifications are currently insufficient to address 
the needs of government, the private sector, and other organizations.
    The National Enhanced Elevation Assessment (NEEA; Dewberry, 2011) 
was conducted to (1) document national-level requirements for improved 
elevation data, (2) estimate the benefits and costs of meeting those 
requirements, and (3) evaluate multiple national-level program-
implementation scenarios. The assessment was sponsored by the NDEP's 
member agencies. The study participants came from 34 Federal agencies, 
agencies from all 50 States, selected local government and tribal 
offices, and private and not-for-profit organizations. A total of 602 
mission-critical activities were identified that need significantly 
more accurate data than are currently available. The results of the 
assessment indicate that enhanced elevation data have the potential to 
generate $13 billion in new benefits annually.
                requirements for enhanced elevation data
    The requirements for elevation data were documented as part of the 
assessment through surveys and structured interviews. Each requirement 
was described in terms of the accuracy of the data, the data refresh 
cycle, and the geographic area of interest. The expected benefits that 
would result from meeting these requirements were also identified. To 
facilitate this analysis, the results of the survey and interviews were 
sorted by 27 predefined business uses. Table 1 summarizes expected 
benefits for the top 10 of 27 identified business uses, in dollar 
amounts. The dollar amounts represent cost savings either for the 
operating agencies or for the customers who use their services and are 
detailed for each organization in Dewberry (2011). For example, in 
Alabama, high-quality elevation data could potentially save the State's 
Department of Economic and Community Affairs $5 million because of the 
reduced time (and thereby costs) needed to create datasets for 
analyzing flood risks. The improved data could potentially save the 
agency's customers $3 million because the data would help reduce the 
costs and amount of time required to complete certain phases of flood-
risk mitigation projects.

  Table 1--Annual Aggregated Monetary Benefits for the Top 10 Business Uses Identified in the National Enhanced
                                              Elevation Assessment
----------------------------------------------------------------------------------------------------------------
                                                                                     Annual Benefits
                                                                       -----------------------------------------
  Rank                            Business Use                           Conservative  (In      Potential  (In
                                                                            millions of          millions of
                                                                              dollars)             dollars)
----------------------------------------------------------------------------------------------------------------
      1   Flood risk management                                                       $295                 $502
      2   Infrastructure and construction management                                   206                  942
      3   Natural resources conservation                                               159                  335
      4   Agriculture and precision farming                                            122                2,011
      5   Water supply and quality                                                      85                  156
      6   Wildfire management, planning, and response                                   76                  159
      7   Geologic resource assessment and hazard mitigation                            52                1,067
      8   Forest resources management                                                   44                   62
      9   River and stream resource management                                          38                   87
     10   Aviation navigation and safety                                                35                   56
----------------------------------------------------------------------------------------------------------------
[Benefits were reported as single values or as a range of values in the assessment report (Dewberry, 2011). Only
  one half of participants were able to assign benefits to their activities, and the conservative benefits
  include these numbers only. Further, when benefits were reported as a range, only the low end of the range was
  included in calculating conservative benefits. Potential benefits were based on the high end of benefit ranges
  and included some estimated and projected benefits as well as the benefits expected from some emerging
  applications]

    For about half of the reported applications, the surveyed 
organizations were unable to identify specific economic benefits even 
though most of them expected major benefits from improved elevation 
data. For example, the Environmental Protection Agency needs high-
accuracy, high-resolution topographic data to characterize the 
landscape for both environmental protection and assessment of ecosystem 
services but did not quantify the benefits. Narratives describing the 
benefits of improved elevation data without associated monetary 
benefits are also included in Dewberry (2011).
           analysis and national elevation program scenarios
    Benefit-cost analyses were developed and examined for more than 25 
program scenarios (Dewberry, 2011), which included various quality 
levels for the elevation data (table 2) and data-replacement cycles. 
The estimated costs for each scenario include those for data collection 
and life-cycle management. Each scenario would implement a national 
data-collection strategy to achieve cost efficiencies and meet the 
requirements of multiple organizations.

  Table 2--Data Quality Levels Used in the National Enhanced Elevation
                               Assessment.
------------------------------------------------------------------------
                                               Horizontal
                                                  Point       Vertical
                Quality Level                    Spacing      Accuracy
                                                (Meters)   (Centimeters)
------------------------------------------------------------------------
1............................................       0.35          9.25
2............................................        0.7          9.25
3............................................        1-2          18.5
4............................................          5        46-139
5............................................          5        93-185
------------------------------------------------------------------------
[, less than or equal to]

    The final analysis yielded 10 leading scenarios, which are shown in 
figure 1. The least beneficial scenario is one that provides national 
data coverage at quality level 3 (see table 2 for more information on 
quality levels) on a 25-year replacement schedule but realizes only 13 
percent of the benefits. In contrast, the national data coverage at 
quality level 1 on an annual replacement schedule realizes 98 percent 
of the conservative benefits. The 58-percent mid-range scenario offers 
a good benefit-to-cost ratio, uniform quality level 2 data, and an 8-
year acquisition cycle. All of the scenarios included quality level 5 
data coverage in Alaska, which would be collected by using 
interferometric synthetic aperture radar [ifsar] techniques; in Alaska 
cloud cover and remoteness preclude consideration of lidar data over 
much of the State. With the exception of the 98-percent scenario, all 
of the scenarios resulted in positive benefit-to-cost ratios ranging 
from 4:1 to 5:1 using the most conservative benefit estimates.
[GRAPHIC] [TIFF OMITTED] T5806.001

    .epsThe NEEA also reviewed current and emerging commercial 
elevation-data technologies, assessed data life-cycle-management costs 
for the various scenarios, and produced an inventory of existing 
elevation data derived from lidar and ifsar datasets. The inventory 
revealed that about 28 percent of the conterminous United States is 
covered by quality level 3 lidar data and that about 15 percent of 
Alaska is covered by ifsar data.
                                summary
    The current NDEP activity is a partnership between Federal, State, 
and other agencies. Although the effort is efficient (very little 
duplication of effort), the program currently meets less than 10 
percent of the needs identified in the NEEA. The following are the 
major findings:

  1.  Significant benefits could be realized by systematically 
        upgrading the Nation's elevation data. Hundreds of improved 
        business applications would benefit all levels of government 
        and multiple industries.
  2.  The developed program scenarios demonstrated that favorable 
        benefit-to-cost ratios can be achieved by integrating multiple 
        requirements in large projects.
  3.  A new information technology infrastructure is needed for a 
        project of this scale.
  4.  Current elevation technologies, industry capacity, data 
        standards, and related matters are sufficient; there are no 
        capability constraints or technical barriers precluding a 
        national program and no technical reasons to delay its 
        implementation.
  5.  The majority of applications now require data better than quality 
        level 3.
                            reference cited
    Dewberry, 2011, Final Report of the National Enhanced Elevation 
Assessment: Fairfax, VA., Dewberry, 84 p. plus appendixes (revised 
2012), available at http://www.dewberry.com/Consultants/
GeospatialMapping/FinalReport-NationalEnhancedElevationAssessment.
                                partners
    The NEEA was conducted under a contract between the U.S. Geological 
Survey and Dewberry (a consulting firm based in Fairfax, VA.). 
Additional support for the assessment came from other Federal agencies: 
the Federal Emergency Management Agency, the National Geospatial-
Intelligence Agency, the National Oceanic and Atmospheric 
Administration, and the Natural Resources Conservation Service.
                        for further information
    More information on the NEEA may be found at http://
nationalmap.gov/3DEP/neea.html, or by contacting the author at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196829f88959483b184829682df969e87">[email&#160;protected]</a> or (703) 648-35169.
                                 ______
                                 
        U.S. Department of the Interior, U.S. Geological Survey

         The 3D Elevation Program--Summary of Program Direction

                         (By Gregory I. Snyder)
                              introduction
    The 3D Elevation Program [3DEP] initiative responds to a growing 
need for high-quality topographic data and a wide range of other three-
dimensional representations of the Nation's natural and constructed 
features. The National Enhanced Elevation Assessment [NEEA], which was 
completed in 2011, clearly documented this need within government and 
industry sectors. The results of the NEEA indicated that enhanced 
elevation data have the potential to generate $13 billion in new 
benefits annually. The benefits apply to flood risk management, 
agriculture, water supply, homeland security, renewable energy, 
aviation safety, and other areas. The 3DEP initiative was recommended 
by the National Digital Elevation Program and its 12 Federal member 
agencies and was endorsed by the National States Geographic Information 
Council [NSGIC] and the National Geospatial Advisory Committee [NGAC].
                           goals and benefits
    The primary goal of 3DEP is to systematically collect enhanced 
elevation data in the form of high-quality light detection and ranging 
[lidar] data over the conterminous United States, Hawaii, and the 
territories on an 8-year schedule. Interferometric synthetic aperture 
radar [ifsar] data will be collected over Alaska, where both the cloud 
cover and the remote location preclude the use of lidar over much of 
the State. It is expected that private-sector data-acquisition 
companies will mobilize to respond to these lidar and ifsar data needs 
and that the products and services will be accessible to all levels of 
government and the public. 3DEP will provide easy access to these 
authoritative data and derived products by using a cloud-based 
infrastructure. 3DEP products and services will be provided nationally 
at significantly higher resolution and accuracy than are available 
today.
    The enhanced elevation data support flood-risk management, natural 
resources conservation, infrastructure management, agriculture and 
precision farming, aviation safety, renewable energy development, and 
many other identified business applications. The potential benefits to 
precision agriculture and intelligent vehicle navigation alone are 
estimated at over $9 billion annually (Dewberry, 2011). It is expected 
that new, unimagined information services will be created, thus 
spawning job growth and transformation in the geospatial community. The 
following examples demonstrate the value of enhanced elevation data to 
both Federal and State programs. These examples are among the 602 
applications documented in the NEEA report (Dewberry, 2011):

  1.  The Federal Emergency Management Agency [FEMA] expects that a 
        national enhanced elevation program could reduce the amount of 
        time needed to update its flood maps. These data could provide 
        significant benefits to the communities and citizens that are 
        customers of the National Flood Insurance Program by providing 
        updated information to affected communities and homeowners more 
        quickly. In addition, the national availability of enhanced 
        elevation data (not just for areas where FEMA identifies a 
        need) could lead to innovative tools that build on FEMA's 
        flood-risk data and make them more powerful, effective, and 
        easier to use; for example, users may be able to easily 
        visualize a variety of flood levels in three dimensions.
  2.  Using lidar data, U.S. Geological Survey [USGS] scientists 
        discovered a surface rupture along the Tacoma fault in the 
        State of Washington. This discovery led to a redesign of the 
        structural elements of a $735-million suspension bridge across 
        the Tacoma Narrows. When lidar data enable the identification 
        of active faults near planned nuclear-waste-treatment 
        facilities or a major suspension bridge, proactive mitigation 
        steps may be taken to avoid potential catastrophes in the 
        future.
  3.  The U.S. Environmental Protection Agency's [EPA's] environmental 
        impact assessments [EIAs] depend upon accurate elevation data 
        for vulnerability mapping and for estimating the threat of sea-
        level rise to human populations, infrastructure, the fish and 
        shellfish industries, and the coastal environment. Credible 
        EIAs cannot be performed without accurate lidar data. The EPA 
        estimates that billions of dollars would be saved by States, 
        local communities, and citizens because they may have accurate 
        elevation data on which to base their sea-level-rise mitigation 
        activities.
  4.  The Centers for Disease Control indicate that lidar data provide 
        significant benefits for occupational safety and health by 
        enabling many tasks to be performed in an office environment 
        that were previously performed in the field under dangerous or 
        unhealthful conditions. For example, conducting land surveys 
        during highway construction results in traffic deaths among 
        surveyors each year. This hazard may be largely eliminated by 
        the use of lidar-based surveys.
  5.  In the State of Alaska, poor-quality elevation data pose an 
        ongoing threat to aviation safety. Improved elevation data for 
        cockpit navigation and flight simulators may save a significant 
        number of lives each year by reducing the number of accidents 
        that result from the inability to safely fly over obstacles in 
        the air space. The elevation data in Alaska have large 
        demonstrated errors and are not reliable for safe navigation. 
        Poor weather conditions, extremes in terrain, and reliance on 
        air travel underscore Alaska's requirement for improved 
        elevation data for aviation safety.
  6.  Enhanced elevation data for the State of Illinois would 
        dramatically improve precision farming. A more accurate 
        depiction of variations in local relief helps determine a more 
        accurate rate for applying agricultural chemicals, thereby 
        yielding a significant cost savings and reducing agricultural 
        pollution. Approximately two-thirds of the land area of 
        Illinois is devoted to agricultural uses.
                               governance
    3DEP will be a cooperatively funded national elevation program led 
by the USGS, which is the Federal Geographic Data Committee's 
designated lead Federal agency for the collection and management of 
terrestrial elevation data. A governance model is being developed to 
solidify 3DEP partner agency roles and data acquisition strategies, 
program expectations, and constraints. The program will be designed to 
meet the mission-critical data needs of the 3DEP partners and other 
communities of use. The Federal agencies poised to realize the highest 
benefits to their mission from enhanced elevation data include the 
Natural Resources Conservation Service, the U.S. Army Corps of 
Engineers, the Defense Installation Spatial Data Infrastructure, the 
USGS, the National Oceanic and Atmospheric Administration, the Federal 
Emergency Management Agency, the EPA, the U.S. Forest Service, the 
Federal Aviation Administration, and the National Geospatial-
Intelligence Agency. States and other partners will be able to 
participate in 3DEP and could fund higher quality data where needed. 
Efforts to reach out to current and future partners are underway.

        The National Research Council (2007) concluded that the 
        Nation's elevation data are inadequate to support FEMA's flood-
        plain mapping activities and that new national elevation data 
        collection is required. The report proposed the use of lidar as 
        the primary technology for elevation data acquisition and noted 
        that these data would have many beneficial uses beyond FEMA's 
        flood-plain mapping needs.
                             implementation
    The program is expected to continue to function as an activity that 
is coordinated by the National Digital Elevation Program. Several key 
changes are expected as the current elevation program transitions to 
3DEP. These changes include an expansion of the partnership base, 
larger and thus more cost-effective projects, a directed approach for 
national coverage, improved data quality, and expanded application 
services.
                            references cited
    Dewberry, 2011, Final Report of the National Enhanced Elevation 
Assessment (revised 2012): Fairfax, VA., Dewberry, 84 p. plus 
appendixes, available at http://www.dewberry.com/Consultants/
GeospatialMapping/FinalReport-NationalEnhancedElevationAssessment.
    National Research Council, 2007, Elevation data for floodplain 
mapping: Washington, DC, The National Academies Press, 168 p. (Also 
available at http://books.nap.edu/openbook.php?record_id=11829&page=1.)
                        for further information
    Further information on the 3DEP initiative can be found at http://
nationalmap.gov/3DEP/ or by contacting Mark DeMulder at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9df0f9f8f0e8f1f9f8efdde8eefaeeb3faf2eb">[email&#160;protected]</a> or (703) 648-5569.
[GRAPHIC] [TIFF OMITTED] T5806.002

                                 .eps__
                                 
    Dr. Parrish. It is an amazing piece of work. It would 
require $146 million annually over 8 years, returning over $690 
million annually in benefits.
    State geological surveys have already made extensive use of 
high-resolution topography and geologic mapping in the National 
Cooperative Geologic Mapping Program. In New Jersey, State 
Geologist Karl Muessig worked with USGS to fly Barnegat Bay for 
detailed shallow bisymmetry topography before and after Sandy, 
and they now have a detailed data set that is being used for 
beach and dune damage assessments and sand redistribution 
determination. At the Colorado Survey, State Geologist Karen 
Berry is using lidar for mapping debris fans and debris flows 
that resulted from the floods in September.
    Efficient coordination of geospatial data acquisition in 
the Federal Government is often diminished by competition among 
those agencies for scarce resources. In Pennsylvania, we 
overcame the lack of a powerful coordinating body by creating 
PAMAP, partially funded by USGS, and it is part of the national 
map that USGS produced. We were able to provide 67 counties 
with a consistent, freely available base map across county 
boundaries. The need for coordination and the amount of 
duplication diminished dramatically because everyone had a 
consistent, freely available base map.
    By fully funding one basic and essential geospatial 
program, you could make a tremendous difference. The USGS has a 
long history of providing that basic, consistent, 
authoritative, current, essential, and openly available data. 
Any legislation on geospatial concerns would include support 
and growth of the 3DEP Initiative. The Association of American 
State Geologists strongly endorses the President's fiscal year 
2014 budget proposal for the U.S. Geological Survey and 
associated funding for 3DEP. If it could be increased, the job 
would be done faster. Thank you.
    Mrs. Lummis. I thank the panel.
    [The prepared statement of Dr. Parrish follows:]
    Prepared Statement of Jay B. Parrish, Ph.D., P.G., Former State 
 Geologist, Pennsylvania Geological Survey, Chair, Mapping Committee, 
            Association of American State Geologists [AASG]
  h.r. 1604--map it once, use it many tines act and h.r. 916--federal 
                land asset inventory reform act of 2013
    My name is Jay Parrish. I was the State Geologist and Director of 
the Pennsylvania Geological Survey. As Chair of the Mapping Committee 
of the Association of American State Geologists [AASG], I am testifying 
today on behalf of that organization, which represents the geological 
surveys in the 50 States and Puerto Rico.
    Thank you for this opportunity to comment on the importance of H.R. 
1604 Map It Once, Use It Many Tines Act and H.R. 916 Federal Land Asset 
Inventory Reform Act of 2013. These bills are focused on making 
geospatial data more useful and readily accessible to governmental and 
civilian users, something the professional geological community can 
endorse. I would like to focus my testimony on the essential role that 
the U.S. Geological Survey [USGS] plays in the operations of the 
Federal Government, and in particular a new initiative called 3DEP. I 
appreciate this opportunity to testify on behalf of the Association of 
American State Geologists.
    We regard the USGS role as essential to the operations of the 
Federal Government, while USGS provides scientific geological 
information that is needed to optimize the health, wealth, and security 
of the American people, as well as the health and sustainability of the 
Nation's natural environment.
    Both Federal and State government geological surveys maintain 
comprehensive information on the expansive and diverse landmass 
administered by the governments in which we serve, collected from 
extensive mapping, monitoring, and research activities.
    We believe that the President's budget proposal outlines support 
for what we regard as successful and effective USGS programs that 
stimulate economic development, that save lives and property from 
natural disasters, and that protect the environment and public health.
    When John Wesley Powell was director of the U.S. Geological Survey 
over 125 years ago, he told Congress ``A Government cannot do any 
scientific work of more value to the people at large than by causing 
the construction of proper topographic maps of the country.'' He 
implemented a plan to map the entire country, producing the topographic 
maps that every one of you, your constituents, and American businesses 
have used at some time in their existence.
    We endorse 3DEP as a means of continuing the ``Powell Plan'' to 
provide something of intrinsic value to the people: consistent, current 
and openly available geospatial data.
    State Geologists direct State geological surveys and work to ensure 
that their States are supported by optimal, useful information. From 
time to time, a technology matures in a way that offers an opportunity 
to revolutionize everything that we do on the land--resulting in cost 
savings and improved benefits for a broad range of activities in our 
communities and their economies. Today, lidar and associated 
technologies offer that new opportunity.
    The U.S. Geological Survey is developing the 3D Elevation Program 
[3DEP] initiative to systematically acquire high-quality lidar and 
ifsar data nationwide over the next 8 years: Light Detection and 
Ranging [lidar], data in the conterminous U.S. [CONUS], Hawaii, and the 
U.S. Territories; and Interferometric Synthetic Aperture Radar (ifsar 
data in Alaska). The National Enhanced Elevation Assessment [NEEA] 
study identified more than 600 requirements for 3D elevation data to 
address the mission critical issues of 34 Federal agencies, all 50 
States and for a sample of private sector companies, Tribes, and local 
governments. The initiative calls for funding to be increased to $146 
million annually over 8 years, returning more than $690 million 
annually in new benefits to the private sector directly, and to 
citizens through improved government program services.
    For geologic resource assessment and hazard mitigation, it is 
estimated that there would be benefits that exceed $51 million per year 
if this program were implemented. That's just one of many business uses 
that would benefit from a national lidar program. In my State, 
Pennsylvania, we have seen the PAMAP lidar data provide a consistent 
and free base map for geospatial tools across county boundaries to 
support geologic hazards assessment and mapping; flood risk assessment, 
response and mitigation; forest resource management, land use 
management and many other applications.
    Many organizations like the Association of American State 
Geologists agree that uniform national lidar data would facilitate 
mission-critical applications across government and spur innovations 
not possible with the patchwork of data we have in most places today.
    Some have asked the question about funding and whether or not a 
program of this scope could be achieved. It is clear that to achieve 
the goal to acquire data over the entire country in 8 years that 
investments will need to increase. It is estimated that the data 
acquisition rates will need to increase by three fold over today's rate 
in order to meet this timetable. New and improved program efficiencies 
and advancements in technology will help this along. The 3DEP 
initiative will achieve a 25 percent efficiency gain by moving toward 
larger projects where data acquisition costs are inherently lower.
    The momentum that 3DEP is experiencing must be accelerated. This 
initiative is a key component to advancing our Nation's geospatial 
capabilities. It is a well-coordinated plan based on well documented 
requirements and benefits, and it aims to meet a majority of real and 
important needs across the government. Any legislation on geospatial 
concerns should include the support and growth of the 3DEP initiative.
    In summary, the Association of American State Geologists strongly 
endorses the President's fiscal year 2013 budget proposal for the U.S. 
Geological Survey, and associated funding for 3DEP. If it could be 
increased, the job could be done faster. But it must be funded. And 
Federal, State, and local governments, in their implementation of 3DEP 
acquisition, must be allowed the flexibility to find the most cost-
effective means of collecting geological and topographical data, using 
available and existing government resources as well as employing the 
freedom to contract with any qualified organization for maximum savings 
to the taxpayer.
    Efficient coordination of geospatial data acquisition in the 
Federal Government is sorely diminished by competition among those 
agencies for scarce resources. By fully funding one basic and essential 
geospatial program, you could make a tremendous difference in 
geospatial data assets of our country. The USGS has a long history of 
providing that basic, consistent, current, essential, and openly 
available data. 3DEP is a way forward into the future.
    In particular, we endorse programs that are operated as 
partnerships between Federal agencies and State agencies, thus 
optimizing leveraged funds, as well as encouraging coordination, 
efficiency, and adoption of nation-wide standards.
    In closing, I want to again indicate that we appreciate this 
opportunity to offer information that we hope will be helpful for the 
work of the subcommittee.
                                 ______
                                 
          Questions Submitted for the Record to Jay B. Parrish
     Questions Submitted for the Record by The Honorable Rush Holt
  h.r. 1604--map it once, use it many times act and h.r. 916--federal 
                land asset inventory reform act of 2013
    Question. Dr. Parrish, does the Association of American State 
Geologists have any position on the two bills on the agenda today?
    Answer. No, AASG does not have a formal stand on either of the two 
bills.
    Question. Dr. Parrish, are there any lessons from Pennsylvania's 
experience with generating a lidar base map that you think are relevant 
to the national 3DEP initiative?
    Answer. My personal view is that it is extremely important to 
provide sufficient funding to accomplish the goal in as short a period 
of time as possible. PAMAP was created to follow a 3 year cycle. 3DEP 
should not be saddled with small budgets such that it takes decades to 
map the country. The data should be collected as coincident as 
possible.
    It is important to have a knowledgeable organization oversee data 
collection. USGS provided technical expertise for PAMAP. USGS has a 
well-thought out plan in 3DEP.
    Competition for funding and interference by State agencies with 
little understanding of mapping greatly slowed the creation of PAMAP. 
Adding a layer of bureaucracy on top of the mission of USGS would be 
counterproductive. Forcing USGS to solicit funds from other agencies 
can work, as it did with PAMAP, but it required a large expenditure of 
manpower and resulted in constant uncertainty. USGS should have the 
funding needed for 3DEP in their budget.
    USGS works well with the private sector to acquire the data, and 
set an example for our work on PAMAP. Private industry provides 
insights on emerging technology as well as suggestions on optimal data 
collection. By acquiring large areas of Pennsylvania at a time we 
achieved cost savings. The same is true of 3DEP.
    PAMAP provided a short-term boost to the Pennsylvania economy and 
created jobs, but, more importantly, in the long-term, the data set 
resulted in new economic development, new applications, and new ways of 
doing business that continued to stimulate the economy, and create 
savings in the existing government and industrial processes. The most 
obvious example is the Marcellus boom. The largest user of PAMAP data 
have been exploration companies. The same would be true on a national 
level with 3DEP.
                                 ______
                                 
    Mrs. Lummis. We will now begin with questions. The Chair 
recognizes herself for 5 minutes.
    Mr. Sumner, you mentioned in your testimony the notion of 
high risk lands that were identified. What do you mean by high 
risk lands?
    Mr. Sumner. I don't recall mentioning high risk lands.
    Mrs. Lummis. You mentioned high risk lands in association 
with, I thought, properties that we were receiving inadequate 
moneys in terms of Federal rents or royalties. Am I right?
    Mr. Sumner. Right. I am sorry. I misunderstood.
    Mrs. Lummis. That is OK.
    Mr. Sumner. What we were talking about there were primarily 
BLM lands and seeking their full potential and finding out ways 
to be able to better utilize that land and actually provide 
revenue to the government. So that is in relationship to the 
land inventory part of these two bills.
    Mrs. Lummis. So taking off on that notion of a land 
inventory that would allow a maximization of the benefits of 
those lands to the people of this country, the owners of that 
land, how might a national parcel system benefit that effort?
    Mr. Lovin, you were talking about a national parcel system. 
Take my State, for example, it is half Federal lands, half 
private lands. The private lands are taxed, because we have a 
property tax, an ad valorem tax in Wyoming, and each parcel of 
private land has a PIN number, a parcel identification number 
for purposes of valuing them for property tax assessments. Is 
that something that could or should be utilized with regard to 
the Federal estate?
    Mr. Lovin. Yes, it should. And again, across boundaries, 
across States and so forth, having a national parcel data set 
could provide so much benefit as the government looks to better 
utilize the land, as Mr. Sumner stated, but also in relation to 
economic development it could be a huge boon. You see many 
States where they do not have wherewithal for a statewide 
parcel initiative. You see businesses locating to where they 
can readily obtain that sort of information, where they may 
say, we are looking to build a factory in your State, we need 
information on a certain type of parcel within certain distance 
of rail, highway, what have you, different types of 
infrastructure. And in those States that have that kind of 
information readily handy, that is where they end up often 
locating. So it is a huge benefit to having that national 
parcel data set completed.
    Mrs. Lummis. Mr. Parrish, you used Pennsylvania as an 
example? Could you elaborate a little bit? That is clearly a 
private land State, one of the original 13 colonies. So they 
are not burdened by the same Federal presence that my State of 
Wyoming is. Might you explain how something that is working in 
a State like Pennsylvania, which is a private land State, could 
be utilized in a public land State, such as my own?
    Dr. Parrish. In terms of parcels?
    Mrs. Lummis. Yes. Yes, please.
    Dr. Parrish. Well, not to sound a little bit geeky, but 
where you start doing parcels, you have to have a good base. If 
you don't have a good base, you really can't do parcels because 
you end up adjusting lines, which leads to trouble. So you 
start with a good base. And once you start collecting the 
parcel data----
    Mrs. Lummis. So what is the base?
    Dr. Parrish. Oh. In the simplest form, it is an air photo, 
an orthoimage, and topography, because topography distorts the 
land surface. So if you really want to know what a parcel looks 
like, you have to know how much of it is a high slope and how 
that distorts where the boundary looks, when you look at a map 
view. So by having the orthophoto and the lidar data or 
topographic data, you have a good base to put your parcels on. 
Without that, you are really just making a drawing.
    Mrs. Lummis. And then what should follow? Once you have a 
good, solid base, what should come next?
    Dr. Parrish. Well, there are the various themes that we 
have spoken of that FGDC has pointed out. And usually you start 
with the most basic transportation hydrology and work your way 
up to parcels, because parcels are admittedly a man-made layer.
    Mrs. Lummis. Right.
    Dr. Parrish. So you want as many natural layers down first 
before you can put the man-made layer on top of that.
    Mrs. Lummis. And my time has expired. But I would note that 
might be a way to rightsize the inventory or quantification and 
coordinate the cost over time. So thank you for your input, 
gentlemen. I appreciate it.
    The Chair now recognizes Mr. Thompson from Pennsylvania.
    Mr. Thompson. I thank the gentlelady.
    For all the panel, in the testimony we just heard from 
USGS, their main point was that H.R. 1604 would actually 
increase duplication. To all panelists, do you agree with this? 
And just very briefly, why or why not?
    Mr. Lower, we will start with you.
    Mr. Lower. Thank you. I disagree with that. In reference to 
the comments from the USGS, I do agree that there are mission-
specific objectives from different agencies in terms of 
temporal type data, flying data, when leaves are on or leaves 
are off, for mapping data under certain conditions.
    However, what we see as duplication also relates to the 
coordination and the efficiency of mapping between the 
agencies. And just to reference an example, we have done some 
work down in the Caribbean and Puerto Rico for one agency. And 
another agency had similar work on the Virgin Islands, and the 
two agencies had not coordinated. And the coordination and 
efficiency between those agencies could have resulted in a more 
efficient planning and collection of a consolidated area and 
minimized the resources that are deployed, the costs that are 
involved with sending people down there, and airplanes and 
sensors. So that is just one example.
    So I do agree that there are mission-specific objectives 
for each agency. And we support all the uses of geospatial 
data. We are not saying each agency should not get what they 
need in terms of geospatial data. We do believe that there 
needs to be a coordinated effort between agencies.
    Mr. Thompson. OK. Thank you.
    Mr. Sumner.
    Mr. Sumner. I would certainly agree with that statement. 
And as representative of the professionals who meet the public 
face to face on the ground every day, dealing with their 
problems, we see this even beyond the coordination of the 
mapping itself, but even the coordination for the criteria on 
which the mapping is created. For example, in one situation, we 
might have an elevation base, a benchmark, if you will, that 
defines an elevation on a particular point, and in another 
situation it has a different elevation.
    So we see this as an opportunity for that coordination to 
occur as well, where we have uniform data on which everybody 
can depend across the country. And then when we address these 
issues that affect people, we have the proper information to do 
that with.
    Mr. Thompson. Thank you.
    Mr. Lovin.
    Mr. Lovin. Yes. I would echo that, I disagree with that 
statement, that there is tremendous duplication, as I said in 
my statement. And I will use my home State of Ohio as example, 
as kind of a microcosm, that the State IT department basically 
funded a statewide imagery and lidar initiative, much like we 
are talking here with 3DEP. And what we have seen is it saved 
tens of millions of dollars to the taxpayers of the State of 
Ohio from the fact that agency has now issued that to the Ohio 
Department of Transportation, to the Department of Natural 
Resources, all these other agencies. And then it trickles down 
also to the individual counties, and they are able to use that 
data. And again, I think there could be huge benefit if the 
Federal Government undertook a similar initiative as we are 
talking about with these two pieces of legislation.
    Mr. Thompson. Thank you.
    Dr. Parrish, good to see you again.
    Dr. Parrish. Thank you.
    Mr. Thompson. Thank you for your service to Pennsylvania. 
Thanks for your service at our alma mater, Penn State.
    Dr. Parrish. Thank you. Well, as you can guess, I would 
also agree with this, what has been said. If you make the 
investment in infrastructure, you avoid duplication. If you 
have FEMA interested only in stream valleys and collecting 
lidar there, and ag interested in ag land, and forestry 
interested in forest land, and each going out and collecting 
their own data set, there is going to be overlap. But if you 
have one agency that has the task of being the caretaker of 
that data layer, with USGS with topography, for instance, you 
could just collect it once, in one large geographic area, which 
makes the costs go way down because you don't have small 
postage stamps, and it becomes a much cheaper and much more 
usable data set to everybody and avoids duplication.
    And if you take the analogy of doing that at the State 
level with Ohio and Pennsylvania, where we avoided the 
duplication of counties doing everything over and over again, 
and look at States with the United States, there is no point in 
having an individual survey for a very small State surrounded 
by a bunch of bigger States. You may as well just do a big 
block at once.
    Mr. Thompson. Dr. Parrish, is it accurate to say that the 
Pennsylvania digital base map, PAMAP, has been beneficial 
because there has been a lack of coordination between USGS, the 
States, and other interested parties? Has it kind of helped 
fill that vacuum?
    Dr. Parrish. Well, actually, there has been tremendous 
coordination with USGS. It has been more of a problem within 
the State and local government where we haven't been able to 
come up with bodies, as are found in other States, that have 
been as effective. I guess I will leave it there. But as you 
well know, that the data being available made possible a lot of 
economic development. In particular, the Marcellus boom made 
tremendous use of the lidar that was acquired.
    Mr. Thompson. Very good.
    Thank you, Madam Chair.
    Mrs. Lummis. Thank you, Mr. Thompson. Do you have any more 
questions, Mr. Thompson?
    Mr. Thompson. Sure.
    Mrs. Lummis. Well, then, we will do a very brief second 
round. And, Mr. Thompson, you are recognized for 4 minutes.
    Mr. Thompson. Maybe we can do it in less. We will see.
    Mrs. Lummis. OK.
    Mr. Thompson. Thank you.
    Dr. Parrish, come back, just follow up on that. Are you 
aware of other States developing anything similar to PAMAP.
    Dr. Parrish. Well, yes, as was mentioned, Ohio, right next 
door, did a similar thing. There are a number of States that 
have their own system, Iowa, North Carolina. I don't want to 
leave anybody out; they will be offended. But there are many 
States who have done very similar things and have complete 
statewide coverage.
    Mr. Thompson. Very good.
    Mr. Lower, you stated in your testimony as reported by the 
GAO that the Federal Government does not have a current, 
accurate, and reliable inventory of its land assets. Can you 
elaborate on this and explain why this may be the case?
    Mr. Lower. Yes. In my testimony, there are multiple 
inventories from different agencies, and an issue consolidating 
and figuring out how all of those work together. And we have 
had discussions with the BLM related to that in terms of how do 
they consolidate all this data? How do they get an inventory to 
know what they really do have? So, yes. I believe there was in 
the number of 30 separate inventories they were dealing with.
    Mr. Thompson. Thank you.
    And, Mr. Lovin, you stated that OMB found total annual 
geospatial expenditures in Federal agencies alone was close to 
$4 billion, but there is no current accurate accounting of the 
Government's annual investment. I guess the question I have, 
any insight on how this can be? Can you elaborate on that?
    Mr. Lovin. Well, I mean, other than the fact that each of 
these agencies have their missions. And it is clear the 
stovepipe effect. As a business owner, I work for different 
Federal agencies. And you really see it where they are focused 
on their mission and they collect the data for that specific 
issue. But again, when you have nearly 40 agencies across the 
Federal Government doing that, it adds up pretty quickly.
    Mr. Thompson. Yes. Well, being from farm country, we like 
to call those silos.
    All right. Thank you, Madam Chair. I appreciate it. I yield 
back.
    Mrs. Lummis. I thank the gentleman.
    And in summary, I would like to give you each roughly a 
minute to see if there is anything you wish you had said. I 
mean, as you walk out of this room, is there just one thing 
that you wish you could have imparted during this testimony? 
And I will give you each an opportunity to answer that 
question.
    Mr. Lower.
    Mr. Lower. All right. Thank you. Just in reference to a 
comment that was made earlier by the subcommittee, in reference 
to Federal offices that advocate for the private sector. Just 
to note the Office of the Chief Counsel for Advocacy, Small 
Business Administration, is an example of that, as well as the 
old Urban Mass Transit Administration, now the Federal Transit 
Administration, had an Office of Private Sector Initiatives. I 
just wanted to make that comment related to one of the 
questions that was asked earlier.
    Mrs. Lummis. I thank the gentleman.
    Mr. Sumner, do you have a burning desire to give a last 
statement?
    Mr. Sumner. Not a burning desire perhaps. But I do think it 
is important to recognize that once again, as I said earlier, 
when we deal with the people on the ground and how they are 
affected by any number of activities, floods, whatever the case 
may be, it is critically important, we believe, to have good 
information that can be relied upon. And so many times we find 
that the information that is available isn't that good. And I 
pick on FEMA a little bit because of the nature of the maps 
that they have created over the years. But we certainly see 
again this is an opportunity to correct a lot of that and to 
provide information that really is helpful to the public and 
helpful to those of us who are trying to assist them.
    Mrs. Lummis. Thank you.
    Mr. Lovin.
    Mr. Lovin. Yes, I guess I would like to point out again 
that, as I mentioned, that the 3DEP program thus far has been a 
great model and I think could be a great example moving forward 
for this consolidation, because USGS has done a good job of 
reaching across agencies and pooling funding from FEMA and 
others to get this initiative moving forward. And also, as you 
have heard, both the Ohio program and the Pennsylvania program, 
USGS was a key stakeholder bringing funding and cooperation to 
those efforts.
    As you look at such a huge initiative to tackle, you have 
to start at it piece by piece, step by step. And I think the 
3DEP program would be a great way to look at this consolidation 
effort.
    Mrs. Lummis. Thank you, Mr. Lovin.
    I now recognize Mr. Parrish.
    Dr. Parrish. Thank you. I guess I would reiterate that USGS 
was designed to be a mapping agency. It is an objective source 
of scientific information, and it has worked very well in 
cooperation with States.
    The 3DEP program has an unexpected benefit that we haven't 
discussed at all, and that is when you are trying to get 
topography, you also get the height of every building and every 
tree as a throwaway piece of information, but you can keep that 
and actually know the elevation of every single piece of 
vegetation in the country and every building in the country. 
This is a tremendous tool. What can be done with it in the 
future is just mind-blowing. And we haven't really scratched 
the surface with what can be done with it, and the technology 
is changing. It is a very exciting time to think 3DEP might be 
able to do that for us. Thank you.
    Mrs. Lummis. I thank the panel. At a time of big data, when 
that is a buzzword about the possibilities that big data 
provide in every manner of our lives, this is yet another 
component. And we appreciate your expertise and thank you very 
much for your testimony.
    The members of the committee may have additional questions 
for you for the record. And I ask you to respond in writing if 
you hear from them.
    If there is no further business, this committee stands 
adjourned, with gratitude to our panel.
    [Whereupon, at 11:09 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
